Audit Report




OIG-12-008

INFORMATION TECHNOLOGY: The Department of the Treasury
Federal Information Security Management Act Fiscal Year 2011
Audit

November 10, 2011




Office of
Inspector General
Department of the Treasury
    THIS PAGE INTENTIONALLY LEFT BLANK

                                      DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220


                                            November 10, 2011
     OFFICE O F
INSPECTOR GENERAL


           MEMORANDUM FOR DAN TANGHERLINI
                          ASSISTANT SECRETARY OF THE TREASURY FOR
                            MANAGEMENT AND CHIEF FINANCIAL OFFICER

                                   ROBYN EAST
                                   DEPUTY ASSISTANT SECRETARY FOR
                                     INFORMATION SYSTEMS AND CHIEF
                                     INFORMATION OFFICER

           FROM:                   Marla A. Freedman /s/
                                   Assistant Inspector General for Audit

           SUBJECT:                Audit Report – FY 2011 Audit of Treasury’s FISMA
                                   Implementation for Its Unclassified Systems

           We are pleased to transmit the following reports:

                x   The Department of the Treasury Federal Information Security Management
                    Act Fiscal Year 2010 Performance Audit, November 10, 2011
                    (Attachment 1)
                x   Treasury Inspector General for Tax Administration – Federal Information
                    Security Management Act Report for Fiscal Year 2011 (Audit No.
                    2011-20-116), September 20, 2011 (Attachment 2)

           Attachment 1 presents the results of the performance audit of the Department of
           the Treasury’s (Treasury) compliance with the Federal Information Security
           Management Act (FISMA) for its unclassified systems. FISMA requires federal
           agencies, including the Department of the Treasury, to have an annual independent
           evaluation performed of their information security programs and practices and to
           report the results of the evaluations to the Office of Management and Budget
           (OMB). OMB has delegated its responsibility to the Department of Homeland
           Security (DHS) for the collection of annual FISMA responses. FISMA requires that
           the independent evaluation be performed by the agency Inspector General (IG) or
           an independent external auditor as determined by the IG. To meet our FISMA
           requirements, we contracted with KPMG LLP, an independent certified public
           accounting firm, to perform the FISMA audit of Treasury’s unclassified systems,
           except for those of the Internal Revenue Service (IRS), which was performed by
           the Treasury Inspector General for Tax Administration (TIGTA) and is presented as
           attachment 2. Appendix IV of attachment 1 includes our response to DHS’s FISMA
Page 2


2011 Questions for Inspectors General and incorporates the responses from the
TIGTA report. KPMG conducted its audit in accordance with generally accepted
government auditing standards.

Based on the results reported by KPMG, TIGTA, and the financial statement audit
report of the IRS conducted by the Government Accountability Office (GAO),1 we
determined that Treasury’s information security program is in place and is generally
consistent with FISMA, but could be more effective.

The KPMG audit of Treasury’s unclassified systems (except for those of the IRS)
identified a number of areas that could be improved. Specifically, KPMG reported
that:

    1.  Logical account management activities were not fully documented or
        consistently performed at OCC, OTS, TIGTA, DO and FMS
    2. Security incidents were not reported timely at the CDFI Fund, FMS, Mint,
        and TIGTA
    3. System security plans at DO, Mint, and FMS did not fully adopt NIST
        recommended security controls from NIST SP 800-53, Rev. 3,
        Recommended Security Controls for Federal Information Systems and
        Organizations
    4. FMS did not perform sufficient audit log reviews in accordance with NIST
        and Treasury standards
    5. BPD did not properly inventory media scheduled for sanitization in
        accordance with BPD procedures
    6. Plans of Action and Milestones (POA&Ms) were not tracked and remediated
        in accordance with NIST and Treasury requirements at FMS and OTS
    7. Vulnerability scanning and remediation was not performed in accordance
        with Treasury requirements at the CDFI Fund, DO, OTS, and TIGTA
    8. Contingency planning & testing and backup controls were not fully
        implemented or operating as designed at DO, FMS, TIGTA, and TTB
    9. Outdated and unsupported software was utilized at OTS
    10. TIGTA’s risk management program was not consistent with NIST SP 800-
        37, Rev 1, Guide for Applying the Risk Management Framework to Federal
        Information Systems
    11. The personnel termination procedures were not followed at FinCEN
    12. The system configuration management programs were not implemented
        correctly at DO and TIGTA

KPMG is making 43 recommendations to the responsible officials to address the
findings noted above.

1
 FINANCIAL AUDIT: IRS’s Fiscal Years 2010 and 2009 Financial Statements (GAO-11-142, dated
November 2010)
Page 3



TIGTA reported that IRS was also generally consistent with FISMA requirements.
However, TIGTA noted that the IRS information security program was not fully
effective as a result of the conditions identified in configuration management,
security training, plans of action and milestones, and identity and access
management.

In addition, GAO reported a continuing material weakness in IRS’s internal control
over information security that resulted in IRS’s inability to rely on the controls
embedded in its automated financial management systems to provide reasonable
assurance that (1) the financial statements are fairly stated in accordance with U.S.
generally accepted accounting principles and the GAO/PCIE Financial Audit Manual;
(2) financial information management relies on to support day-to-day decision-
making is current, complete, and accurate; and (3) proprietary information
processed by these automated systems is appropriately safeguarded. The new
deficiencies identified during fiscal year 2010 and the unresolved deficiencies from
prior audits continue to jeopardize the confidentiality, integrity, and availability of
information processed by IRS’s key systems, and increased the risk of material
misstatement of financial reporting.

In connection with the contract with KPMG, we reviewed their report and related
documentation and inquired of its representatives. Our review was differentiated
from an audit performed in accordance with generally accepted auditing standards.

If you have any questions or require further information, you may contact me at
(202) 927-5400 or Joel A. Grover, Deputy Assistant Inspector General for Financial
Management and Information Technology Audit, at (202) 927-5768.

Attachments

cc: Edward A. Roback
    Associate Chief Information Officer
    Cyber Security
    THIS PAGE INTENTIONALLY LEFT BLANK

            ATTACHMENT 1

      The Department of the Treasury
Federal Information Security Management Act
    Fiscal Year 2011 Performance Audit,
             November 10, 2011
    THIS PAGE INTENTIONALLY LEFT BLANK

The Department of the Treasury
Federal Information Security Management Act
Fiscal Year 2011 Performance Audit




November 10, 2011




KPMG LLP
2001 M Street, NW
Washington, DC 20036
                              The Department of the Treasury
      Federal Information Security Management Act Fiscal Year 2011 Performance Audit

                                                               Table of Contents

FISMA Performance Audit Report
BACKGROUND .......................................................................................................................................... 4
  Federal Information Security Management Act (FISMA)........................................................................ 4
  Federal Standards and Guidelines............................................................................................................. 4
  Treasury Bureaus/Offices (Bureaus)......................................................................................................... 5
  Treasury Information Security Management Program.............................................................................. 6
OVERALL AUDIT RESULTS .................................................................................................................... 9
FINDINGS.................................................................................................................................................. 12
  1. Logical account management activities were not fully documented or consistently
      performed at OCC, OTS, TIGTA, DO and FMS ............................................................................ 12
  2. Security incidents were not reported timely at the CDFI Fund, FMS, Mint, and TIGTA .............. 13
  3. System security plans at DO, Mint, and FMS did not fully adopt NIST recommended
      security controls from NIST SP 800-53, Rev. 3, Recommended Security Controls for
      Federal Information Systems and Organizations ............................................................................ 16
  4. FMS did not perform sufficient audit log reviews in accordance with NIST and Treasury
      standards.......................................................................................................................................... 17
  5. BPD did not properly inventory media scheduled for sanitization in accordance with BPD
      procedures ....................................................................................................................................... 18
  6. Plans of Action and Milestones (POA&Ms) were not tracked and remediated in accordance
      with NIST and Treasury requirements at FMS and OTS................................................................ 18
  7. Vulnerability scanning and remediation was not performed in accordance with Treasury
      requirements at the CDFI Fund, DO, and OTS............................................................................... 19
  8. Contingency planning & testing and backup controls were not fully implemented or
      operating as designed at DO, FMS, TIGTA, and TTB ................................................................... 20
  9. Outdated and unsupported software was utilized at OTS ............................................................... 22
  10. TIGTA’s risk management program was not consistent with NIST SP 800-37, Rev 1, Guide
      for Applying the Risk Management Framework to Federal Information Systems ......................... 23
  11. The personnel termination procedures were not followed at FinCEN............................................ 23
  12. The system configuration management programs were not implemented correctly at DO and
      TIGTA............................................................................................................................................. 24
MANAGEMENT RESPONSE TO DRAFT REPORT .............................................................................. 25

Appendices
APPENDIX I – TREASURY FISMA COMPLIANCE SUMMARY........................................................ 41
APPENDIX II – OBJECTIVE, SCOPE & METHODOLOGY ................................................................. 43
APPENDIX III – STATUS OF PRIOR YEAR FINDINGS ...................................................................... 47
APPENDIX IV – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO
   DHS’s FISMA 2011 QUESTIONS FOR INSPECTORS GENERAL................................................. 53
APPENDIX V – APPROACH TO SELECTION OF SUBSET OF SYSTEMS........................................ 70
APPENDIX VI – SELECTED SECURITY CONTROL CLASSES AND FAMILIES ............................ 72
APPENDIX VII – SUMMARY OF OTHER IT FINDINGS FROM TREASURY FINANCIAL
   STATEMENT AUDITS....................................................................................................................... 77
APPENDIX VIII – LIST OF ACRONYMS............................................................................................... 80
                    KPMG LLP
                    2001 M Street, NW
                    Washington, DC 20036




Honorable Eric Thorson
Inspector General, Department of the Treasury
1500 Pennsylvania Avenue, N.W.
Room 4436
Washington, DC 20220


Re: The United States Department of the Treasury Federal Information Security Management Act
    Fiscal Year 2011 Performance Audit

Dear Mr. Thorson:

This report presents the results of our independent evaluation of the U.S. Department of the Treasury’s
information security program and practices. The Federal Information Security Management Act of 2002
(FISMA) requires federal agencies, including the Department of the Treasury, to have an annual
independent evaluation performed of their information security programs and practices and to report the
results of the evaluations to the Office of Management and Budget (OMB). OMB has delegated its
responsibility to Department of Homeland Security (DHS) for the collection of annual FISMA responses.
FISMA requires that the independent evaluation be performed by the agency Inspector General (IG) or an
independent external auditor as determined by the IG. The Department of the Treasury Office of Inspector
General (OIG) contracted with KPMG LLP (KPMG) to conduct this independent evaluation (referred to
herein as a “performance audit”).

We conducted our performance audit in accordance with generally accepted government auditing
standards (GAGAS) issued by the Comptroller General of the United States (U.S.). Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

The objective of the performance audit is to determine the effectiveness of the Department of the
Treasury’s information security program and practices for its unclassified systems, including the
Department of the Treasury’s compliance with FISMA and related information security policies,
procedures, standards, and guidelines. We based our work, in part, on a sample of bureau-wide security
controls and system specific security controls across 15 sampled Treasury information systems. The scope
of our work did not include the Internal Revenue Service (IRS), as the component was audited by the
Treasury Inspector General for Tax Administration (TIGTA) or bureau wide security controls at the
Office of Thrift Supervision (OTS) as it ceased operations due to the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Pub. L. No. 111-203). Additional details regarding the scope of our
performance audit are included in the Objective, Scope, and Methodology section of this report.
Based on our audit work, we concluded that the U.S. Department of the Treasury’s information security
program and practices for its non-IRS bureaus’ unclassified systems were generally consistent with the
FISMA legislation, OMB information security requirements, and related information security standards
published by the National Institute of Standards and Technology (NIST). While the information security
program was generally consistent with the FISMA legislation, the program was not fully effective as
reflected in the findings identified in the following areas:

    1. Logical account management activities were not fully documented or consistently performed at
        OCC, OTS, TIGTA, DO and FMS.
    2. Security incidents were not reported timely at CDFI Fund, FMS, Mint, and TIGTA.
    3. System Security Plans at DO, FMS, and Mint did not fully adopt NIST-recommended security
        controls from NIST SP 800-53, Revision 3, Recommended Security Controls for Federal
        Information Systems and Organizations.
    4. FMS did not perform sufficient audit log reviews in accordance with NIST and Treasury
        standards.
    5. BPD did not properly inventory media scheduled for sanitization in accordance with BPD
        procedures.
    6. POA&Ms were not tracked and remediated in accordance with NIST and Treasury requirements
        at FMS and OTS.
    7. Vulnerability scanning and remediation were not performed in accordance with Treasury
        requirements at CDFI Fund, DO, and OTS.
    8. Contingency planning & testing and backup controls were not fully implemented or operating as
        designed at DO, FMS, TIGTA, and TTB.
    9. Outdated and unsupported software was utilized at OTS.
    10. TIGTA’s risk management program was not consistent with NIST SP 800-37, Rev 1, Guide for
        Applying the Risk Management Framework to Federal Information Systems.
    11. The personnel termination procedures were not followed at FinCEN.
    12. The system configuration management programs were not implemented correctly at DO and
        TIGTA.

We have made 43 recommendations related to these control deficiencies that, if addressed by
management, will strengthen the respective bureaus, offices, and the Department’s information security
program. In a written response, Treasury agreed with all of our findings and recommendations and
provided plans for corrective actions that are responsive to our recommendations (see Management
Response to Draft Report on page 25). We tested controls that were implemented during the period July
1, 2010 to June 30, 2011. We caution that projecting the results of our audit to future periods is subject to
the risks that controls may become inadequate because of changes in technology or because compliance
with controls may deteriorate.

Appendix I, Treasury FISMA Compliance Summary, summarizes the findings noted during the audit
based on a sample of bureau-wide security controls (Table 1) and system specific security controls
(Table 2) across 15 sampled Treasury information systems. Appendix II describes the FISMA audit’s
objective, scope, and methodology. Appendix III, Status of Prior Year Findings, summarizes the
Treasury’s progress in addressing prior year recommendations. Appendix IV provides The Department of
the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General.


                                                                                                       Page 2
Appendix V, Approach to Selection of Subset of Systems, describes how we selected systems for review.
Appendix VI, Selected Security Control Classes and Families, describes the selected NIST Special
Publication 800-53, Revision 3, security controls reviewed for each of the selected systems. Appendix VII
summarizes IT security findings identified from the Treasury’s financial statement audit at non-IRS
bureaus and Appendix VIII contains a list of acronyms used in this report.

Sincerely,




November 10, 2011




                                                                                                   Page 3
The Department of the Treasury FISMA Performance Audit – 2011
BACKGROUND
Federal Information Security Management Act (FISMA)

Title III of the E-Government Act of 2002 (the Act), commonly referred to as FISMA, focuses on
improving oversight of federal information security programs and facilitating progress in correcting
agency information security weaknesses. FISMA requires federal agencies to develop, document, and
implement an agency-wide information security program that provides security for the information and
information systems that support the operations and assets of the agency, including those provided or
managed by another agency, contractor, or other source. The Act assigns specific responsibilities to
agency heads and IGs in complying with requirements of FISMA. The Act is supported by OMB, agency
security policy, and risk-based standards and guidelines published by NIST related to information security
practices.

Under FISMA, agency heads are responsible for providing information security protections
commensurate with the risk and magnitude of harm resulting from the unauthorized access, use,
disclosure, disruption, modification, or destruction of information and information systems. Agency heads
are also responsible for complying with the requirements of FISMA and related OMB policies and NIST
procedures, standards, and guidelines. FISMA directs federal agencies to report annually to the OMB
Director, Comptroller General, and selected congressional committees on the adequacy and effectiveness
of agency information security policies, procedures, and practices and compliance with FISMA. OMB has
delegated some responsibility to DHS in memorandum M-10-28, Clarifying Cybersecurity
Responsibilities and Activities of the Executive Office of the President and the Department of Homeland
Security (DHS), for the operational aspects of Federal cybersecurity such as establishing government-
wide incident response and operating the tool to collect FISMA metrics. In addition, FISMA requires
agencies to have an annual independent evaluation performed of their information security programs and
practices and to report the evaluation results to OMB. FISMA states that the independent evaluation is to
be performed by the agency IG or an independent external auditor as determined by the IG.

Federal Standards and Guidelines

OMB has directed agencies to use NIST Federal Information Processing Standards (FIPS) Publication
199, Security Categorization of Federal Information and Information Systems, to apply a security
categorization rating to an information system. This rating is assigned to an information system based on
an evaluation of its confidentiality, integrity, and availability.

OMB has further directed that agencies use NIST FIPS Publication 200, Minimum Security Requirements
for Federal Information and Information Systems, in order to apply a security controls baseline to the
information system, based on the FIPS Publication 199 categorization. FIPS Publication 200 specifies the
minimum security requirements for the information system and provides a risk-based process for
determining the minimum security controls necessary for the information system. In addition, FIPS
Publication 200 specifies 18 controls families that must be addressed when implementing security
controls commensurate with the FIPS Publication 199 security categorization of the system.

NIST Special Publication (SP) 800-53 Revision (Rev.) 3 Recommended Security Controls for Federal
Information Systems and Organizations further defines the 18 controls families outlined in FIPS
Publication 200, by defining the minimum set of security controls for non-national security systems of all
Federal agencies. NIST SP 800-53 Rev. 3 then divides the 18 controls families into three control classes
(management, operational and technical security controls). Management controls are the safeguards or
countermeasures, related to an information system, which focus on the management of risk and system
security. Operational controls are the safeguards and countermeasures for an information system, but are


                                                                                                    Page 4
The Department of the Treasury FISMA Performance Audit – 2011
primarily implemented and executed by individuals (as opposed to information systems). Technical
controls are also the safeguards or countermeasures for an information system, but are primarily
implemented and executed by the system through mechanisms contained in the hardware, software, or
firmware components of the system. Table 1 details the security control classes and families.

                       Table 1: Selected Security Control Classes and Families


             Security Control Class                  Security Control Family
                                         Planning
                                         Program Management
            Management                   Risk Assessment
                                         Security Assessment and Authorization
                                         System and Services Acquisition
                                         Awareness and Training
                                         Configuration Management
                                         Contingency Planning
                                         Incident Response
            Operational                  Maintenance
                                         Media Protection
                                         Personnel Security
                                         Physical and Environmental Protection
                                         System and Information Integrity
                                         Access Control
                                         Audit and Accountability
            Technical
                                         Identification and Authentication
                                         System and Communications Protection
            Source: NIST SP 800-53 Rev. 3


Treasury Bureaus/Offices (Bureaus)

Treasury consists of 14 operating bureaus and offices, including:

  1. Alcohol and Tobacco Tax and Trade Bureau (TTB) – Responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and tobacco products.
     TTB also collects excise taxes for firearms and ammunition.
  2. Bureau of Engraving and Printing (BEP) – Designs and manufactures U.S. currency (paper),
     securities, and other official certificates and awards.
  3. Bureau of the Public Debt (BPD) – Borrows the money needed to operate the Federal
     government. It administers the public debt by issuing and servicing U.S. Treasury marketable,
     savings, and special securities.
  4. Community Development Financial Institution (CDFI) Fund – Created to expand the
     availability of credit, investment capital, and financial services in distressed urban and rural
     communities.
  5. Departmental Offices (DO) – Primarily responsible for policy formulation. The DO, while not a
     formal bureau, is composed of divisions headed by Assistant Secretaries, some of whom report to



                                                                                                 Page 5
The Department of the Treasury FISMA Performance Audit – 2011
      Under Secretaries. These offices include domestic finance, economic policy, General Council,
      International Affairs, Legislative Affairs, Management, Public Affairs, Tax Policy, and Terrorism
      and Finance Intelligence. The Office of Cybersecurity, within the Office of Management, is
      responsible for the development of IT Security Policy.
  6. Financial Crimes Enforcement Network (FinCEN) – Supports law enforcement investigative
      efforts and fosters interagency and global cooperation against domestic and international financial
      crimes. It also provides U.S. policy makers with strategic analyses of domestic and worldwide
      trends and patterns.
  7. Financial Management Service (FMS) – Receives and disburses all public monies, maintains
      government accounts, and prepares daily and monthly reports on the status of government finances.
  8. Internal Revenue Service (IRS) – Responsible for determining, assessing, and collecting internal
      revenue in the U.S.
  9. Office of the Comptroller of the Currency (OCC) – Charters, regulates, and supervises national
      banks and thrift institutions to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.
  10. Office of the Inspector General (OIG) – Conducts and supervises audits and investigations of
      Treasury programs and operations. The OIG also keeps the Secretary and the Congress fully and
      currently informed about problems, abuses, and deficiencies in Treasury programs and operations.
  11. Office of Thrift Supervision (OTS) – The primary regulator of all Federal and many state-
      chartered thrift institutions, which include savings banks and savings and loan associations. OTS
      was consolidated into OCC and, as a result of the Dodd–Frank Wall Street Reform and
      Consumer Protection Act, ceased to exist as of July 21, 2011.
  12. United States Mint (Mint) – Designs and manufactures domestic, bullion, and foreign coins as
      well as commemorative medals and other numismatic items. The Mint also distributes U.S. coins to
      the Federal Reserve banks as well as maintains physical custody and protection of our nation’s
      silver and gold assets.
  13. Special Inspector General for the Troubled Asset Relief Program (SIGTARP) – Has the
      responsibility to conduct, supervise and coordinate audits and investigations of the purchase,
      management, and sale of assets under the Troubled Asset Relief Program (TARP). SIGTARP’s goal
      is to promote economic stability by assiduously protecting the interests of those who fund the
      TARP programs (i.e., the American taxpayers).
  14. Treasury Inspector General for Tax Administration (TIGTA) – Conducts and supervises audits
      and investigations of IRS programs and operations. The TIGTA also keeps the Secretary and the
      Congress fully and currently informed about problems, abuses, and deficiencies in IRS programs
      and operations.

The scope of KPMG’s 2011 FISMA audit did not include the IRS.

Treasury Information Security Management Program

Treasury Office of the Chief Information Officer (OCIO)

The Treasury Chief Information Officer (CIO) is responsible for providing Treasury-wide leadership and
direction for all areas of information and technology management, as well as the oversight of a number of
information technology (IT) programs. Among these programs is Cyber Security, which has
responsibility for the implementation and management of Treasury-wide IT security programs and
practices. Through its mission, the OCIO Cyber Security Program develops and implements IT security
policies and provides policy compliance oversight for both unclassified and classified systems managed
by each of Treasury’s bureaus. The OCIO Cyber Security Program’s mission focuses on the following
areas:



                                                                                                   Page 6
The Department of the Treasury FISMA Performance Audit – 2011
1. Cyber Security Policy and Program Performance Measurement – Manages and coordinates the
   Departmental cyber security policy for sensitive (unclassified) systems throughout the Department,
   assuring these policies and requirements are updated to address today’s threat environment, and
   conducts program performance, progress monitoring and analysis.
2. Performance Monitoring and Reporting – Implements collection of Federal and Department-
   specific security measures and reports those to national authorities and in appropriate summary or
   dashboard form to senior management, IT managers, security officials, and Bureau officials. For
   example, this includes preparation and submission of the annual FISMA report and more frequent
   continuous monitoring information through CyberScope.
3. Cyber Security Reviews – Conducts technical and program reviews to help strengthen the overall
   cyber security posture of the Department and meet our oversight responsibilities.
4. Enterprise-wide Security – Works with the Bureaus’ and Treasury’s Government Security
   Operations Center to deploy new Department-wide capabilities or integrate those already in place, as
   appropriate, to strengthen the overall protection of the Department. Examples include implementation
   of Domain Name Service Security Extensions (DNSSEC), an automated asset inventory, and
   Department-wide security-related audit findings. Includes addressing the Department’s strategies and
   plans to mitigate cyber security risks from configuration and other vulnerabilities.
5. Understanding Security Risks and Opportunities from New Technologies – New information and
   security technologies present both risks (e.g., introduction of new vulnerabilities) and opportunities
   (e.g., new means to provide secure and original functionality for users). OCIO seeks to understand
   these technologies, their associated risks and opportunities, and share and use that information to the
   Department’s advantage. Vulnerability Analysis, Configuration and Planning: analyzes current and
   emerging technologies and Cyber Critical Infrastructure Protection. Implements cyber-related
   requirements of Homeland Security Presidential Directive No. 7, “Critical Infrastructure
   Identification, Prioritization, and Protection,” focusing on the protection of Department-owned cyber
   assets.
6. Treasury Computer Security Incident Response Capability (TCSIRC) – Provides incident
   reporting with external reporting entities and conducts performance monitoring and analyses of
   CSIRCs within the Department.
7. National Security Systems – Manages and coordinates the Department-wide program to address the
   cyber security requirements of national security systems through the development of policy and
   program or technical security performance reviews.
8. Cyber Security Sub-Council (CSS) of the CIO Council – Operates to serve as the formal means for
   gaining bureau input and advice as new policies are developed, enterprise-wide activities are
   considered, and performance measures are developed and implemented; provides a structured means
   for information-sharing among the bureaus.

The CIO has tasked the Associate Chief Information Officer for Cyber Security (ACIOCS) with the
responsibility of managing and directing the OCIO’s Cyber Security program, as well as ensuring
compliance with statutes, regulations, policies, and guidance. The ACIOCS and the Cyber Security
Program have established Treasury Directive Publication (TD P) 85-01, Treasury Information
Technology Security Program, as the Treasury-wide IT security policy to provide for information security
for all information and information systems that support the mission of the Treasury, including those
operated by another Federal agency or contractor on behalf of Treasury. In addition, as OMB periodically
releases updates/clarifications of FISMA or as NIST releases updates to publications, the ACIOCS and
the Cyber Security Program have responsibility to interpret and release updated policy for Treasury. The
ACIOCS and the Cyber Security Program are also responsible for promoting and coordinating a
Treasury-wide IT security program, as well as monitoring and evaluating the status of Treasury’s IT
security posture and compliance with statutes, regulations, policies, and guidance. Lastly, the ACIOCS
has the responsibility of managing Treasury’s IT Critical Infrastructure Protection (CIP) program for
Treasury information technology assets.


                                                                                                    Page 7
The Department of the Treasury FISMA Performance Audit – 2011

Bureau Chief Information Officers (CIOs)

Organizationally, the Treasury has established bureau-level and office Chief Information Officers (CIOs).
The CIOs are responsible for managing the IT security program for their bureau, as well as advising the
bureau head on significant issues related to the bureau IT security program. The CIOs also have the
responsibility for overseeing the development of procedures that comply with Treasury OCIO policy and
guidance and federal statutes, regulations, policy, and guidance. The bureau Chief Information Security
Officers (CISO) are tasked by their respective CIOs to serve as the central point of contact for the
bureau’s IT security program, as well as to develop and oversee the bureau’s IT security program. This
includes the development of policies, procedures, and guidance required to implement and monitor the
bureau IT security program.

Treasury – Bureau OCIO Collaboration

The Treasury OCIO has established the Treasury CIO CSS, which is co-chaired by the ACIOCS and a
Bureau CIO. The CSS serves as a mechanism for obtaining bureau-level input and advises on new
policies, Treasury-wide IT security activities, and performance measures. The CSS also provides a means
for sharing IT security-related information among bureaus. Included on the CSS are representatives from
the OCIO, bureau CIO organizations, as well as the OIG – Office of IT Audits and TIGTA – Office of
Audits.




                                                                                                   Page 8
The Department of the Treasury FISMA Performance Audit – 2011
OVERALL AUDIT RESULTS

We concluded that the Department’s information security program and practices for its non-IRS bureaus’
unclassified systems were generally consistent 1 with the FISMA legislation and related information
security policies, standards, and guidelines. However, they were not fully effective resulting in the
identification of 12 categories of control weaknesses and 43 recommendations that the bureaus, offices,
and the Treasury Department should address to strengthen their information security management
programs. The Findings section of this report presents the detailed findings and associated
recommendations.

Additionally, we evaluated all prior year findings from the fiscal year (FY) 2010 FISMA Evaluation and
determined that the bureaus implemented all recommendations, with the exception of FMS Prior Year
Finding #3 for POA&Ms, which FMS partially addressed. We reissued this exception as FY 2011 FMS
Finding #6. See Appendix II, Status of Prior Year Findings, for additional details.

Summaries of the 12 categories of control weaknesses follow:

       1. Logical account management activities were not fully documented or consistently
          performed at OCC, OTS, TIGTA, DO and FMS

            We noted that account management activities were not fully documented at OCC, OTS, and
            TIGTA. Additionally, we noted account management activities were not consistently performed
            at DO and FMS. By not defining access control policies and procedures, there is an increased risk
            that potentially unauthorized access could occur within the IT infrastructure.

       2. Security incidents were not reported timely at the CDFI Fund, FMS, Mint, and TIGTA

            We identified an inconsistent implementation of incident reporting security controls at four
            Treasury bureaus. These bureaus had reported security incidents after the reporting deadlines
            lapsed. By not reporting security incidents in a timely manner, these bureaus increased the risk
            posed to their information systems while the incidents were unreported.

       3. System security plans at DO, Mint, and FMS did not fully adopt NIST recommended
          security controls from NIST SP 800-53 Rev. 3, Recommended Security Controls for Federal
          Information Systems and Organizations

            We noted three Treasury bureaus’ information systems relied on security plans that were not
            compliant with NIST SP 800-53, Rev. 3, Recommended Security Controls for Federal
            Information Systems and Organizations. NIST SP 800-53, Rev 3, was issued in August 2009 and
            agencies were required to implement this guidance one year after issuance. Accordingly, these
            systems’ security plans utilized outdated security policies from NIST SP 800-53 Rev 2 to protect
            their information and assets. Failing to select the proper baseline of security controls has a
            negative effect on subsequent security activities in the NIST Risk Management Framework.
            Therefore, system security controls may not appropriately or sufficiently protect the
            confidentiality, integrity, and availability of sensitive bureau information.




1
    TIGTA will provide a separate report evaluating the IRS’s implementation of the U.S. Treasury’s information security program.



                                                                                                                          Page 9
The Department of the Treasury FISMA Performance Audit – 2011
   4. FMS did not perform sufficient audit log reviews in accordance with NIST and Treasury
      standards

       FMS did not document their review of their audit logs and actions taken in response to unusual
       log events or suspicious transactions during the audit period for one sampled information system.
       While FMS took actions previously to address a similar issue identified from the prior year
       financial statement audit, the limited scope of FMS’s corrective actions did not include a risk
       analysis necessary to identify significant audit events worthy of review and subsequent
       investigations, as required by NIST SP 800-53 security control AU-2 Auditable Events.

       By not identifying additional significant audit events to monitor, system owners could be unable
       to identify and mitigate all significant threats to the information system. This could cause FMS
       personnel to remain unaware of security incidents that have already taken place, leaving the
       system in a compromised state for an extended period of time.

   5. BPD did not properly inventory media scheduled for sanitization in accordance with BPD
      procedures

       BPD did not follow all aspects of its bureau media sanitization policies. BPD’s media sanitization
       process did not ensure a clear chain of custody and full accounting of hard drives, backup tapes,
       and other digital media throughout the entire media sanitization process. By not appropriately
       securing the IT hardware that are intended to be degaussed, or reconciling all such IT hardware
       against known inventory listings, it is impossible to determine the accuracy and completeness of
       the sanitization and destruction process for hardware and media.

   6. POA&Ms were not tracked and remediated in accordance with NIST and Treasury
      requirements at FMS (Repeat Finding) and OTS

       FMS did not record and update security vulnerabilities in a timely manner for three sampled
       systems. For the sampled systems, we noted that FMS did not review and revise expected
       completion dates for corrective actions, record known high-risk vulnerabilities that could not be
       closed in 60 days, or correctly report the completion status on outstanding POA&M items. This
       has been an on-going issue at FMS, with similar findings reported in the FY 2009 and 2010
       FISMA Audits.

       OTS employees were aware of a high-risk security vulnerability in one of the sampled
       information systems for over 30 days and did not record a correction action plan for it in their
       POA&M.

       By not timely recording and updating identified security vulnerabilities in their respective
       systems, bureau and Treasury management would not be able to exercise their oversight
       responsibilities to modify funding levels, human resources, and requested priorities in response to
       identified security weaknesses.




                                                                                                   Page 10
The Department of the Treasury FISMA Performance Audit – 2011
   7. Vulnerability scanning and remediation were not performed in accordance with Treasury
      requirements at the CDFI Fund, DO, and OTS

       We noted during the audit that three Treasury bureaus did not conduct monthly vulnerability
       scans required by their IT security policy. Without knowledge of missing security patches,
       insecure configurations, or application vulnerabilities, Treasury bureaus could not take steps to
       mitigate potential vulnerabilities in their information systems.

   8. Contingency planning & testing and backup controls were not fully implemented or
      operating as designed at DO, FMS, TIGTA, and TTB

       We noted during the audit that four Treasury bureaus did not fully implement NIST Contingency
       Planning (planning, testing, and backup) controls as required by NIST and Treasury guidance. A
       lack of frequent, successful backups can have a significant negative effect on Treasury
       information systems if a disaster (i.e., hard-drive failure, natural disaster, national emergency,
       etc.) were to occur. Data that has not been stored off-site on tape or other media can be lost if a
       disaster were to occur. Additionally, disaster failover tests are paramount in assuring that in
       emergencies, the critical infrastructure protection (CIP) systems can remain operational with the
       least amount of down time possible. Failure to appropriately test Contingency Plans could result
       in the unavailability of critical Treasury information and information systems.

   9. Outdated and unsupported software was utilized at OTS

       We noted that OTS utilized an unsupported and out-dated server operating system that was no
       longer NIST-approved. By not maintaining vendor-supported operating system software,
       information system availability, confidentiality, and integrity could be compromised.

   10. TIGTA’s risk management program was not consistent with NIST SP 800-37, Rev 1, Guide
       for Applying the Risk Management Framework to Federal Information Systems

       TIGTA had not updated their risk assessment program to comply with NIST 800-37 Rev 1 at the
       time of the 2011 FISMA audit. As NIST SP 800-37, Rev 1, was issued in February 2010, OMB
       requires federal agencies to adopt this NIST guidance within one year of issuance. An insufficient
       risk management program can lead to ineffective risk-based decision-making and untimely
       implementation of system-level controls.

   11. The personnel termination procedures were not followed at FinCEN

       FinCEN was unable to provide completed personnel separation forms for 18 of 25 separated
       employees and contractors as evidence that it completed its exit clearance procedures. Without
       separation forms as evidence that FinCEN supervisors and others completed the separation
       process, FinCEN could not demonstrate that it consistently executed its separation procedures and
       collected all government issued property.

   12. The system configuration management programs were not implemented correctly at DO
       and TIGTA

       We noted during the course of the audit evaluation that DO and TIGTA lacked appropriately
       defined and implemented system Configuration Management programs as required by Treasury’s
       TD P 85-01, Treasury Information Technology Security Program. By not adequately
       implementing their systems’ Configuration Management programs, Treasury bureaus reduce their


                                                                                                   Page 11
The Department of the Treasury FISMA Performance Audit – 2011
       ability to track and maintain version control, protect against harmful or subversive code
       implementation, and recover from a disaster or service interruption.

FINDINGS

1. Logical account management activities were not fully documented or consistently
   performed at OCC, OTS, TIGTA, DO and FMS

   KPMG identified an inconsistent implementation of logical access controls at five bureaus including
   the OCC, OTS, TIGTA, DO, and FMS. KPMG noted the following:

   1. Account Management activities were not fully documented as required by Treasury Directive
      Publication (TD P) 85-01, Treasury Information Technology Security Program, and bureau-
      specific policies at OCC, OTS, and TIGTA.
      x OCC did not have documented approvals to grant all new bank examiners access to a certain
         business application. OCC network administrators explained that a former OCC official gave
         verbal approval for all new bank examiners to access this business application an unknown-
         number of years ago. Thus, sampled new users for the OCC system lacked evidence of
         management approval for the level of access granted to the system. (See Recommendation #1)
      x OTS management did not establish a process to review system administrators and application
         service accounts for continued appropriateness for a sampled OTS application. Additionally,
         OTS did not document in the SSP or other application configuration document the required
         application service accounts for the application to function properly, thus limiting OTS’
         ability to identify unnecessary service accounts. (See Recommendations # 2 and 3)
      x TIGTA did not fully document account management activities (e.g., review frequency,
         inactivity limits, use of shared accounts) in their SSPs. TIGTA management was unaware of
         the lack of documentation until a 2010 security assessment was conducted. In response to the
         security assessment, TIGTA established four corrective actions in the system’s POA&Ms with
         scheduled completion dates of October 2011, April 2012, July 2012, and December 2012.
         These security weaknesses continued to exist at the time of KPMG’s FY 2011 FISMA audit.

   2. Account Management activities were not consistently performed as required by TD P 85-01,
      Treasury Information Technology Security Program, and bureau-specific policies at DO and
      FMS.
      x For a sampled DO system, new users were granted access without formal authorization, and
         DO did not review existing users’ access for appropriateness concerning user privileges. DO
         officials did not have an effective process for authorizing new users and were unaware that a
         periodic review of user access for continued appropriateness was required. (See
         Recommendations #4 and 5)
      x For a sampled FMS payment management system, 12 user accounts out of 2950
         inappropriately remained active following 90 days of inactivity. Additionally, 920 user
         accounts out of 2950 did not have a last login date recorded, suggesting these accounts may
         never have been used by the account owner. KPMG noted a similar finding in a FY 2010
         financial statement audit for the sampled system, but FMS’s corrective actions to implement a
         fully automated solution to disable inactive accounts were not fully effective. FMS attributed
         the noted conditions to human error during the transition to an automated solution. Prior to
         and after the transition to a fully automated solution, FMS did not monitor if the automated
         solution was working as intended. (See Recommendations #6 and 7)




                                                                                                Page 12
The Department of the Treasury FISMA Performance Audit – 2011
   These control deficiencies all demonstrate that these bureaus did not appropriately develop written
   policies and procedures, or did not implement defined policies for reviewing user access, and
   disabling or deleting unnecessary user or system administrator access. By not defining access
   management policies and procedures, there is an increased risk that IT staff could improperly
   implement identity and access controls. By not implementing a periodic review of all user and
   administrator accounts for inactivity and disabling inactive accounts according to policy, there is an
   increased risk that users could gain or retain unauthorized access and/or perform unauthorized
   transactions on their respective systems.

   We recommend that OCC management:

       1. Document the process for granting access to the newly hired bank examiners, including the
          associated user roles and required management approvals.

   We recommend that OCC, in its capacity managing prior OTS systems:

       2. Add the review of system administrator and application service accounts for the sampled
          system to the review of external user accounts.

       3. Document the purpose and use of application service accounts in the SSP or other
          publication.

   Based on TIGTA’s planned corrective actions, we are not making a recommendation.

   We recommend that DO management:

       4. Perform an annual review of end user accounts that addresses appropriateness of user access
          rights. As stated in the DO SSP, the Information System Security Officers (ISSOs) and/or the
          system administrators of each minor application should perform this review.

       5. Develop and implement a formal account approval process. A formal approval form should
          exist for all system users, including contractors. These forms should be properly tracked and
          stored to ensure that documentation is not lost or deleted.

   We recommend that FMS management:

       6. Continue to monitor the automated solution to disable user accounts after 90 days of
          inactivity in order to confirm the automated solution is working in all cases.

       7. Perform a manual monthly review of all user accounts, and disable or delete (as appropriate)
          accounts that have not logged into the system within the prior 90 days until the manual,
          monthly review demonstrates that the automated solution is working for three consecutive
          months.


2. Security incidents were not reported timely at the CDFI Fund, FMS, Mint, and TIGTA

   Treasury bureaus are required to submit all security incidents to the Treasury Computer Security
   Incident Response Center (TCSIRC) within specified time frames categorized by incident severity.
   The audit identified an inconsistent implementation of incident reporting security controls at four
   bureaus including the CDFI Fund, FMS, Mint, and TIGTA. KPMG noted that all four bureaus


                                                                                                  Page 13
The Department of the Treasury FISMA Performance Audit – 2011
   reported security incidents later than the deadlines required by TD P 85-01, Treasury Information
   Technology Security Program. Specifically, KPMG noted that:

       x   The CDFI Fund did not report its single security incident to TCSIRC within the required
           one-hour time period for a Category 1 incident. Several factors contributed to the late
           reporting. First, the incident occurred outside of normal working hours. Second, the incident
           was reported in a monthly report, 36 days late. The delay in reporting was caused by CDFI
           Fund’s officials incorrectly categorizing the incident. A CDFI Fund official also attributed the
           untimely reporting to the infrequent nature of security incidents and the staff’s unfamiliarity
           with required reporting time frames for Category 1 incidents. (See Recommendations # 8, 9,
           and 10)
       x   FMS employees did not immediately report 10 of 10 confirmed security incidents to FMS’s
           help desk as required by FMS policy. Additionally, FMS’s information security group did not
           report seven of these confirmed security incidents to TCSIRC within the required one-hour
           time period for Category 1 incidents (three security incidents were reported in one day, two
           were reported in two days, and the remaining three were reported in three days). Rather than
           report all suspected and confirmed incidents, FMS failed to notify TCSIRC until sufficient
           evidence was gathered and approved by FMS Executives as required by FMS policies and
           procedures. Contributing to the untimely reporting was a lack of after-hours coverage by the
           incident response personnel. Additionally, KPMG attributes the untimely reporting by FMS
           employees to a lack of sufficient awareness and training. (See Recommendations # 11, 12,13,
           and 14)
       x   Mint did not report one of the 15 sampled security incidents to TCSIRC within the required
           one-hour time period for a Category 1 incident (the incident took 25 hours to report). The
           delay in reporting was caused by the assigning of a ticket to a Mint Computer Security
           Incident Response Capability (CSIRC) employee who was not in the office when the incident
           was reported. When the Mint CSIRC employee returned to work, the required time frame to
           report the security incident had passed. (See Recommendations # 15 and 16)
       x   TIGTA did not report one of the 15 security incidents to TCSIRC within the required one day
           time period for a Category 3 incident (the incident took five days to report). The untimely
           reporting of the security incident was caused by reduced staffing over a holiday period. Upon
           return, the employee failed to take action within the required reporting time frame for
           Category 3 incidents. (See Recommendations # 17, 18, and 19)

   By not reporting security incidents in a timely manner, these bureaus increase the risk posed to their
   information system’s availability, integrity, and confidentiality, while the incident is unreported.
   Additionally, by not reporting incidents, the bureaus can impair Treasury and United States Computer
   Emergency Readiness Team (US-CERT)’s ability to track, analyze, and act on aggregated incident
   data.

   We recommend that the CDFI Fund Management:

       8. Provide additional incident response training to increase awareness of the CDFI Fund’s
          policies and procedures.

       9. Remind all CDFI Fund staff of their responsibility to timely report security incidents,
          including events such as the loss of mobile devices with one hour, to the CDFI Fund’s IT
          team. Such reminders could be incorporated into employee’s annual security awareness
          training or be included in periodic reminders to employees to protect sensitive information
          and report the loss of mobile devices to the CDFI Fund’s IT team.



                                                                                                    Page 14
The Department of the Treasury FISMA Performance Audit – 2011

      10. Provide the CDFI Fund employees the capability to report security incidents to the IT team
          outside of normal working hours by establishing a shared incident response e-mail account and
          / or phone number for reporting purposes.

   We recommend that FMS Management:

       11. Revise the current incident reporting process and associated written procedures to ensure
           timely reporting. This could include the FMS incident response management notifying
           TCSIRC with suspected or confirmed security events without the need for further FMS
           Executive management approvals.

       12. Provide additional training to FMS security personnel regarding FMS’s revised incident
           response policies and procedures to ensure these policies and procedures are consistently
           implemented.

       13. Consider, if feasible, a Distributed Incident Response Team or a Partially Outsourced Team
           to achieve 24x7x365 coverage, per the NIST SP 800-61, Computer Security Incident
           Handling Guide. Such a strategy could involve sharing TSIRC resources with other Treasury
           bureaus.

       14. Improve FMS employee awareness to report both confirmed and suspected security incidents
           to the FMS Service Desk. FMS could create awareness through periodic reminders via e-
           mail, posting security posters in common employee areas, and through increased emphasis in
           annual security and awareness training.

   We recommend that Mint Management:

       15. Have all tickets sent to the CSIRC group mailbox as opposed to individual members to ensure
           that tickets are tracked properly.

       16. Ensure a backup CSIRC member in place during the absence and/or unavailability of the
           primary individual. The backup CSIRC member should be notified if the primary individual
           has not acknowledged the ticket within a designated time period.

   We recommend that TIGTA Management:

       17. Assign an additional individual as a back-up resource to the TIGTA CSIRC for periods of
           reduced staffing.

       18. Provide the TIGTA CSIRC the ability to receive and address security incidents outside of
           normal working hours by establishing a shared incident response e-mail account and / or
           phone number for reporting purposes. Additionally, consider participating in a shared
           Incident Response team with another Treasury bureau to provide increased capabilities
           outside of normal working hours.

       19. Provide the TIGTA CSIRC additional incident response training to ensure they are aware of
           TIGTA’s policies and procedures, including their responsibility to timely report security
           incidents.




                                                                                                Page 15
The Department of the Treasury FISMA Performance Audit – 2011
3. System security plans at DO, Mint, and FMS did not fully adopt NIST recommended
   security controls from NIST SP 800-53, Rev. 3, Recommended Security Controls for
   Federal Information Systems and Organizations

   NIST and Treasury guidance require that Treasury SSPs remain up-to-date and current with the NIST
   Risk Management Framework and required NIST SP 800-53 security controls. KPMG noted that
   three sampled information systems from DO, Mint, and FMS utilized outdated NIST guidance (Rev.
   2). Specifically, the SSPs did not include all required security controls as specified in NIST SP 800-53
   Rev. 3, Recommend Security Controls for Federal Information Systems and Organizations, dated
   August 2009. OMB Memorandum M-10-15, FY 2010 Reporting Instructions for the Federal
   Information Security Management Act and Agency Privacy Management, attachment FY 2010
   Frequently Asked Questions on Reporting for FISMA states that “for legacy information systems,
   agencies are expected to be in compliance with NIST standards and guidelines within one year of the
   publication date unless otherwise directed by OMB.”


   KPMG noted that the conditions, cited above for DO and Mint, had various factors including:
     1. The bureau and vendor’s misunderstanding of contract requirements to maintain compliance
        with all NIST standards (DO), (See Recommendation # 20)
     2. Mint management had a informal policy to only update SSPs during reaccreditation, therefore
        the sampled SSPs had not be updated since the next reaccreditation cycle had not begun. (See
        Recommendations # 21 and 22)

   During the audit period, FMS revised their SSP template and associated checklist to incorporate NIST
   SP 800-53, Rev. 3 controls. However, the sampled system’s SSP utilized older Rev 2 controls and
   FMS’s quality control process did not reject this sampled SSP. (See Recommendation # 23)

   Failing to select an up-to-date baseline of security controls may have a negative effect on subsequent
   security activities as required by the NIST Risk Management Framework. Specifically, DO, FMS,
   and Mint may not be able to properly implement, assess, authorize, and monitor the security controls
   for the sampled systems; therefore, the system security controls may not be sufficient to protect the
   confidentiality, integrity, and availability of sensitive bureau information.

   We recommend that DO management:

       20. Instruct the vendor to update the SSPs to include NIST SP 800-53, Rev. 3 security controls
           and associated control enhancements.


   We recommend that Mint management:

       21. Update their Information Security Program’s policies and procedures to require that all SSPs
           are updated to include the latest NIST SP 800-53 controls and control enhancements one year
           after issued.

       22. Ensure that all existing SSPs are 800-53, Revision 3 compliant.




                                                                                                    Page 16
The Department of the Treasury FISMA Performance Audit – 2011
   We recommend that FMS management:

   23. Ensure that System Owners and ISSOs review and update SSPs by using the FMS-approved SSP
       template and baseline security requirements, which incorporate NIST SP 800-53, Rev. 3 security
       controls.


4. FMS did not perform sufficient audit log reviews in accordance with NIST and
   Treasury standards

   NIST and Treasury guidance, specifically SP 800-53 Rev. 3, Recommended Security Controls for
   Federal Information Systems and Organizations, and TD P 85-01, Treasury Information Technology
   Security Program, require that government information systems owners and security managers
   identify significant auditable events in order to protect the confidentiality, integrity, and availability of
   the information system. These audit logs need to be generated and reviewed by IT personnel on a
   regular basis if security incidents are to be discovered and acted upon in a timely manner and should
   be appropriately stored for security and historical purposes.

   For a sampled application, FMS did not document their weekly review of failed login events during
   the FISMA audit period. While FMS took actions to address a similar issue in a prior year financial
   statement audit by developing audit log review procedures for failed login attempts, the limited scope
   of FMS’s corrective actions did not include a risk analysis necessary to identify significant audit
   events worthy of review and subsequent investigations, as suggested by NIST SP 800-53 security
   control AU-2 Auditable Events. The audit log review and SSP did not address broader user account
   activities such as the creation of new accounts with administrative capabilities or changes in user
   account permissions. In addition, the proposed audit log review procedures did not include monitoring
   changes to specific information system components such as the database, sensitive files, or production
   source code. Finally, the implemented audit log procedures did not address potentially suspicious or
   unusual transactions that could be performed in the sampled payment management system.

   Several factors contributed to the condition described above. These factors included other operational
   priorities and responsibilities for the application’s security officer, delays implementing documented
   manual procedures for the audit log review, and lack of an automated tool to view log events at the
   third party hosting provider. By not adhering to the FMS required audit log review policies, the
   system owner could be unable to identify and mitigate significant threats to the information system.
   As FMS did not perform a risk assessment to determine the most significant audit events to review
   and investigate for the sampled system, FMS may be focusing its limited resources monitoring less
   significant audit log events. This could cause FMS personnel to remain unaware of security incidents
   that have already taken place, leaving the system in a compromised state for an extended period of
   time.

   We recommend that FMS management:

       24. Identify and document significant audit events that warrant review and further investigation.

       25. Update the SSP in order to reflect the results of the risk analysis and clearly assign ownership
           and responsibility for implementing the agreed upon audit log review procedures.

       26. Ensure that sufficient resources are available to implement audit log review procedures.




                                                                                                        Page 17
The Department of the Treasury FISMA Performance Audit – 2011
5. BPD did not properly inventory media scheduled for sanitization in accordance with
   BPD procedures

   The physical IT hardware and digital media (i.e., hard drives, backup tapes, and CD / DVDs) that
   store BPD information must be protected against unauthorized access and disclosure. When IT
   hardware or other media is to be disposed, NIST SP 800-53 Rev. 3, NIST SP 800-88 Rev. 1,
   Guidelines for Media Sanitization, and TD P 85-01, Treasury Information Technology Security
   Program media sanitization guidance require bureaus to carefully track and appropriately secure the
   IT hardware and media to prevent accidental disclosure of sensitive information. BPD developed
   Baseline Security Requirements (BLSR) and procedures that incorporated NIST guidance and
   Treasury requirements. However, BPD’s media sanitization process did not ensure a clear chain of
   custody and full accounting of the media throughout the entire media sanitization process.
   Additionally, we observed four unsecured cardboard boxes, containing over 150 hard drives waiting
   to be sanitized, adjacent to the cubicle of the IT specialist responsible for media sanitization. These
   boxes of hard drives were not stored in a secured container or secured room that restricted access to
   only individuals involved in the media sanitization process.

   Several factors contributed to the condition described above. These included individuals unclear on
   certain BPD security requirements and BPD management’s perception that existing practices for
   storing and then sanitizing media were sufficient. By not appropriately securing the media waiting
   sanitization, or reconciling all such media against known inventory listings, BPD’s records of
   sanitized media may be inaccurate and incomplete. Without a clear chain of control throughout the
   media sanitization process that includes inventorying media, it is impossible to determine if access to
   sensitive media was limited to authorized individuals and all media was appropriately sanitized.

   We recommend that BPD management:

       27. Implement its BLSRs and associated procedures on maintaining a clear chain of custody,
           properly securing media when stored, and reconciliation of media received and sent for
           destruction.

       28. Train BPD IT specialists on the BPD media sanitization policies and procedures in order to
           protect the confidentiality of the bureau’s sensitive information.

6. Plans of Action and Milestones (POA&Ms) were not tracked and remediated in
   accordance with NIST and Treasury requirements at FMS and OTS

   Treasury has provided guidance on POA&M creation and tracking through its directive TD P 85-01,
   Treasury Information Technology Security Program. This policy requires Treasury bureaus to
   maintain these POA&Ms in order to help remediate weaknesses identified through audits, security
   assessments, and other risk management activities. POA&Ms document the responsible parties, time
   frames for mitigation, and additional necessary resources.

   FMS did not record and update security vulnerabilities in a timely manner for three sampled systems.
   For the sampled systems, we noted that FMS did not review and revise expected completion dates for
   corrective actions, record known high-risk vulnerabilities that FMS could not close in 60 days, or
   correctly report the completion status on outstanding POA&M items. In both the FY 2009 and FY
   2010 FISMA audits at FMS, we noted similar POA&M weaknesses for different information systems.
   FMS took corrective actions to resolve the immediate instances of noncompliance; however, FMS did
   not resolve bureau wide challenges to accurately and sufficiently report all system security



                                                                                                   Page 18
The Department of the Treasury FISMA Performance Audit – 2011
   weaknesses in POA&Ms. A lack of System Owner and ISSO accountability, as indicated in their
   Appointment Letter, and communication issues between ISSO and FMS’s information security group
   contributed to the conditions described above. (See Recommendations # 29, 30, 31 and 32)

   At OTS, we observed that OTS system administrators were aware of a high-risk security vulnerability
   in one of the sampled information systems for over a 30-day period and did not record this weakness
   in the system’s POA&M. Regarding the untimely update of the POA&M at OTS, management
   indicated that other operational priorities, associated with the transition of bank supervisory
   responsibilities to the Office of the Comptroller of the Currency, were a higher priority.

   By not recording identified information security weaknesses in POA&Ms, these weaknesses may be
   forgotten and subsequently exploited by an attacker. Additionally, by not timely recording and
   updating identified system security vulnerabilities in their POA&M, Treasury bureaus’ summary-
   level security metrics under-report the true number of known security weaknesses to the Department
   of Treasury. Additionally, senior Treasury management would not able to exercise its oversight
   responsibilities to potentially adjust funding levels, human resources, and requested priorities in
   response to identified security weaknesses.

   We recommend that FMS management:

       29. Perform a comprehensive study of FMS’s POA&M management practices to resolve ongoing
           auditor-identified POA&M challenges. Based on the outcome of this study, FMS should
           implement corrective actions designed to ensure complete, accurate and timely reporting of
           POA&M items.

       30. Strengthen FMS’s existing policies and procedures regarding POA&Ms based on the
           outcome of FMS’s study. The revised FMS policies and procedures should define roles,
           responsibilities, and expected communication frequency among key participants and decision
           makers.

       31. Promote increased involvement by FMS executives and Authorizing Officials in the POA&M
           management process. Such actions could include establishing performance metrics and
           associated incentives and/or disincentives for FMS management personnel to accurately
           report and resolve noted security weaknesses in their portfolio of information systems.

       32. Promote personal accountability for executing information security responsibilities, such as
           those listed in the ISSO and System Owner Appointment Letters, by incorporating those
           responsibilities and expected outcomes in the employees’ Annual Performance Plan.

   We have no recommendation for OTS management to improve the POA&M process as OTS ceased
   operations on July 21, 2011 due to the Dodd-Frank Wall Street Reform and Consumer Protection Act.

7. Vulnerability scanning and remediation was not performed in accordance with
   Treasury requirements at the CDFI Fund, DO, and OTS

   Treasury’s directive TD P 85-01, Treasury Information Technology Security Program, and NIST SP
   800-53, Rev. 3 require that bureaus conduct vulnerability scanning of their IT assets at least monthly.
   Additionally, high-risk weaknesses identified in this manner are required to be remediated in a timely
   manner, or, if this is not possible, tracked in a POA&M until the remediation actions are complete.
   KPMG noted that three bureaus did not implement Treasury policy adequately.



                                                                                                   Page 19
The Department of the Treasury FISMA Performance Audit – 2011
       x   The CDFI Fund did not ensure that its service provider, TTB, conducted monthly
           vulnerability scans of its Web server as required by Treasury and the CDFI Fund’s IT
           security policy. Although the CDFI Fund outsourced the hosting of its infrastructure to TTB,
           the CDFI Fund did not require TTB to conduct monthly vulnerability scans of the CDFI Fund
           Web server in their Interconnection Security Agreement. (See Recommendations # 33 and 34)
       x   A DO system’s vulnerability scan report from October 2010 contained multiple high-risk
           vulnerabilities that were not remediated 30 days after discovery as required by DO’s
           Information Technology Security policy. For the sampled information system, DO’s vendor
           deemed certain devices to not be essential to the successful operation of the information
           system, and therefore did not patch those devices. (See Recommendation # 35)
       x   OTS did not consistently scan its application servers on a monthly basis as required by NIST
           and Treasury requirements and OTS Continuous Monitoring procedures. OTS personnel
           verbally outlined to KPMG a risk-based set of scanning frequencies that was not documented
           and not verifiable at the system level. Further, KPMG noted that OTS management was aware
           of these flaws and indicated to KPMG that it lacked the resources to scan more frequently.

   Without knowledge of missing security patches, insecure configurations, or application
   vulnerabilities, Treasury bureaus may not take steps to mitigate potential vulnerabilities in their
   information systems. These vulnerabilities could lead to their systems and/or applications being
   compromised and sensitive information being released or altered.

   We recommend that the CDFI Fund management:

       33. Revise the Interconnection Security Agreement with TTB to define clear roles and
           responsibilities for providing services and implementing associated security controls such as
           vulnerability scanning.

       34. Enhance the continuous monitoring strategy for outsourced information systems to ensure
           that NIST and Treasury required security controls are implemented and operating effectively.
           As part of the strategy, share the results with appropriate CDFI Fund System Owners and IT
           management.

   We recommend that DO management:

       35. Direct personnel charged with remediating vulnerabilities to track open, unresolved
           vulnerabilities in system POA&Ms when the anticipated remediation will exceed 30 days.


   We are not making a recommendation to OTS Management as this finding relates to process gaps in
   the OTS vulnerability scanning procedures and OTS ceased operations on July 21, 2011 due to the
   Dodd-Frank Wall Street Reform and Consumer Protection Act.

8. Contingency planning & testing and backup controls were not fully implemented or
   operating as designed at DO, FMS, TIGTA, and TTB

   Treasury guidance requires its bureaus to protect their information systems in the event of a disaster.
   Bureaus must plan for system recovery, test these plans, and store redundant data to assist in such a
   system recovery. Several Treasury bureaus did not fully implement contingency planning (planning,
   testing, and backup) controls as required by Treasury’s directive TD P 85-01, Treasury Information
   Technology Security Program, and NIST SP 800-53, Rev. 3 guidance. While these controls do not



                                                                                                   Page 20
The Department of the Treasury FISMA Performance Audit – 2011
   affect normal, daily operations, they are invaluable in quickly recovering from a disaster or service
   interruption.

       x   Daily incremental and weekly fully backups of DO data to tape for one sampled DO system
           was not performed by DO Operations as defined by the DO SSP and the DO Information
           Technology Security Handbook. Both the DO SSP and DO Information Technology Security
           Handbook require incremental daily backups and full weekly backups. DO Operations only
           performed successful incremental backups to tapes three to four times a month beginning in
           January 2011. The infrequency of backups was due to an insufficient backup system, whose
           server had to be continually restarted (i.e., rebooted). Prior to January 2011, DO did not retain
           the data or records from backups. This was due to a lack of sufficient storage on tapes.
           Additionally, backups were not tested to determine if they were reliable and complete.
           Finally, for another sampled DO system, DO lacked a backup process for configuration files
           residing in firewalls, intrusion prevention systems and Transport Support Devices (e.g.,
           routers, switches, etc.). KPMG observed that DO management was unaware of this issue.
           Once informed of this significant security weakness, DO management created a POA&M
           item to track the issue to closure. (See Recommendations # 36, 37, 38 and 39)
       x   FMS did not complete a failover, and contingency plan test for two Critical Infrastructure
           Protection (CIP) payment management systems residing at FMS in accordance with FMS
           security standards and NIST SP 800-53 Rev 3 requirements. During the nine-month period
           from October 1, 2010 through June 30, 2011, these two CIP systems processed 911 million
           payments totaling $1.93 trillion dollars. These two systems process approximately all Social
           Security Administration payments, Medicare and Medicaid payments, IRS tax refunds,
           Veteran Affairs payments, and other US government vendor payments. However, these two
           systems had only undergone a tabletop disaster recovery test during the Fiscal Year 2010 and
           2011 and had not completed a full disaster recovery test at the recovery site in the prior two
           years. Per FMS and NIST SP 800-34 requirements, disaster recovery simulation exercises,
           such as tabletop exercises, are sufficient for “Moderate” systems but not “High” impact
           systems. FMS categorized these CIP systems as having a “High” FIPS 199 impact rating with
           a two-hour recovery time objective. This designation requires FMS to perform a failover,
           recovery and reconstitution (including communications with applications and third-parties) of
           critical systems at an alternate site on an annual basis. FMS delayed failover contingency plan
           tests in FY 2011 and FY2010 due to operational priorities to relocate and consolidate data
           centers. (See Recommendations # 40)
       x   The selected TIGTA system lacked sufficient documentation regarding the system’s
           contingency plan and contingency plan testing. Specifically, the documentation did not
           include certain key software used. TIGTA management identified these weaknesses during a
           2010 security assessment and established two POA&M items with scheduled completion
           dates of January 2012 and June 2012.
       x   Backups were not consistently successful or completed on a scheduled basis at TTB. For the
           sampled TTB system, 69 (42 percent) of the 164 sampled scheduled jobs were unsuccessful.
           Additionally, daily backups did not occur on 39 (11 percent) of 365 days. TTB system
           backups were performed by a service provider and TTB management did not have policies
           and procedures in place to detect the backup failures or require their service provider to notify
           TTB when scheduled backups were not performed or backup jobs failed. (See
           Recommendations # 41)

   Lack of frequent, successful backups can have a significant negative effect on Treasury information
   systems if a disaster (i.e., hard-drive failure, natural disaster, national emergency, etc.) were to occur.
   Data can be lost and successful system restoration thwarted if backup tapes are not available.



                                                                                                       Page 21
The Department of the Treasury FISMA Performance Audit – 2011

   Additionally, disaster failover tests, as required by NIST SP 800-34, are paramount in assuring that
   Treasury information systems can remain operational with the least amount of downtime possible in
   emergencies. Failure to appropriately test recovery capabilities could result in the unavailability of
   critical Treasury information and information systems. For the sampled payment management
   systems at FMS, the U.S. Government may not be able to process time-sensitive, critical payments
   and a prolonged system outage could potentially harm the broader U.S. economy.


  We recommend that DO management:

       36. Adhere to the defined frequency of backup jobs as stated by the DO SSP. Incremental
           backups to tape should be performed on a daily basis while full backups should be performed
           on a weekly basis.

       37. Determine whether an upgraded version of DO’s backup solution or a different backup tool
           will remediate unexpected server shutdowns and restarts.

       38. Perform a monthly test of physical tapes to verify their reliability and integrity as defined
           within the DO SSP. If the tapes fail, replace the tapes as needed.

       39. Increase backup storage capacity to ensure that archived data is not overwritten prematurely
           and data retention standards are observed.

   We recommend that FMS management:

       40. Expedite the planned disaster recovery testing at the alternate recovery site to confirm that (a)
           FMS can resume mission critical functions within the stated two-hour recovery window and
           (b) the applications can operate successfully and communicate with other essential
           applications and third parties.

   We recommend that TTB management:

       41. Develop and implement policies and procedures to detect backup failures and remediate
           unsuccessful backups.

   Based on TIGTA’s planned corrective actions, we are not making a recommendation.

9. Outdated and unsupported software was utilized at OTS

   OTS utilized an unsupported operating system whose vendor ceased releasing new security patches to
   resolve new security exploits and software flaws. Although the application server resided behind the
   OTS firewall, the application server was vulnerable to new security exploits and viruses due to an
   outdated operating system.

   According to OTS management, operational and staffing constraints associated with the transition of
   bank supervision responsibility to OCC permitted the condition to exist. Not maintaining fully
   patched and vendor supported operating system software exposes the OTS information system to a
   potential loss of availability, confidentiality, and integrity. As such, it is important to patch and update
   software as required.



                                                                                                        Page 22
The Department of the Treasury FISMA Performance Audit – 2011

   Following the notification and discussion of the vulnerability with OTS IT personnel, OTS moved the
   application server to a virtual machine running a supported operating system. OTS also provided
   evidence that all required security patches were installed. We are not making a recommendation to
   OTS management as they took corrective actions to resolve the noted vulnerability.

10. TIGTA’s risk management program was not consistent with NIST SP 800-37, Rev 1,
    Guide for Applying the Risk Management Framework to Federal Information Systems

   TIGTA was aware of the requirement to comply with NIST SP 800-37, Rev 1, Guide for Applying the
   Risk Management Framework to Federal Information Systems, by February 2011, but had not
   updated the risk management program at the time of the FY 2011 FISMA audit. As NIST SP 800-37
   Rev 1 was issued in February 2010, OMB requires federal agencies to adopt this NIST guidance
   within one year of issuance. KPMG did not determine a cause as the weakness was self-reported.
   TIGTA created a POA&M item to address identified gaps and developed corrective actions to become
   compliant, with a completion date of August 2014. An insufficient risk management program can lead
   to ineffective risk-based decision-making and untimely implementation of system-level controls.

   Based on TIGTA’s planned corrective actions, we are not making a recommendation.

11. The personnel termination procedures were not followed at FinCEN

   Treasury’s TD P 85-01, Treasury Information Technology Security Program requires its bureaus to
   implement personnel termination procedures in order to protect Treasury information from departing
   individuals and to recover government property. FinCEN Directive 901.02, Personnel Separation
   Process, defined the separation form required for departing personnel. FinCEN was unable to provide
   completed personnel separation forms for 18 of 25 separated employees and contractors sampled as
   evidence that it completed its exit clearance procedures. For 14 of the 18 individuals missing a
   separation form, additional evidence, substantiating that these individuals returned all government
   issued property, was inconclusive. FinCEN indicated that these forms were likely lost or misplaced as
   the employee and contractor separation process was manual and involved a paper, rather than
   electronic, form. Nevertheless, FINCEN asserted the separation process was followed for all
   departing employees, regardless of the missing forms.

   Varying human factors in a complex process contributed to the condition above. Without separation
   forms as evidence that FinCEN supervisors and others completed the separation process, FinCEN
   could not demonstrate that it consistently executed its separation procedures and collected all
   government issued property. FinCEN asserted that all government property was returned by departing
   employees and cited mitigating controls such as the semi-annual inventory of all IT assets as evidence
   that IT assets were not missing.



   We recommend that the FinCEN management:

       42. Provide training on the requirements of FinCEN’s Personnel Separations Process Directive
           regarding employee separation to all parties involved in the exit process.

       43. Maintain the employee exit forms in accordance with Treasury records management
           requirements.



                                                                                                  Page 23
The Department of the Treasury FISMA Performance Audit – 2011

12. The system configuration management programs were not implemented correctly at
    DO and TIGTA

   Treasury’s TD P 85-01, Treasury Information Technology Security Program, requires its bureaus to
   sufficiently plan and implement procedures protecting Treasury information systems from
   unwarranted changes. In addition, bureaus must protect and maintain information system baseline
   configurations in order to ensure proper, secure operation. DO and TIGTA did not fully define or
   implement Configuration Management plans for its in-scope systems. In order to protect information
   integrity and confidentiality, it is important for bureaus to document and control their systems’
   configurations. The specific findings were as follows:

       x   A sampled DO system did not implement FDCC configurations for its desktops or obtain a
           waiver to implement a different standard. DO management self-reported this weakness and
           created a POA&M for it.
       x   The sampled TIGTA system lacked formal documentation in certain areas of configuration
           management. TIGTA management identified this weakness in a 2010 security assessment and
           created POA&M remediation actions to address the weaknesses identified with a completion
           date of May 2012.

   By not adequately implementing their systems’ Configuration Management programs, Treasury
   bureaus reduce their ability to track and maintain version control, protect against harmful or
   subversive code implementation, and recover from a disastrous event or service interruption.

   Based on DO’s and TIGTA’s planned corrective actions, we are not making a recommendation.




                                                                                              Page 24
The Department of the Treasury FISMA Performance Audit – 2011

   MANAGEMENT RESPONSE TO DRAFT REPORT

   The following is the OCIO’s response, dated November 7, 2011, to the draft FY 2011 FISMA
   Performance Audit Report.




                                                                                     Page 25
The Department of the Treasury FISMA Performance Audit – 2011




                                          November 7, 2011

   MEMORANDUM FOR MARLA A. FREEDMAN
                   ASSISTANT INSPECTOR GENERAL FOR AUDIT

   FROM:                       Robyn East /s/
                               Deputy Assistant Secretary for Information Systems
                               and Chief Information Officer (CIO)

   SUBJECT:                    Management Response to Draft Audit Report – “FY 2011
                               Audit of Treasury’s Federal Information Security Management
                               Act (FISMA) Implementation for Its Unclassified Systems”

   Thank you for the opportunity to comment on the draft audit report entitled, “FY 2011 Audit of
   Treasury’s Federal Information Security Management Act (FISMA) Implementation for Its
   Unclassified Systems.” The audit focuses on the adequacy of the Department’s information
   security program and practices for its unclassified systems. We appreciate your
   acknowledgement that our security program is in place and is generally consistent with FISMA.
   We have carefully reviewed the draft and are in agreement with all findings and
   recommendations. Please refer to the attachment for further details on our planned corrective
   actions.

   The Department is committed to continual improvement of its security program and meeting
   requirements of FISMA. We have made notable progress over the past year. For example, we
   closed all but one finding and all but one of the twenty-nine recommendations from last year’s
   FISMA audit. We implemented the Risk Management Framework within the Department to
   improve the manner in which we manage risk for our information technology systems and
   associated sensitive data. Looking forward, we are focused on the new White House security
   priorities, Trusted Internet Connections, Personal Identity Verification and Continuous
   Monitoring, and have set the groundwork to meet our Fiscal Year 2012 goals.

   We appreciate the audit recommendations, as they will help improve our security posture. If you
   have any questions, feel free to call Edward Roback, Associate CIO for Cyber Security at 202-
   622-2593.

   Attachment

   cc: Joel A. Grover, Deputy Assistant Inspector General for Financial Management
       and Information Technology Audit
       Edward A. Roback, Associate CIO for Cyber Security and Chief Information
       Security Officer




                                                                                             Page 26
The Department of the Treasury FISMA Performance Audit – 2011
            Management Response to the Office of the Inspector General (OIG)
                                 Recommendations


   (U) OIG Finding 1: Logical account management activities were not fully
   documented or consistently performed at OCC, OTS, TIGTA, DO and FMS

   (U) OIG Recommendation 1: For the Office of the Comptroller of the Currency
   (OCC), we recommend that management: Document the process for granting access to
   the newly hired bank examiners, including the associated user roles and required
   management approvals.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           OCC management is in the process of formalizing and codifying additional
           account management policy that will define and document the informal policy
           cited as a weakness by the OIG/KPMG. Additionally, OCC management has
           taken corrective action in documenting and implementing improved procedures
           for account provisioning and privilege modification. These enhanced procedures
           have been adopted to better validate a user’s need for access to the information
           system referenced in the OIG’s audit. Completed: October 31, 2011

           (U) Responsible Official: Chief Information Security Officer (CISO)/Chief
           Privacy Officer (CPO), OCC

   (U) OIG Recommendation 2: For the OCC, we recommend that OCC in its capacity of
   managing prior Office of Thrift Supervision (OTS) systems: Add the review of system
   administrator and application service accounts for the sampled system to the review of
   external user accounts.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           OCC management has taken steps to evaluate the state of the entire OTS Federal
           Information Security Management Act (FISMA) inventory, and is currently
           taking steps to incorporate systems formerly maintained by OTS into the OCC
           programs to ensure secure and compliant operations. Current integration efforts
           include prudent steps to update account management processes where necessary,
           in accordance with the disposition schedule for each system. Target completion:
           May 31, 2012.

           (U) Responsible Official: CISO/CPO, OCC

   (U) OIG Recommendation 3: For the OCC, we recommend that OCC, in its capacity of
   managing prior OTS systems: Document the purpose and use of application service
   accounts in the System Security Plan (SSP) or other publication.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           OCC management has taken steps to evaluate the state of the entire OTS FISMA



                                                                                     Page 27
The Department of the Treasury FISMA Performance Audit – 2011
           inventory, and is currently taking steps to incorporate systems formerly
           maintained by OTS into the OCC programs to ensure secure and compliant
           operations. Current integration efforts include prudent steps to update system
           documentation where necessary, in accordance with the disposition schedule for
           each system. Target completion: May 31, 2012.

           (U) Responsible Official: CISO/CPO, OCC

   (U) OIG Recommendation 4: For Departmental Offices (DO), we recommend that
   Management: Perform an annual review of end user accounts that addresses
   appropriateness of user access rights. As stated in the DO SSP, the Information System
   Security Officers (ISSOs) and/or the system administrators of each minor application
   should perform this review.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO and Office of Foreign Assets Control (OFAC) will enhance the account
           management process by developing more formalized account management
           procedures to include performing an annual review of OFAC’s system accounts.
           Target completion: November 30, 2011.
           (U) Responsible Official: ISSO, OFAC
   (U) OIG Recommendation 5: For Departmental Offices (DO), we recommend that
   Management: Develop and implement a formal account approval process. A formal
   approval form should exist for all system users, including contractors. These forms
   should be properly tracked and stored to ensure that documentation is not lost or deleted.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO and OFAC will enhance the account management process by developing
           more formalized account management procedures for OFAC’s systems to include
           an approval form for all users. These forms will be stored and tracked
           appropriately. Target completion: December 30, 2011.

           (U) Responsible Official: ISSO, OFAC
   (U) OIG Recommendation 6: For Financial Management Service (FMS), we
   recommend that Management: Continue to monitor the automated solution to disable user
   accounts after 90 days of inactivity in order to confirm the automated solution is working
   in all cases.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS continues to monitor the automated solution to disable users after 90 days of
           inactivity. Target completion: June 29, 2012.

           (U) Responsible Official: CISO, Bureau of the Public Debt (BPD) and FMS
   (U) OIG Recommendation 7: For FMS, we recommend that Management: Perform a
   manual monthly review of all user accounts, and disable or delete (as appropriate)
   accounts that have not logged into the system within the prior 90 days until the manual,


                                                                                        Page 28
The Department of the Treasury FISMA Performance Audit – 2011
   monthly review demonstrates that the automated solution is working for three
   consecutive months.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will perform manual monthly reviews for three consecutive months until the
           reviews demonstrate that the automated solution is working. Target completion:
           June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS


   (U) OIG Finding 2: Security incidents were not reported timely at the CDFI Fund,
   FMS, Mint, and TIGTA

   (U) OIG Recommendation 8: For Community Development Financial Institution Fund
   (CDFI), we recommend that Management: Provide additional incident response training
   to increase awareness of the CDFI Fund’s policies and procedures.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           The CDFI Fund CIO will ensure that additional incident response training is
           provided to increase awareness of the CDFI Fund’s policies and procedures.
           Target completion: October 31, 2011.

           (U) Responsible Official: CIO, CDFI Fund

   (U) OIG Recommendation 9: For CDFI, we recommend that Management: Remind all
   CDFI Fund staff of their responsibility to timely report security incidents, including
   events such as the loss of mobile devices with one hour, to the CDFI Fund’s Information
   Technology (IT) team. Such reminders could be incorporated into employee’s annual
   security awareness training or be included in periodic reminders to employees to protect
   sensitive information and report the loss of mobile devices to the CDFI Fund’s IT team.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           The CDFI Fund CIO will ensure that CDFI Fund staff are reminded of their
           responsibility to timely report security incidents, including events such as the loss
           of mobile devices within one hour, to the CDFI Fund’s IT team. Target
           completion: October 31, 2011.

           (U) Responsible Official: CIO, CDFI Fund

   (U) OIG Recommendation 10: For CDFI, we recommend that Management: Provide
   the CDFI Fund employees the capability to report security incidents to the IT team
   outside of normal working hours by establishing a shared incident response e-mail
   account and/or phone number for reporting purposes.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           The CDFI Fund CIO will ensure that CDFI Fund employees have the capability to


                                                                                          Page 29
The Department of the Treasury FISMA Performance Audit – 2011
           report security incidents to the IT team outside of normal working hours by
           establishing a shared incident response e-mail account and list of IT team phone
           numbers for reporting purposes. Target completion: October 31, 2011.

           (U) Responsible Official: CIO, CDIF Fund

   (U) OIG Recommendation 11: For FMS, we recommend that Management: Revise the
   current incident reporting process and associated written procedures to ensure timely
   reporting. This could include the FMS incident response management notifying
   Treasury’s Computer Security Incident Response Center (TCSIRC) with suspected or
   confirmed security events without the need for further FMS Executive management
   approvals.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will revise the current incident reporting process and procedures. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 12: For FMS, we recommend that Management: Provide
   additional training to FMS security personnel regarding FMS’s revised incident response
   policies and procedures to ensure these policies and procedures are consistently
   implemented.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will revise the current incident reporting process and procedures and provide
           additional training to security personnel to ensure timely reporting. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 13: For FMS, we recommend that Management: Consider,
   if feasible, a Distributed Incident Response Team or a Partially Outsourced Team to
   achieve 24x7x365 coverage, per the NIST SP 800-61, Computer Security Incident
   Handling Guide. Such a strategy could involve sharing TSIRC resources with other
   Treasury bureaus.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will explore the feasibility of implementing a Distributed Incident Response
           Team or a Partially Outsourced Team to achieve 24x7x365 coverage. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 14: For FMS, we recommend that Management: Improve
   FMS employee awareness to report both confirmed and suspected security incidents to
   the FMS Service Desk. FMS could create awareness through periodic reminders via e-


                                                                                       Page 30
The Department of the Treasury FISMA Performance Audit – 2011
   mail, posting security posters in common employee areas, and through increased
   emphasis in annual security and awareness training.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will provide additional training to security personnel to ensure timely
           reporting. FMS plans to add mandatory incident response training to TLMS and
           post security posters in common employee areas and create periodic reminders via
           email to improve employee awareness in security incident reporting. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 15: For Mint, we recommend that Management: Have all
   tickets sent to the CSIRC group mailbox as opposed to individual members to ensure that
   tickets are tracked properly.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           Notification of Category 1 incidents to the entire Mint Computer Security
           Incident Response Center team has been and is currently required. This
           recommendation was addressed in August 2010. We consider this issue to be
           closed.

           (U) Responsible Official: CISO, U.S. Mint

   (U) OIG Recommendation 16: For Mint, we recommend that Management: Ensure a
   backup CSIRC member in place during the absence and/or unavailability of the primary
   individual. The backup CSIRC member should be notified if the primary individual has
   not acknowledged the ticket within a designated time period.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           Notification of Category 1 incidents to the entire Mint CSIRC team has been and
           is currently required. This recommendation was addressed in August 2010. The
           Mint management implemented a change to require that all Category 1 incidents
           require documented acknowledgement of receipt by the CSIRC team. The
           recommendation concerns a problem in documentation created prior to August
           2010. We consider this issue to be closed.

           (U) Responsible Official: CISO, U.S. Mint

   (U) OIG Recommendation 17: For Treasury Inspector General for Tax Administration
   (TIGTA), we recommend that Management: Assign an additional individual as a back-
   up resource to the TIGTA Computer Security Incident Response Center (CSIRC) for
   periods of reduced staffing.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           TIGTA plans to evaluate various options for providing after hours incident
           response reporting capabilities. The options to be evaluated include using a


                                                                                     Page 31
The Department of the Treasury FISMA Performance Audit – 2011
           contractor, in-house staff, or shared Bureau services. Additional funding to
           implement the after hours reporting capabilities will be requested in next year’s
           budget submission. Target completion: January 31, 2013.

           (U) Responsible Official: CISO, TIGTA

   (U) OIG Recommendation 18: For TIGTA, we recommend that Management: Provide
   the TIGTA CSIRC the ability to receive and address security incidents outside of normal
   working hours by establishing a shared incident response e-mail account and/or phone
   number for reporting purposes. Additionally, consider participating in a shared Incident
   Response team with another Treasury bureau to provide increased capabilities outside of
   normal working hours.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           TIGTA plans to evaluate various options for providing after hours incident
           response reporting capabilities. The options to be evaluated include using a
           contractor, in-house staff, or shared Bureau services. Additional funding to
           implement the after hours reporting capabilities will be requested in next year’s
           budget submission. Target completion: January 31, 2013.

           (U) Responsible Official: CISO, TIGTA

   (U) OIG Recommendation 19: For TIGTA, we recommend that Management: Provide
   the TIGTA CSIRC additional incident response training to ensure they are aware of
   TIGTA’s policies and procedures, including their responsibility to timely report security
   incidents.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           TIGTA has distributed and discussed incident reporting procedures with its
           CSIRC team members. TIGTA CSIRC team members will start holding monthly
           meetings to discuss the reporting process. Target completion: November 30,
           2011.

           (U) Responsible Official: CISO, TIGTA


   (U) OIG Finding 3: System security plans at DO, Mint, and FMS did not fully
   adopt NIST recommended security controls from NIST SP 800-53, Rev. 3,
   Recommended Security Controls for Federal Information Systems and Organizations

   (U) OIG Recommendation 20: For DO, we recommend that Management: Instruct the
   vendor to update the SSPs to include NIST SP 800-53, Rev. 3 security controls and
   associated control enhancements.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO and the audited system’s Program Management Office will direct the vendor



                                                                                        Page 32
The Department of the Treasury FISMA Performance Audit – 2011
           to comply with the latest version of NIST SP 800-53 guidance and revise the
           System’s Security Plan as appropriate. Target completion: February 30, 2012.

           (U) Responsible Official: ISSO, Treasury Network

   (U) OIG Recommendation 21: For Mint, we recommend that Management: Update
   their Information Security Program’s policies and procedures to require that all SSPs are
   updated to include the latest NIST SP 800-53 controls and control enhancements one year
   after issued.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           Mint is reviewing and updating its policies and procedures to require that all SSPs
           are updated to include the latest NIST SP 800-53 controls and control
           enhancements no later than one year after issued. Target completion: March 31,
           2012.

           (U) Responsible Official: CISO, Mint
   (U) OIG Recommendation 22: For Mint, we recommend that Management: Ensure that
   all existing SSPs are 800-53, Revision 3 compliant.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           Mint is ensuring that all existing SSPs are 800-53, Revision 3 compliant. Target
           completion: March 31, 2012.

           (U) Responsible Official: CISO, Mint

   (U) OIG Recommendation 23: For FMS, we recommend that Management: Ensure
   that System Owners and ISSOs review and update SSPs by using the FMS-approved SSP
   template and baseline security requirements, which incorporate NIST SP 800-53, Rev. 3
   security controls.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will ensure SSPs are updated in accordance with NIST and FMS guidance.
           Target completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS


   (U) OIG Finding 4: FMS did not perform sufficient audit log reviews in accordance
   with NIST and Treasury standards

   (U) OIG Recommendation 24: For FMS, we recommend that Management: Identify
   and document significant audit events that warrant review and further investigation.




                                                                                        Page 33
The Department of the Treasury FISMA Performance Audit – 2011
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will identify and document significant audit events that warrant further
           investigation. Target completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 25: For FMS, we recommend that Management: Update the
   SSP in order to reflect the results of the risk analysis and clearly assign ownership and
   responsibility for implementing the agreed upon audit log review procedures.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will update the SSP to reflect risk analysis results and assign responsibility
           for implementing the agreed upon audit log review procedures. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 26: For FMS, we recommend that Management: Ensure
   that sufficient resources are available to implement audit log review procedures.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will ensure sufficient resources are available to implement audit log review
           procedures. Target completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS


   (U) OIG Finding 5: BPD did not properly inventory media scheduled for
   sanitization in accordance with BPD procedures

   (U) OIG Recommendation 27: For the Bureau of the Public Debt (BPD), we
   recommend that Management: Implement its BLSRs and associated procedures on
   maintaining a clear chain of custody, properly securing media when stored, and
   reconciliation of media received and sent for destruction.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           BPD has updated Office of Information Technology (OIT) Standard Operating
           Procedures 2.2.85 to clarify the chain of custody requirements, coordinated the
           excess process with the Office of Management Services/Property Management
           Section, and added a locked box for more secure storage as recommended.
           Completed: September 30, 2011

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 28: For BPD, we recommend that Management: Train BPD
   IT specialists on the BPD media sanitization policies and procedures in order to protect
   the confidentiality of the bureau’s sensitive information.


                                                                                       Page 34
The Department of the Treasury FISMA Performance Audit – 2011

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           Responsible BPD IT Specialists have been trained on the updated media
           sanitization policies and procedures. Completion date was September 30, 2011.
           Completed: September 30, 2011

           (U) Responsible Official: CISO, BPD and FMS


   (U) OIG Finding 6: Plans of Action and Milestones (POA&Ms) were not tracked
   and remediated in accordance with NIST and Treasury requirements at FMS and
   OTS

   (U) OIG Recommendation 29: For FMS, we recommend that Management: Perform a
   comprehensive study of FMS’s POA&M management practices to resolve ongoing
   auditor-identified POA&M challenges. Based on the outcome of this study, FMS should
   implement corrective actions designed to ensure complete, accurate and timely reporting
   of POA&M items.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will perform a comprehensive study of FMS’s POA&M management
           practices and: establish performance metrics to report and resolve security
           weaknesses. Target completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 30: For FMS, we recommend that Management: Strengthen
   FMS’s existing policies and procedures regarding POA&Ms based on the outcome of
   FMS’s study. The revised FMS policies and procedures should define roles,
   responsibilities, and expected communication frequency among key participants and
   decision makers.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will perform comprehensive study of FMS’s POA&M management
           practices and: define roles, responsibilities and expected communication
           frequency among key participants and decision makers in POA&M policies and
           procedures. Target completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 31: For FMS, we recommend that Management: Promote
   increased involvement by FMS executives and Authorizing Officials in the POA&M
   management process. Such actions could include establishing performance metrics and
   associated incentives and/or disincentives for FMS management personnel to accurately
   report and resolve noted security weaknesses in their portfolio of information systems.




                                                                                     Page 35
The Department of the Treasury FISMA Performance Audit – 2011
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will perform comprehensive study of FMS’s POA&M management
           practices and: establish performance metrics to report and resolve security
           weaknesses; and explore incorporating Authorizing Official, System Owner and
           ISSO responsibilities and expected outcomes in performance plans. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 32: For FMS, we recommend that Management: Promote
   personal accountability for executing information security responsibilities, such as those
   listed in the ISSO and System Owner Appointment Letters, by incorporating those
   responsibilities and expected outcomes in the employees’ Annual Performance Plan.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will establish performance metrics to report and resolve security
           weaknesses, and explore incorporating Authorizing Official, System Owner and
           ISSO responsibilities and expected outcomes in performance plans. Target
           completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS


   (U) OIG Finding 7: Vulnerability scanning and remediation was not performed in
   accordance with Treasury requirements at the CDFI Fund, DO, and OTS

   (U) OIG Recommendation 33: For CDFI, we recommend that Management: Revise
   the Interconnection Security Agreement with Alcohol Tobacco Tax and Trade Bureau
   (TTB) to define clear roles and responsibilities for providing services and implementing
   associated security controls such as vulnerability scanning.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           The CDFI Fund CIO will ensure that the Interconnection Security Agreement
           with TTB is revised to define clear roles and responsibilities for providing
           services and implementing associated security controls such as vulnerability
           scanning. Target completion: November 30, 2011.

           (U) Responsible Official: CIO, CDFI Fund

   (U) OIG Recommendation 34: For CDFI, we recommend that Management: Enhance
   the continuous monitoring strategy for outsourced information systems to ensure that
   NIST and Treasury required security controls are implemented and operating effectively.
   As part of the strategy, share the results with appropriate CDFI Fund System Owners and
   IT management.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           The CDFI Fund CIO will ensure that the continuous monitoring strategy for


                                                                                        Page 36
The Department of the Treasury FISMA Performance Audit – 2011
           outsourced information systems is enhanced to ensure that NIST and Treasury
           required security controls are implemented and operating effectively. Completed:
           October 31, 2011

           (U) Responsible Official: CIO, CDFI Fund

   (U) OIG Recommendation 35: For DO, we recommend that Management: Direct
   personnel charged with remediating vulnerabilities to track open, unresolved
   vulnerabilities in system POA&Ms when the anticipated remediation will exceed 30
   days.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO and the audited system’s Program Management Office will direct personnel
           charged with remediating vulnerabilities to add open vulnerabilities of more than
           30 days to the POA&M report in the Trusted Agent FISMA tool for all devices
           that are part of the audited system. Completed: October 30, 2011

           (U) Responsible Official: ISSO, DO Audited Systems


   (U) OIG Finding 8: Contingency planning & testing and backup controls were not
   fully implemented or operating as designed at DO, FMS, TIGTA, and TTB

   (U) OIG Recommendation 36: For DO, we recommend that Management: Adhere to
   the defined frequency of backup jobs as stated by the DO SSP. Incremental backups to
   tape should be performed on a daily basis while full backups should be performed on a
   weekly basis.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO will adhere to the defined frequency of backup jobs as stated by the DO
           System Security Plan. Target completion: November 30, 2011.

           (U) Responsible Official: Director, Information Technology (IT) Infrastructure
           Operations, DO

   (U) OIG Recommendation 37: For DO, we recommend that Management: Determine
   whether an upgraded version of DO’s backup solution or a different backup tool will
   remediate unexpected server shutdowns and restarts.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO will upgrade the backup software and hardware to remediate overflow issues.
           Target completion: June 30, 2012.

           (U) Responsible Official: Director, IT Infrastructure Operations, DO




                                                                                      Page 37
The Department of the Treasury FISMA Performance Audit – 2011
   (U) OIG Recommendation 38: For DO, we recommend that Management: Perform a
   monthly test of physical tapes to verify their reliability and integrity as defined within the
   DO SSP. If the tapes fail, replace the tapes as needed.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO will upgrade the backup software and hardware to remediate overflow issues.
           Target completion: November 30, 2011.

           (U) Responsible Official: Director, IT Infrastructure Operations, DO

   (U) OIG Recommendation 39: For DO, we recommend that Management: Increase
   backup storage capacity to ensure that archived data is not overwritten prematurely and
   data retention standards are observed.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           DO will increase the storage of CDL tapes to ensure backup data is retained in
           accordance with retention standards. Completed: June 30, 2012.

           (U) Responsible Official: Director, IT Infrastructure Operations, DO

   (U) OIG Recommendation 40: For FMS, we recommend that Management: Expedite
   the planned disaster recovery testing at the alternate recovery site to confirm that (a) FMS
   can resume mission critical functions within the stated two-hour recovery window and (b)
   the applications can operate successfully and communicate with other essential
   applications and third parties.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FMS will expedite the disaster recovery testing at the alternate recovery site to
           confirm that applications can operate successfully, communicate with other
           essential applications, and that mission critical functions can be resumed within
           the two-hour recovery window. Target completion: June 29, 2012.

           (U) Responsible Official: CISO, BPD and FMS

   (U) OIG Recommendation 41: For the Alcohol and Tobacco Tax and Trade Bureau
   (TTB), we recommend that Management: Develop and implement policies and
   procedures to detect backup failures and remediate unsuccessful backups.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           Since this issue was identified, TTB no longer utilizes this service provider for
           backup (or hosting) services for the production environment. TTB has moved
           these services in house as of September 4, 2011, and all production servers are
           managed through our internal policy and procedures. We consider this issue to be
           closed.

           (U) Responsible Official: CISO, TTB



                                                                                           Page 38
The Department of the Treasury FISMA Performance Audit – 2011

   (U) OIG Finding 9: Outdated and unsupported software was utilized at OTS

   (U) OIG: We are not making a recommendation to OTS management as they took
   corrective actions to resolve the noted vulnerability.


   (U) OIG Finding 10: TIGTA’s risk management program was not consistent with
   NIST SP 800-37, Rev 1, Guide for Applying the Risk Management Framework to
   Federal Information Systems

   (U) OIG: Based on TIGTA’s planned corrective actions, we are not making a
   recommendation.


   (U) OIG Finding 11: The personnel termination procedures were not followed at
   FinCEN

   (U) OIG Recommendation 42: For the Financial Crimes Enforcement Network
   (FinCEN), we recommend that Management: Provide training on the requirements of
   FinCEN’s Personnel Separations Process Directive regarding employee separation to all
   parties involved in the exit process.
           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FinCEN plans to remediate this finding by streamlining the FinCEN Directive
           901.02, Personnel Separation Process to reduce duplicative efforts and maintain a
           single repository of Fin015 documentation. Once the modified directive is
           approved, FinCEN will ensure that all responsible parties (e.g. office supervisors,
           COTRs, etc…) are aware of the updated process and responsibilities defined in
           the Directive. Target completion: January 31, 2012.

           (U) Responsible Official: CISO, FinCEN

   (U) OIG Recommendation 43: For the FinCEN, we recommend that Management:
   Maintain the employee exit forms in accordance with Treasury records management
   requirements.

           (U) Treasury Response: Treasury agrees with this finding and recommendation.
           FinCEN plans to remediate this finding by streamlining the FinCEN Directive
           901.02, Personnel Separation Process to reduce duplicative efforts and maintain a
           single repository of Fin015 documentation. Once the modified directive is
           approved, FinCEN will ensure that all responsible parties (e.g. office supervisors,
           COTRs, etc…) are aware of the updated process and responsibilities defined in
           the Directive. Target completion: January 31, 2012.

           (U) Responsible Official: CISO, FinCEN



                                                                                       Page 39
The Department of the Treasury FISMA Performance Audit – 2011

   (U) OIG Finding 12: The system configuration management programs were not
   implemented correctly at DO and TIGTA

   (U) OIG: Based on DO’s and TIGTA’s planned corrective actions, we are not making a
   recommendation.




                                                                                Page 40
Treasury FISMA Compliance Summary                                                                                                         Appendix I

APPENDIX I – TREASURY FISMA COMPLIANCE SUMMARY
Table 1: Summary Phase B Test Results
The following table presents KPMG’s summary test results for non-IRS Bureau-level control tests based on DHS’s FISMA 2011 Questions for
Inspectors Generals. As the table indicates, most Treasury Bureaus had established and implemented common security policies and procedures
based on NIST, Treasury, and Bureau guidelines. The results presented below were obtained from a nonstatistical sample of Treasury information
systems. These results cannot be extrapolated to the entire population of Treasury information systems. Additionally, we caution that projecting
the results of our audit to future periods is subject to risks as controls may become inadequate due to changes in technology or the deterioration of
control compliance.


 PHASE B - Bureau Level Control
                        Testing BEP BPD CDFI DO FinCEN FMS OCC OIG Mint TIGTA TTB                                                 Total
                        Risk Management        1      1       1      1       1        1       1      1      1        0       1     10
              Configuration Management         1      1       1      1       1        1       1      1      1        1       1     11
        Incident Response and Reporting        1      1       0      1       1        0       1      1      0        0       0     6
                         Security Training     1      1       1      1       1        1       1      1      1        1       1     11
          Plans of Actions and Milestones      1      1       1      1       1        1       1      1      1        1       1     11
             Remote Access Management          1      1       1      1       1        1       1      1      1        1       1     11
        Identity and Access Management         1      1       1      1       1        1       1      1      1        1       1     11
     Continuous Monitoring Management          1      1       1      1       1        1       1      1      1        1       1     11
                    Contingency Planning       1      1       1      1       1        1       1      1      1        1       1     11
                       Contractor Systems      1      1       0      1       1        1       1      1      1        1       1     10
                 Security Capital Planning     1      1       1      1       1        1       1      1      1        1       1     11
                   Total                       11     11      9     11       11       10     11     11      10       9      10     114

 Legend:
 1 = Sampled NIST SP 800-53 security control generally compliant with NIST, Treasury, and Bureau policy.
 0 = Sampled NIST SP 800-53 control did not meet NIST, Treasury, or Bureau policy.
 OTS results were not included as OTS ceased operations on July 21, 2011.




                                                                                                                                              Page 41
Treasury FISMA Compliance Summary                                                                                                                        Appendix I

Table 2: Summary Phase C Test Results for Sampled System Level Security Controls
The following table presents the summary test results for the 15 non-IRS information systems that we sampled as indicated in the table below.
Security controls related to Account Management and Vulnerability Scanning showed the lowest, overall compliance of tested controls.
   PHASE C - System Level Control Testing      BEP   BPD     CDFI      DO           FinCEN          FMS         OCC   OTS   Mint   TIGTA   TTB   Total
                                     System:    A     A       A      A B C             A       A     B     C     A     A     A       A      A
                      Account Management        1     1       1      0 1   1           1       1     1     0     0     0     1       0      1     10
                        Separation of Duties    1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
                            Auditable Events    1     1       1      1 1   1           1       1     1     0     1     1     1       1      1     14
                            Audit Generation    1     1       1      1 0   1           1       1     1     1     1     1     1       1      1     14
                       Security Assessments     1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
             Plan of Action and Milestones      1     1       1      1 1   1           1       0     0     0     1     0     1       1      1     11
                      Security Authorization    1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
                     Continuous Monitoring      1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
                      Baseline Configuration    1     1       1      1 0   1           1       1     1     1     1     1     1       0      1     13
                      Configuration Settings    1     1       1      1 1   1           1       1     1     1     1     1     1       0      1     14
                            Contingency Plan    1     1       1      1 1   1           1       1     1     1     1     1     1       0      1     14
    Contingency Plan Testing and Exercises      1     1       1      1 1   1           1       1     0     1     1     1     1       0      1     13
                Information System Backup       1     1       1      0 0   1           1       1     1     1     1     1     1       0      0     11
     User Identification and Authentication     1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
   Device Identification and Authentication     1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
                        System Security Plan    1     1       1      1 0   1           1       0     1     1     1     1     0       1      1     12
                     Security Categorization    1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
                             Risk Assessment    1     1       1      1 1   1           1       1     1     1     1     1     1       1      1     15
                      Vulnerability Scanning    1     1       0      1 0   1           1       0     0     1     1     0     1       1      1     10
                           Flaw Remediation     1     1       1      1 0   1           1       1     0     1     1     0     1       1      1     12
                                                                     1 1
          System Specific Total                20     20      19     8 4  20          20       17   16     17   19     16   19      14     19    268
     Media Sanitization - Common Control       1      0       1         1             1             1           1       *   1       1      1      9
         Visitor Control - Common Control      1      1       1         1             1             1           1       *   1       1      1     10
 Personnel Termination - Common Control        1      1       1         1             0             1           1       *   1       1      1      9
   Use of Cryptography - Common Control        1      1       1         1             1             1           1       *   1       1      1     10
          Bureau / Common Control Total        4      3       4         4             3             4           4     N/A   4       4      4     38

                                                   Legend:
 1 = Sampled NIST SP 800-53 security control generally compliant with NIST, Treasury, and Bureau policy.
 0 = Sampled NIST SP 800-53 control did not meet NIST, Treasury, or Bureau policy.
 A = First sampled bureau system; B=Second Sampled System; C=Third Sampled System
 * - OTS ceased operations in July 2011 and thus KPMG did not test common controls for OTS.



                                                                                                                                                            Page 42
Objective, Scope & Methodology                                                                         Appendix II
APPENDIX II – OBJECTIVE, SCOPE & METHODOLOGY

The objectives for this performance audit were to determine the effectiveness of Treasury’s information
security programs and practices for the period July 1, 2010 to June 30, 2011 for Treasury’s unclassified
systems, and to determine whether non-IRS Treasury bureaus had implemented:

       x   An information security program, consisting of policies, procedures, and security controls
           consistent with the FISMA legislation.
       x   The security controls catalog contained in NIST SP 800-53, Rev. 3, Recommended Security
           Controls for Federal Information Systems and Organizations.

We conducted our performance audit in accordance with generally accepted government auditing
standards (GAGAS) issued by the Comptroller General of the United States (U.S.). Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective.

To accomplish our objectives, we evaluated security controls in accordance with applicable legislation,
Presidential directives, DHS FY 2011 Inspector General Federal Information Security Management Act
Reporting, OMB Memorandum 11-33, FY 2011 Reporting Instructions for Federal Information Security
Management Act and Agency Privacy Management, and NIST standards and guidelines as outlined in the
Criteria section. We reviewed the Treasury information security program from both the Department-level
perspective for Treasury-wide program-level controls and the Bureau-level implementation perspective.
We considered each area above to reach an overall conclusion regarding Treasury’s information security
program and practices.

KPMG took a phased approach to satisfy the audit’s objective as listed below:

       PHASE A: Assessment of Department-Level Compliance

       To gain an overall enterprise-level understanding, we assessed management, policies, and guidance
       for the overall Treasury-wide information security program per requirements defined in FISMA and
       DHS FY 2011 Inspector General Federal Information Security Management Act Reporting, NIST
       SPSP 800-53, as well as Treasury guidelines developed in response to FISMA. This included
       program controls applicable to information security governance, certification and accreditation,
       security configuration management, incident response and reporting, security training, plan of action
       and milestones (POA&M), remote access, account and identity management, continuous monitoring,
       contingency planning, and contractor systems.

       PHASE B: Assessment of Bureau-Level Compliance

       To gain an overall bureau-level understanding, we assessed the implementation of the guidance for
       the 12 2 bureau and office wide information security programs according to requirements defined in
       FISMA and OMB Memorandum 11-33, NIST SPSP 800-53, as well as Treasury guidelines
       developed in response to FISMA. This included program controls applicable to information security
       governance, certification and accreditation, security configuration management, incident response and
       reporting, security training, POA&M, remote access, account and identity management, continuous
       monitoring, contingency planning, and contractor systems.


2
    We did not assess OTS’s bureau-level compliance due to the bureau’s planned closure in July 2011. TIGTA assessed IRS’s
    bureau-level compliance.


                                                                                                                       Page 43
Objective, Scope & Methodology                                                                         Appendix II
    PHASE C: Assessment of the Implementation of Select Security Controls from the NIST SP
    800-53 Rev. 3

    To gain an overall understanding of how effective the bureaus implemented information security
    controls at the system level, we assessed the implementation of a selection of security controls from
    the NIST SP 800-53 Rev. 3 for a representative subset of Treasury information systems
    (see Appendix V).

    To conclude on the audit’s objectives, our scope included evaluating the information security
    practices and policies established by the Treasury OCIO. In addition, we evaluated the information
    security practices, policies, and procedures in use across 313 bureaus of the Treasury, excluding the
    IRS.

We also tested a representative subset of 15 information systems from a total population of 117 non-IRS
major applications and general support systems as of May 11, 2011.3 We tested the 15 information
systems to determine whether bureaus were effective in implementing Treasury’s security program and
meeting the FIPS 200 minimum security standards to protect information and information systems.
Appendix IV, Approach to Selection of Subset of Systems, provides additional details regarding our
system selection. The subset of systems encompassed systems managed and operated by 12 of 14
Treasury bureaus, excluding IRS and OIG. 4

Our criteria for selecting security controls within each system were based on the following:

    x    Controls that were shared across a number of information systems, such as common controls,
    x    Controls that were likely to change over time (i.e., volatile) and require human intervention, and
    x    Controls that were identified in prior audits as requiring management’s attention.

Other Considerations

In performing our control evaluations, we interviewed key Treasury OCIO personnel who had significant
information security responsibilities as well as personnel across the 13 non-IRS bureaus. We also
evaluated Treasury and bureaus’ policies, procedures, and guidelines. Lastly, we evaluated selected
security-related documents and records, including certification and accreditation packages, configuration
assessment results, and training records.

We performed our fieldwork at Treasury’s headquarters offices in Washington, D.C., and bureau
locations in Washington, D.C.; Hyattsville, Maryland; McLean, Virginia; and Parkersburg, West Virginia
during the period of April 26, 2011, through August 31, 2011. During our performance audit, we met with
Treasury management to discuss our preliminary conclusions.




3
  A representative subset of information systems refers to KPMG’s approach of stratifying the population of non-IRS Treasury
   information system and selecting an information system from each Treasury bureau, excluding IRS and OIG, rather than
   selecting a random sample of information systems that might exclude a Treasury bureau.
4
  KPMG inspected only one OIG or TIGTA information system every year. In FY 2011 TIGTA was selected as the OIG was
  selected in FY 2010.


                                                                                                                       Page 44
Objective, Scope & Methodology                                                                      Appendix II
Criteria

We focused our FISMA performance audit approach on federal information security guidance developed
by NIST and OMB. NIST Special Publications provide guidelines that are considered essential to the
development and implementation of agencies’ security programs. 5 The following is a listing of the criteria
used in the performance of the Fiscal Year (FY) 2011 FISMA performance audit:

x     OMB Circular A-130, Management of Federal Information Resources;

x     NIST FIPS Publication 199, Standards for Security Categorization of Federal Information and
      Information Systems;

x     NIST FIPS Publication 200, Minimum Security Requirements for Federal Information and
      Information Systems;

x     NIST Special Publications:
      o 800-16, Information Technology Security Training Requirements: A Role- and Performance-
         Based Model
      o 800-18 Rev. 1, Guide for Developing Security Plans for Information Technology Systems
      o 800-30, Risk Management Guide for Information Technology Systems
      o 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems
      o 800-37 Rev. 1, Guide for Applying the Risk Management Framework to Federal Information
         Systems
      o 800-39, Managing Risk from Information Systems: An Organizational, Mission and Information
         System View
      o 800-53 Rev. 3, Recommended Security Controls for Federal Information Systems and
         Organizations
      o 800-53A Rev. 1, Guide for Assessing the Security Controls in Federal Information Systems and
         Organizations
      o 800-60 Rev. 1, Guide for Mapping Types of Information and Information Systems to Security
         Categories
      o 800-61 Rev. 1, Computer Security Incident Handling Guide
      o 800-70 Rev. 2, Security Configuration Checklists Program for IT Products: Guidance for
         Checklists Users and Developers

x     OMB Memoranda:
      o 04-04, E-Authentication Guidance for Federal Agencies
      o 04-25, FY 2004 Reporting Instructions for the Federal Information Security Management Act
      o 07-11, Implementation of Commonly Accepted Security Configurations for Windows Operating
        Systems
      o 07-16, Safeguarding Against and Responding to the Breach of Personally Identifiable
        Information
      o 07-18, Ensuring New Acquisitions Include Common Security Configurations

5
    Note (per OMB instructions M-11-33 FY 2011 Reporting Instructions for the Federal Information Security Management Act
    and Agency Privacy Management): While agencies are required to follow NIST standards and guidance in accordance with
    OMB policy, there is flexibility within NIST’s guidance documents in how agencies apply the guidance. However, NIST
    Special Publication 800-53 is mandatory because FIPS 200 specifically requires it. Unless specified by additional
    implementing policy by OMB, guidance documents published by NIST generally allow agencies latitude in their application.
    Consequently, the application of NIST guidance by agencies can result in different security solutions that are equally
    acceptable and compliant with the guidance.


                                                                                                                    Page 45
Objective, Scope & Methodology                                                   Appendix II
    o   08-22, Guidance on the Federal Desktop Core Configuration (FDCC)
    o   11-33, FY 2011 Reporting Instructions for the Federal Information Security Management Act and
        Agency Privacy Management

x   Treasury Guidance:
    o TD P 85-01, Treasury Information Technology Security Program




                                                                                               Page 46
Status of Prior Year Findings                                                                                                                 Appendix III
APPENDIX III – STATUS OF PRIOR YEAR FINDINGS

Finding Number             Prior Year Condition                           Recommendation(s)                                 Status
Prior Year FY 2010         The audit identified inconsistent              We recommend that OCIO management provide         Implemented/Closed.
Finding #1 –               implementation of account management and       sufficient oversight by the Treasury OCIO Cyber
                           physical access security controls at six       Security Program over the NIST SPSP 800-53        OCIO updated the Treasury
a. Office of Chief         bureaus including the Bureau of Engraving      security controls around Account Management,      Directive Publication (TD P)
Information Officer        and Printing (BEP), Departmental Offices       Physical Access Authorization, and Physical       85-01 to reflect new account
                           (DO), Financial Crimes Enforcement             Access Control to ensure that the bureaus         management procedures based
Logical and Physical       Network (FinCEN), Office of the                implement these controls. This can be             on NIST SPSP 800-53 Rev. 3.
Account Management         Comptroller of the Currency (OCC), Office      accomplished by reviewing the implementation of
Activities were not        of the Inspector General (OIG), and the        these controls during the next OCIO review at
Consistently Performed     Office of Thrift Supervision (OTS). This       each bureau.
                           finding indicated that the Treasury OCIO
                           had not provided sufficient oversight to
                           enforce and monitor compliance with
                           Treasury and National Institute of Standards
                           and Technology (NIST) identify and access
                           management standards and guidelines.

Prior Year FY 2010         BEP did not document its review of user        We recommend that the BEP management              Implemented/Closed.
Finding #1 –               accounts for the selected system in            perform and document user access reviews for
                           accordance with their system security plan.    their system in accordance with their system      BEP reviewed and documented
b. Bureau of Engraving                                                    security plan.                                    access review of users for the
and Printing                                                                                                                selected system.

Logical and Physical
Account Management
Activities were not
Consistently Performed

Prior Year FY 2010         The DO systems had user and administrator We recommend that OCIO management:                     Implemented/Closed.
Finding #1 –               accounts that had been inactive for over 90
                           days and had not been disabled. These       1. Ensure administrators for the reviewed DO         The sampled DO system is
c. Departmental Offices    accounts are created and maintained by the     system review user accounts and disable           reviewed for inactivity by
                           OCIO, who uses the system for                  inactive accounts in accordance with TD P         administrators on a quarterly
Logical and Physical       performance of their Treasury-wide FISMA       85-01 (as a minimum) and any applicable           basis and inactive accounts are
Account Management         oversight role.                                bureau policy.                                    disabled. OCIO Management
Activities were not                                                    2. Review administrator accounts for inactivity      send outs quarterly
Consistently Performed                                                    on a quarterly basis and disable accounts per     training/awareness e-mails with


                                                                                                                                                     Page 47
Status of Prior Year Findings                                                                                                                     Appendix III
Finding Number               Prior Year Condition                           Recommendation(s)                                   Status
                                                                               the TD P 85-01 for the reviewed DO system.       instructions on how to review
                                                                            3. Train the reviewed DO system’s                   and disable accounts to every
                                                                               administrators on how to review the accounts     Bureau Administrator.
                                                                               of the users assigned to their respective
                                                                               bureaus on a quarterly basis and disable the
                                                                               accounts that exceed 90 days of inactivity.

Prior Year FY 2010           Physical access to the FinCEN data center      We recommend that FinCEN management:                Implemented/Closed.
Finding #1 –                 was not reviewed annually and access
                             approval forms were not maintained.            1.   Perform review and validation of physical      FinCEN performed a review
d. Financial Crimes                                                              access to restricted areas, annually.          and approval of the physical
Enforcement Network                                                         2.   Document and approve all employees’            access to restricted areas.
                                                                                 physical access requirements.                  FinCEN changed the door
Logical and Physical                                                        3.   Document and approve the door “zone”           “zone” configuration of the
Account Management                                                               configuration of the physical access control   physical access control system.
Activities were not                                                              system.                                        FinCEN documented their
Consistently Performed                                                      4.   Develop a documented procedure for the         physical access control
                                                                                 approval, administration, review, and          procedures for the approval,
                                                                                 validation of access to restricted areas.      administration, review, and
                                                                                                                                validation of access to
                                                                                                                                restricted areas.
Prior Year FY 2010           The OCC system did not have an automated       We recommend that OCC management develop            Implemented/Closed.
Finding #1 –                 control in place to automatically deactivate   and implement an automated means to disable
                             users’ accounts after the bureau-defined       inactive user accounts from the reviewed system     OCC management
e. Office of the             period of inactivity.                          after 60 days for Federal employees and 30 days     implemented an alternative
Comptroller of the                                                          for contractors.                                    corrective action by
Currency                                                                                                                        implementing a weekly review
                                                                                                                                of accounts for the selected
Logical and Physical                                                                                                            system.
Account Management
Activities were not
Consistently Performed

Prior Year FY 2010           The OIG systems had user and               We recommend that OIG management:                       Implemented/Closed.
Finding #1 –                 administrator accounts that had been
                             inactive for over 90 days and had not been 1. Ensure domain user accounts are reviewed             OIG reviews physical access
f. Office of the Inspector   disabled. In addition, the OIG Local Area     for inactivity on an annual basis and domain         list at least annually and
General                      Network (LAN) room’s access list was not      administrator accounts are reviewed for              performs a quarterly review of
                             reviewed annually and users, who no longer    inactivity on a semiannual basis, and any            user accounts. OIG follows the



                                                                                                                                                         Page 48
Status of Prior Year Findings                                                                                                                     Appendix III
Finding Number               Prior Year Condition                         Recommendation(s)                                   Status
Logical and Physical         need access, were not removed in a timely       accounts that exceed 90 days of inactivity are   TD P 85-01 policies and
Account Management           manner.                                         disabled.                                        procedures for annual review of
Activities were not                                                       2. Develop policies and procedures and              physical access to its facilities.
Consistently Performed                                                       document them in the system security plan
                                                                             for the annual review of OIG LAN room
                                                                             access.
                                                                          3. Conduct a review of users’ access to the OIG
                                                                             LAN room annually and remove access
                                                                             privileges for those individuals that do not
                                                                             need access.
Prior Year FY 2010           The periodic review of the OTS application   We recommend that OTS management:                   Implemented/Closed.
Finding #1 –                 users’ access did not include reviewing
                             users’ privileges within the application in 1.   Develop and implement a training program        OTS prepared procedures and
g. Office of Thrift          order to determine if they were appropriate      that outlines how the six-month user            instructions on how to review
Supervision                  based on users’ roles at the OTS. The            privileges review should be performed.          accounts for inactivity and
                             review of access only had accessed whether 2.    Develop and implement a mechanism to            appropriateness, and conducted
Logical and Physical         users were active employees at the               track completion of the six-month user          a six-month user review.
Account Management           organization.                                    privileges review.
Activities were not
Consistently Performed

Prior Year FY 2010          Financial Management Service (FMS)            We recommend that FMS Management:                   Implemented/Closed.
Finding #2 –                transferred the ISSO role from a
                            government employee to a bank employee        1. Provide the ISSO with the network                FMS provided the ISSO access
a. Financial Management     for an outsourced information system in          connectivity that will allow the bank            to necessary systems to allow
Service                     March 2010 by utilizing an existing              employee access to FMS internal resources        the ISSO to perform assigned
                            financial agent agreement with a large           such as Treasury’s FISMA collection and          duties, as well as included
Communication Gaps and      national bank. The outsourcing of the ISSO       reporting tool, current FMS IT security          guidance in the FMS ISSO
IT Governance Concern       role created two IT governance concerns.         policy and security templates, and ability to    Appointment Process
with Financial Agent in     First, KPMG noted that the appointed             receive FMS e-mail alerts regarding changes      procedural documentation for
Information System Security ISSO, a bank employee, could not fully           to FMS IT security policy and security           the assignment of external
Officer (ISSO) Position     perform his assigned information security        templates.                                       ISSOs. In addition, the
                            duties. Second, the transfer of the ISSO role 2. Create FMS official guidance covering the        financial agent relocated their
                            from a FMS employee to a bank employee           appointment of the ISSO position at external     ISSO under the Project
                            created additional concerns regarding IT         providers. In such circumstances, FMS            Management Office and
                            governance. Specifically, the new ISSO, a        should confirm that communication                Controls Organization in order
                            bank employee, reported to the Operations        requirements and needs are satisfied prior to    to remediate any conflict of
                            Manager for the outsourced information           outsourcing the ISSO position. Additionally,     interest with the Operations
                            system.                                          the guidance should address reporting            Manager as of January 1, 2011.



                                                                                                                                                         Page 49
Status of Prior Year Findings                                                                                                                               Appendix III
Finding Number                     Prior Year Condition                             Recommendation(s)                                    Status
                                                                                       relationships that might impact the ISSO’s
                                                                                       objectivity and clearly identify monitoring
                                                                                       activities and assignment of responsibility to
                                                                                       an FMS employee to mitigate potential
                                                                                       conflicts.
                                                                                    3. Evaluate solutions to mitigate concerns over
                                                                                       ISSO-management reporting relationships,
                                                                                       which could include, for example,
                                                                                       establishing or modifying internal controls,
                                                                                       implementing monitoring tools, realigning
                                                                                       the ISSO position under the bank’s
                                                                                       Information Security team or elsewhere
                                                                                       within the bank, contracting for ISSO
                                                                                       services through a different provider such as
                                                                                       independent verification and validation
                                                                                       contractor, or reassigning ISSO
                                                                                       responsibilities back to an FMS employee.

Prior Year FY 2010                 Two of the three FMS systems reviewed,       We recommend that FMS Management:                        Partially Implemented/Open.
Finding #3 -                       previously identified security weaknesses
                                   and associated remediation plans were not    1. Direct ISSOs to develop and record POA&M              KPMG determined that
a. Financial Management            added timely (i.e., within 30 days 6) to the    items in TAF within the designated time               Recommendation 1 of the FY
Service                            POA&Ms of record as required by Office of       period when security vulnerabilities are              2010 POA&M NFR has been
                                   Management and Budget (OMB) M-10-15,            identified. (Closed)                                  addressed. However, KPMG
Untimely Recording of              Treasury policy, and FMS policy.             2. Provide additional oversight across all FMS           noted similar control
Plans of Actions and                                                               systems to ensure that the POA&M process              deficiencies with the associated
Milestones (POA&M) in                                                              is managed in accordance with FMS,                    POA&Ms for the three FMS
Trusted Agent FISMA                                                                Treasury, and OMB policy and guidance.                sampled systems. See Finding
(TAF)                                                                              (Open)                                                #6 – Financial Management
                                                                                                                                         Service.

Prior Year FY 2010          For one OCC system, previously identified We recommend that OCC:                                             Implemented/Closed.
Finding #3 –                security weaknesses and associated
                            remediation plans were not added timely to 1. Populate the information system’s POA&M                        OCC developed and
b. Office of Comptroller of the POA&M as required by OMB M-10-15,         to include vulnerabilities found in all                        documented a new POA&M
Currency                    Treasury policy, and bureau standards.        applicable IT security reviews and audits,                     process that tracks all
                            Specifically, OCC did not update, submit,     including vulnerabilities identified from                      weaknesses across all bureau

6
    FMS policy requires that POA&M items be entered within 30 days for information systems with a FIPS 199 High-impact classification.



                                                                                                                                                                   Page 50
Status of Prior Year Findings                                                                                                                        Appendix III
Finding Number            Prior Year Condition                     Recommendation(s)                                               Status
Maintenance of OCC system and include all necessary POA&M elements    annual assessments, audit reports, Treasury                  systems and provides training
POA&M                     for an information system.                  ACIOCS reviews, or internal bureau                           on the new process.
                                                                      evaluations.
                                                                   2. Populate the information system’s POA&M
                                                                      with the information required by Treasury
                                                                      and OCC.
                                                                   3. Develop and implement a training program
                                                                      for all individuals tasked with implementing
                                                                      the OCC POA&M process.

Prior Year FY 2010          Of 13 incidents documented by BPD during        We recommend that BPD Management ensure                Implemented/Closed.
Finding #4 –                the reporting period, KPMG determined           that all incidents and potential incidents are
                            that four of the incidents were not reported    reported to TCSIRC within the required time            BPD updated incident response
a. Bureau of Public Debt    to Treasury Computer Security Incident          period.                                                procedures to ensure time
                            response Center (TCSIRC) within the                                                                    requirements were met. No
Incident Reporting          required time period.                                                                                  incidents in FY11 were
                                                                                                                                   reported untimely.

Prior Year FY 2010          Of 15 incidents documented by Alcohol and       We recommend that TTB management ensure                Implemented/Closed.
Finding #4 –                Tobacco Tax and Trade Bureau (TTB)              that all potential and actual security incidents are
                            during the reporting period, KPMG               reported to TCSIRC within the required time            TTB updated incident response
b. Alcohol and Tobacco      determined that two of the incidents were       period.                                                procedures to reflect Treasury
Tax and Trade Bureau        not reported to TCSIRC within the required                                                             defined time requirements. No
                            time period.                                                                                           incidents in FY11 were
Incident Reporting                                                                                                                 reported untimely.

Prior Year FY 2010          BEP did not document reviews of audit logs      We recommend that BEP management develop               Implemented/Closed.
Finding #5 –                for the system we reviewed in accordance        and implement a process to review audit log
                            with NIST SPSP 800-53 and Treasury              information on a monthly basis for the                 BEP performed audit log
a. Bureau of Engraving      policy. The lack of monitoring and regular      information system that includes a requirement to      reviews and documented audit
and Printing                review of audit logs can increase the risk      document the reviews performed.                        log review process.
                            that unauthorized access to the information
The Review of Audit Logs    system may go undetected.

Prior Year FY 2010          FinCEN did not adequately follow their          We recommend that FinCEN management:                   Implemented/Closed.
Finding #6 –                information systems security program for
                            media sanitization, which requires media to     1. Secure and restrict access to media scheduled FinCEN implemented all three
a. Financial Crimes         be physically secured when both stored and         to be destroyed in accordance with their      recommendations by
Enforcement Network         transported, and that appropriate audit trail      media sanitization policies.                  implementing a new process



                                                                                                                                                            Page 51
Status of Prior Year Findings                                                                                                                      Appendix III
Finding Number               Prior Year Condition                          Recommendation(s)                                   Status
                             records be maintained.                        2. Maintain a list identifying the device, serial   that included scanning,
Electronic Media                                                              number, and physical location of media that      logging, and tracking the
Destruction Process is not                                                    is scheduled to be destroyed.                    media, then storing it in the
fully compliant with                                                       3. Reconcile the destroyed hardware and             secure data center.
FinCEN Policy                                                                 electronic recording media with the list of
                                                                              items to be destroyed.

Prior Year FY 2010           Administrative accounts on a BPD              BPD management updated the system                   Implemented/Closed.
Finding #7 –                 information system were not locked after a    configurations to remediate this finding, no
                             defined number of invalid login attempts in   recommendations were necessary.                     BPD updated its password
a. Bureau of Public Debt     accordance with NIST SPSP 800-53 and                                                              lockout configuration settings.
                             system documentation.
Password Settings Were Not
Properly Configured to
Lockout for a BPD System




                                                                                                                                                          Page 52
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                       Appendix IV

APPENDIX IV – THE DEPARTMENT OF THE TREASURY’S CONSOLIDATED RESPONSE TO DHS’s FISMA 2011
QUESTIONS FOR INSPECTORS GENERAL

The information included in Appendix III represents the Department of the Treasury’s consolidated responses to DHS’s FISMA 2011 questions
for Inspectors General. KPMG prepared responses to DHS questions based on an assessment of 15 information systems across 13 Treasury
components, excluding the IRS and OIG. TIGTA performed audit procedures over the IRS information systems and provided their answers to the
Treasury OIG and KPMG for consolidation. The information provided by TIGTA has not been subjected to KPMG audit procedures and,
accordingly, we express no opinion on it.

1: Risk Management
Status of Risk Management                1.a. The Agency has established and is maintaining a risk management program that is consistent with FISMA
Program [check one: 1.a, 1.b, 1.c]       requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities may have been
                                     X   identified by the Office of Inspector General (OIG), the program includes the following attributes:
                                              1.a(1). Documented and centrally accessible policies and procedures for risk management, including
                                              descriptions of the roles and responsibilities of participants in this process.
                                              1.a(2). Addresses risk from an organization perspective with the development of a comprehensive governance
                                              structure and organization-wide risk management strategy as described in NIST 800-37, Rev.1
                                              1.a(3). Addresses risk from a mission and business process perspective and is guided by the risk decisions at
                                              the organizational perspective, as described in NIST 800-37, Rev.1.
                                              1.a(4). Addresses risk from an information system perspective and is guided by the risk decisions at the
                                              organizational perspective and the mission and business perspective, as described in NIST 800-37, Rev. 1.
                                              1.a(5). Categorizes information systems in accordance with government policies.
                                              1.a(6). Selects an appropriately tailored set of baseline security controls.
                                              1.a(7). Implements the tailored set of baseline security controls and describes how the controls are employed
                                              within the information system and its environment of operation.
                                              1.a(8). Assesses the security controls using appropriate assessment procedures to determine the extent to
                                              which the controls are implemented correctly, operating as intended, and producing the desired outcome with
                                              respect to meeting the security requirements for the system.
                                              1.a(9). Authorizes information system operation based on a determination of the risk to organizational
                                              operations and assets, individuals, other organizations, and the Nation resulting from the operation of the
                                              information system and the decision that this risk is acceptable.
                                              1.a(10). Ensures information security controls are monitored on an ongoing basis including assessing control
                                              effectiveness,
                                              1.a(11). Information system specific risks (tactical), mission/business specific risks and organizational-level
                                              (strategic) risks are communicated to appropriate levels of the organization.
                                              1.a(12). Senior Officials are briefed on threat activity on a regular basis by appropriate personnel. (e.g., Chief
                                              Information Security Officer (CISO)).
                                              1.a(13). Prescribes the active involvement of information system owners and common control providers, chief


                                                                                                                                                         Page 53
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                      Appendix IV

1: Risk Management
                                            information officers, senior information security officers, authorizing officials, and other roles as applicable in
                                            the ongoing management of information system-related security risks.
                                            1.a(14). Security authorization package contains system security plan, security assessment report, and Plan of
                                            Actions and Milestones (POA&M) in accordance with government policies.

                                             Comments - Treasury OIG: TIGTA was still in the process of making its risk management program
                                             compliant with NIST SP 800-37 Rev.1, Guide for Applying the Risk Management Framework to Federal
                                             Information Systems. We also found that SSPs at FMS, DO, and Mint were not compliant with NIST SP 800-
                                             53 Rev. 3. This was not significant enough to warrant a Treasury-wide control failure. (See Findings # 3, 10)
                                        1.b. The Agency has established and is maintaining a risk management program. However, the Agency needs to
                                        make significant improvements as noted below.
If 1.b. is checked above, check areas        1.b(1). Risk management policy is not fully developed.
that need significant improvement:           1.b(2). Risk management procedures are not fully developed, sufficiently detailed (SP 800-37, SP 800-39, SP
                                             800-53).
                                             1.b(3). Risk management procedures are not consistently implemented in accordance with government
                                             policies (SP 800-37, SP 800-39, SP 800-53).

                                            1.b(4). A comprehensive governance structure and Agency-wide risk management strategy has not been fully
                                            developed in accordance with government policies (SP 800-37, SP 800-39, SP 800-53).
                                            1.b(5). Risks from a mission and business process perspective are not addressed (SP 800-37, SP 800-39, SP
                                            800-53).
                                            1.b(6). Information systems are not properly categorized (FIPS 199/SP 800-60).
                                            1.b(7). Appropriately tailored baseline security controls are not applied to information systems in accordance
                                            with government policies (FIPS 200/SP 800-53).
                                            1.b(8). Risk assessments are not conducted in accordance with government policies (SP 800-30).
                                            1.b(9). Security control baselines are not appropriately tailored to individual information systems in
                                            accordance with government policies (SP 800-53).
                                            1.b(10). The communication of information system specific risks, mission/business specific risks, and
                                            organizational-level (strategic) risks to appropriate levels of the organization is not in accordance with
                                            government policies.
                                            1.b(11). The process to assess security control effectiveness is not in accordance with government policies
                                            (SP800-53A).
                                            1.b(12). The process to determine risk to agency operations, agency assets, or individuals, or to authorize
                                            information systems to operate is not in accordance with government policies (SP 800-37).
                                            1.b(13). The process to continuously monitor changes to information systems that may necessitate
                                            reassessment of control effectiveness is not in accordance with government policies (SP 800-37).
                                            1.b(14). Security plan is not in accordance with government policies (SP 800-18, SP 800-37).



                                                                                                                                                        Page 54
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                      Appendix IV

1: Risk Management
                                                 1.b(15). Security assessment report is not in accordance with government policies (SP 800-53A, SP 800-37).
                                                 1.b(16). Accreditation boundaries for agency information systems are not defined in accordance with
                                                 government policies.
                                                 1.b(17). Other
                                                 1.b(17ex). Explanation for Other
                                            1.c. The Agency has not established a risk management program.


2: Configuration Management
Status of Configuration                     2.a. The Agency has established and is maintaining a security configuration management program that is
Management Program [check one:              consistent with FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement
2.a, 2.b, 2.c]                              opportunities may have been identified by the OIG, the program includes the following attributes:
                                                 2.a(1). Documented policies and procedures for configuration management.
                                                 2.a(2). Standard baseline configurations defined.
                                                 2.a(3). Assessing for compliance with baseline configurations.
                                                 2.a(4). Process for timely, as specified in agency policy or standards, remediation of scan result
                                                 deviations.
                                                 2.a(5). For Windows-based components, Federal Desktop Core Configuration (FDCC)/United States
                                                 Government Configuration Baseline (USGCB) secure configuration settings fully implemented and any
                                                 deviations from FDCC/USGCB baseline settings fully documented.
                                                 2.a(6). Documented proposed or actual changes to hardware and software configurations.
                                                 2.a(7). Process for timely and secure installation of software patches.
                                            2.b. The Agency has established and is maintaining a security configuration management program. However, the
                                        X   Agency needs to make significant improvements as noted below.
If 2.b. is checked above, check areas            2.b(1). Configuration management policy is not fully developed (NIST 800-53: CM-1)
that need significant improvement:               2.b(2). Configuration management procedures are not fully developed (NIST 800-53: CM-1).
                                                 2.b(3). Configuration management procedures are not consistently implemented (NIST 800-53: CM-1).

                                                Comments - TIGTA: In March 2011, the Government Accountability Office (GAO-11-308) reported that the
                                        X       IRS had newly identified and unresolved weaknesses related configuration management that continue to
                                                jeopardize the confidentiality, integrity, and availability of the financial and sensitive taxpayer information
                                                processed by the IRS’s systems.
                                                2.b(4). Standard baseline configurations are not identified for software components (NIST 800-53: CM-2).
                                        X       Comments - Treasury OIG: TIGTA did not identify standard baseline configurations for all software
                                                components. (See Finding # 12)



                                                                                                                                                        Page 55
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                               Appendix IV

2: Configuration Management
                                          2.b(5). Standard baseline configurations are not identified for all hardware components (NIST 800-53: CM-2).
                                  X       Comments - Treasury OIG: Standard baseline configurations were not identified for all hardware at TIGTA.
                                          (See Finding # 12)
                                          2.b(6). Standard baseline configurations are not fully implemented (NIST 800-53: CM-2).

                                          Comments - Treasury OIG: TIGTA did not fully implement standard baseline configurations. (See Finding
                                          # 12)
                                  X
                                          Comments - TIGTA: To correct configuration management deficiencies, the IRS is in the process of
                                          implementing an Enterprise Configuration Management System, with planning dates through Fiscal Year
                                          2014, which will provide oversight and enforcement of configuration and change management processes.
                                          2.b(7). FDCC/USGCB is not fully implemented (OMB) and/or all deviations are not fully documented (NIST
                                          800-53: CM-6).
                                  X
                                          Comments - Treasury OIG: A DO system did not implement FDCC configurations for its desktops or obtain
                                          a waiver to implement a different standard. (See Finding # 12)
                                          2.b(8). Software assessing (scanning) capabilities are not fully implemented (NIST 800-53: RA-5, SI-2).

                                          Comments - Treasury OIG: The CDFI Fund had a contractor-operated system that was not scanned
                                  X       according to NIST and FISMA requirements. (See Finding # 7)

                                          Comments - TIGTA: In May 2011, TIGTA reported (Reference Number 2011-20-044) that the IRS had not
                                          fully implemented its plans to complete vulnerability scans of databases within its enterprise.
                                          2.b(9). Configuration-related vulnerabilities, including scan findings, have not been remediated in a timely
                                          manner, as specified in agency policy or standards (NIST 800-53: CM-4, CM-6, RA-5, SI-2).

                                          Comments - Treasury OIG: OTS ran a system on an unsupported operating system, but the system was
                                          upgraded to a newer operating system after auditor notification. A DO system had vulnerabilities that were not
                                  X       remediated timely. (See Findings # 7, 9)

                                          Comments - TIGTA: The IRS has been unable to establish an enterprise-wide process for timely remediation
                                          of weaknesses reported by vulnerabilities scans because of the limited information it gets from the scan
                                          results.
                                          2.b(10). Patch management process is not fully developed, as specified in agency policy or standards (NIST
                                          800-53: CM-3, SI-2).
                                  X
                                          Comments - TIGTA: In May 2011, the TIGTA reported (Reference Number 2011-20-044) that



                                                                                                                                                 Page 56
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                       Appendix IV

2: Configuration Management
                                                 nonmainframe databases containing taxpayer data were not always configured in a secure manner and were
                                                 running out-of-date software that no longer received security patches and other vendor support.
                                                 2.b(11). Other
                                                 2.b(11ex). Explanation for Other:
                                            2.c. The Agency has not established a security configuration management program.


3: Incident Response and Reporting
Status of Incident Response &               3.a. The Agency has established and is maintaining an incident response and reporting program that is consistent
Reporting Program [check one: 3.a,          with FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities
3.b, 3.c]                                   may have been identified by the OIG, the program includes the following attributes:
                                                 3.a(1). Documented policies and procedures for detecting, responding to, and reporting incidents.
                                                 3.a(2). Comprehensive analysis, validation and documentation of incidents.
                                                 3.a(3). When applicable, reports to United States Computer Emergency Response Team (US-CERT) within
                                                 established time frames.
                                                 3.a(4). When applicable, reports to law enforcement within established time frames.
                                                 3.a(5). Responds to and resolves incidents in a timely manner, as specified in agency policy or standards, to
                                                 minimize further damage.
                                                 3.a(6). Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
                                                 3.a(7). Is capable of correlating incidents.
                                            3.b. The Agency has established and is maintaining an incident response and reporting program. However, the
                                        X   Agency needs to make significant improvements as noted below.
If 3.b. is checked above, check areas            3.b(1). Incident response and reporting policy is not fully developed (NIST 800-53: IR-1).
that need significant improvement:               3.b(2). Incident response and reporting procedures are not fully developed or sufficiently detailed (NIST 800-
                                                 53: IR-1).
                                                 3.b(3). Incident response and reporting procedures are not consistently implemented in accordance with
                                                 government policies (NIST 800-61, Rev 1).
                                                 3.b(4). Incidents were not identified in a timely manner, as specified in agency policy or standards (NIST 800-
                                                 53, 800-61, and OMB M-07-16, M-06-19).
                                                 3.b(5). Incidents were not reported to the US-CERT as required (NIST 800-53, 800-61 and OMB M-07-16,
                                                 M-06-19).
                                        X
                                                Comments – Treasury OIG: See 3.b(12ex) (See Finding # 2)
                                                3.b(6). Incidents were not reported to law enforcement as required (SP 800-86).
                                                3.b(7). Incidents were not resolved in a timely manner (NIST 800-53, 800-61 and OMB M-07-16, M-06-19).
                                                3.b(8). Incidents were not resolved to minimize further damage (NIST 800-53, 800-61 and OMB M-07-16, M-



                                                                                                                                                         Page 57
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                          Appendix IV

3: Incident Response and Reporting
                                                 06-19).
                                                 3.b(9). There is insufficient incident monitoring and detection coverage in accordance with government
                                                 policies (NIST 800-53, 800-61 and OMB M-07-16, M-06-19).
                                                 3.b(10). The agency cannot or is not prepared to track and manage incidents in a virtual/cloud environment.
                                                 3.b(11). The agency does not have the technical capability to correlate incident events.
                                                 3.b(12). Other
                                      X
                                                 Comments - Treasury OIG: Untimely Incident Reporting (See Finding # 2)
                                                 3.b(12ex). Explanation for Other:

                                                 Comments - Treasury OIG: The CDFI Fund did not report 1 of 1 security incident within the time frame.
                                                 DO did not report 1 of 15 sampled incidents within the time frame. FMS did not report 7 of 10 incidents
                                                 within the time frame. Mint did not report 1 of 15 sampled incidents within the time frame. TIGTA did not
                                                 report 1 of 13 incidents within the required time frame. (See Finding #2)
                                            3.c. The Agency has not established an incident response and reporting program.
Comments:

4: Security Training
Status of Security Training               4.a. The Agency has established and is maintaining a security training program that is consistent with FISMA
Program                                   requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities may have been
[check one: 4.a, 4.b, 4.c]                identified by the OIG, the program includes the following attributes:
                                               4.a(1). Documented policies and procedures for security awareness training.
                                               4.a(2). Documented policies and procedures for specialized training for users with significant information
                                               security responsibilities.
                                               4.a(3). Security training content based on the organization and roles, as specified in agency policy or standards.
                                               4.a(4). Identification and tracking of the status of security awareness training for all personnel (including
                                               employees, contractors, and other agency users) with access privileges that require security awareness training.
                                               4.a(5). Identification and tracking of the status of specialized training for all personnel (including employees,
                                               contractors, and other agency users) with significant information security responsibilities that require specialized
                                               training.
                                          4.b. The Agency has established and is maintaining a security training program. However, the Agency needs to make
                                  X       significant improvements as noted below.
If 4.b. is checked above, check                4.b(1). Security awareness training policy is not fully developed (NIST 800-53: AT-1).
areas that need significant                    4.b(2). Security awareness training procedures are not fully developed and sufficiently detailed (NIST 800-53:
improvement:                                   AT-1).
                                               4.b(3). Security awareness training procedures are not consistently implemented in accordance with government
                                               policies (NIST 800-53: AT-2).


                                                                                                                                                            Page 58
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                   Appendix IV

4: Security Training
                                        4.b(4). Specialized security training policy is not fully developed (NIST 800-53: AT-3).
                                        4.b(5). Specialized security training procedures are not fully developed or sufficiently detailed in accordance
                                        with government policies (SP 800-50, SP 800-53).
                                        4.b(6). Training material for security awareness training does not contain appropriate content for the Agency (SP
                                        800-50, SP 800-53).
                                        4.b(7). Identification and tracking of the status of security awareness training for personnel (including
                                        employees, contractors, and other agency users) with access privileges that require security awareness training is
                                        not adequate in accordance with government policies (SP 800-50, SP 800-53).
                                        4.b(8). Identification and tracking of the status of specialized training for personnel (including employees,
                                        contractors, and other agency users) with significant information security responsibilities is not adequate in
                                        accordance with government policies (SP 800-50, SP 800-53).

                                         Comments - TIGTA: In June 2011, the TIGTA reported (Reference Number 2011-20-060) that the IRS was
                                         unable to track whether employees with disaster recovery roles attend required annual disaster recovery training.
                               X         The IRS plans to develop a process for identifying and tracking the completion of training for employees with
                                         disaster recovery roles by December 31, 2011. In addition, the IRS did not identify or track contractors that
                                         require specialized training for the Fiscal Year 2011 FISMA year, but plans to begin collecting and tracking
                                         information on contractor completion of specialized training for the Fiscal Year 2012 FISMA year. Contractors
                                         will self identify and report the completion of specialized training where required and provide these data to the
                                         IRS.
                                         4.b(9). Training content for individuals with significant information security responsibilities is not adequate in
                                         accordance with government policies (SP 800-53, SP 800-16).
                                         4.b(10). Less than 90% of personnel (including employees, contractors, and other agency users) with access
                                         privileges completed security awareness training in the past year.
                                         4.b(11). Less than 90% of employees, contractors, and other users with significant security responsibilities
                                         completed specialized security awareness training in the past year.
                                         4.b(12). Other
                                         4.b(12ex). Explanation for Other
                                    4.c. The Agency has not established a security training program.




                                                                                                                                                    Page 59
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                       Appendix IV


5: POA&M
Status of Plan of Action &                  5.a. The Agency has established and is maintaining a POA&M program that is consistent with FISMA
Milestones (POA&M) Program                  requirements, OMB policy, and applicable NIST guidelines, and tracks and monitors known information security
[check one: 5.a, 5.b, 5.c]                  weaknesses. Although improvement opportunities may have been identified by the OIG, the program includes the
                                            following attributes:
                                                 5.a(1). Documented policies and procedures for managing Information Technology (IT) security weaknesses
                                                 discovered during security control assessments and requiring remediation.
                                                 5.a(2). Tracks, prioritizes and remediates weaknesses.
                                                 5.a(3). Ensures remediation plans are effective for correcting weaknesses.
                                                 5.a(4). Establishes and adheres to milestone remediation dates.
                                                 5.a(5). Ensures resources are provided for correcting weaknesses.
                                                 5.a(6). Program officials and contractors report progress on remediation to the Chief Information Officer
                                                 (CIO) on a regular basis, at least quarterly, and the CIO centrally tracks, maintains, and independently
                                                 reviews/validates the POA&M activities at least quarterly.
                                            5.b. The Agency has established and is maintaining a POA&M program that tracks and remediates known
                                        X   information security weaknesses. However, the Agency needs to make significant improvements as noted below.
If 5.b. is checked above, check areas            5.b(1). POA&M Policy is not fully developed.
that need significant improvement:               5.b(2). POA&M procedures are not fully developed and sufficiently detailed.
                                                 5.b(3). POA&M procedures are not consistently implemented in accordance with government policies.
                                        X       Comments – Treasury OIG: FMS did not record and update security vulnerabilities timely. (See Finding #
                                                6)
                                                5.b(4). POA&Ms do not include security weaknesses discovered during assessments of security controls and
                                                requiring remediation (OMB M-04-25).

                                        X       Comments - Treasury OIG: OTS did not include an out of date operating systems in their POA&M despite
                                                this vulnerability being well known for several months by system administrators. One FMS system POA&M
                                                did not include five high-risk vulnerabilities identified in the March 2011 and June 2011 vulnerability scans.
                                                (See Finding # 6)
                                                5.b(5). Remediation actions do not sufficiently address weaknesses in accordance with government policies
                                                (NIST SP 800-53, Rev. 3, Sect. 3.4 Monitoring Security Controls).
                                        X
                                                Comments – Treasury OIG: See 5.b(8) (See Finding # 6)

                                                5.b(6). Source of security weaknesses are not tracked (OMB M-04-25).
                                                5.b(7). Security weaknesses are not appropriately prioritized (OMB M-04-25).




                                                                                                                                                        Page 60
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                               Appendix IV

5: POA&M
                                           5.b(8). Milestone dates are not adhered to (OMB M-04-25).

                                           Comments - Treasury OIG: At FMS, one POA&M identified two high-impact vulnerabilities from the
                                  X        Fiscal Year 2009 security assessment that were marked as Delayed and two years overdue without an updated
                                           completion date. Another POA&M did not provide justification for the delayed security weaknesses. Eight
                                           POA&M items from one system and five POA&M items from a second were marked as Delayed without an
                                           updated completion date. (See Finding # 6)
                                           5.b(9). Initial target remediation dates are frequently missed (OMB M-04-25).
                                           5.b(10). POA&Ms are not updated in a timely manner (NIST SP 800-53, Rev. 3, Control CA-5, and OMB M-
                                           04-25).
                                           5.b(11). Costs associated with remediating weaknesses are not identified (NIST SP 800-53, Rev. 3, Control
                                           PM-3 and OMB M-04-25).

                                  X         Comments - TIGTA: Of the 10 IRS systems selected for the Fiscal Year 2011 FISMA evaluation, 13 (39
                                            percent) of 33 closed weaknesses and 24 (31 percent) of 77 open weaknesses, maintained in the systems’
                                            Fiscal Year 2011 POA&Ms, did not have costs associated with remediating the weaknesses in accordance with
                                            IRS policy. (See Finding # 6)
                                            5.b(12). Agency CIO does not track and review POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5, and OMB
                                            M-04-25).
                                            5.b(13). Other
                                            5.b(13ex). Explanation for Other
                                       5.c. The Agency has not established a POA&M program.
Comments:

6: Remote Access Management
Status of Remote Access                6.a. The Agency has established and is maintaining a remote access program that is consistent with FISMA
Management Program [check one:    X    requirements, OMB policy, and applicable NIST guidelines. Although improvement opportunities may have been
6.a, 6.b, 6.c]                         identified by the OIG, the program includes the following attributes:
                                            6.a(1). Documented policies and procedures for authorizing, monitoring, and controlling all methods of
                                            remote access.
                                            6.a(2). Protects against unauthorized connections or subversion of authorized connections.
                                            6.a(3). Users are uniquely identified and authenticated for all access.
                                            6.a(4). If applicable, multifactor authentication is required for remote access.
                                            6.a(5). Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic
                                            authentication, including strength mechanisms.
                                            6.a(6). Defines and implements encryption requirements for information transmitted across public networks.
                                            6.a(7). Remote access sessions, in accordance to OMB M-07-16, are timed-out after 30 minutes of inactivity



                                                                                                                                                Page 61
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                               Appendix IV

6: Remote Access Management
                                            after which reauthentication is required.




                                        6.b. The Agency has established and is maintaining a remote access program. However, the Agency needs to make
                                        significant improvements as noted below.
If 6.b. is checked above, check areas        6.b(1). Remote access policy is not fully developed (NIST 800-53: AC-1, AC-17).
that need significant improvement:           6.b(2). Remote access procedures are not fully developed and sufficiently detailed (NIST 800-53: AC-1, AC-
                                             17).
                                             6.b(3). Remote access procedures are not consistently implemented in accordance with government policies
                                             (NIST 800-53: AC-1, AC-17).
                                             6.b(4). Telecommuting policy is not fully developed (NIST 800-46, Section 5.1).
                                             6.b(5). Telecommuting procedures are not fully developed or sufficiently detailed in accordance with
                                             government policies (NIST 800-46, Section 5.4).
                                             6.b(6). Agency cannot identify all users who require remote access (NIST 800-46, Section 4.2, Section 5.1).
                                             6.b(7). Multifactor authentication is not properly deployed (NIST 800-46, Section 2.2, Section 3.3).
                                             6.b(8). Agency has not identified all remote devices (NIST 800-46, Section 2.1).
                                             6.b(9). Agency has not determined all remote devices and/or end user computers have been properly secured
                                             (NIST 800-46, Section 3.1 and 4.2).
                                             6.b(10). Agency does not adequately monitor remote devices when connected to the ’agency’s networks
                                             remotely in accordance with government policies (NIST 800-46, Section 3.2).
                                             6.b(11). Lost or stolen devices are not disabled and appropriately reported (NIST 800-46, Section 4.3, US-
                                             CERT Incident Reporting Guidelines).
                                             6.b(12). Remote access rules of behavior are not adequate in accordance with government policies (NIST 800-
                                             53, PL-4).
                                             6.b(13). Remote access user agreements are not adequate in accordance with government policies (NIST 800-
                                             46, Section 5.1, NIST 800-53, PS-6).
                                             6.b(14). Other
                                             6.b(14ex). Explanation for Other
                                        6.c. The Agency has not established a program for providing secure remote access.




                                                                                                                                                 Page 62
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                          Appendix IV

7: Identity and Access Management
Status of Account and Identity              7.a. The Agency has established and is maintaining an identity and access management program that is consistent
Management Program [check one:              with FISMA requirements, OMB policy, and applicable NIST guidelines, and identifies users and network devices.
7.a, 7.b, 7.c]                              Although improvement opportunities may have been identified by the OIG, the program includes the following
                                            attributes:
                                                 7.a(1). Documented policies and procedures for account and identity management.
                                                 7.a(2). Identifies all users, including Federal employees, contractors, and others who access Agency systems.
                                                 7.a(3). Identifies when special access requirements (e.g., multifactor authentication) are necessary.
                                                 7.a(4). If multifactor authentication is in use, it is linked to the Agency’s Personal Identity Verification (PIV)
                                                 program where appropriate.
                                                 7.a(5). Ensures that the users are granted access based on needs and separation of duties principles.
                                                 7.a(6). Identifies devices that are attached to the network and distinguishes these devices from users.
                                                 7.a(7). Ensures that accounts are terminated or deactivated once access is no longer required.
                                                 7.a(8). Identifies and controls use of shared accounts.
                                            7.b. The Agency has established and is maintaining an identity and access management program that identifies
                                        X   users and network devices. However, the Agency needs to make significant improvements as noted below.
If 7.b. is checked above, check areas            7.b(1). Account management policy is not fully developed (NIST 800-53: AC-1).
that need significant improvement:               7.b(2). Account management procedures are not fully developed and sufficiently detailed (NIST 800-53: AC-
                                                 1).
                                        X
                                                Comments - Treasury OIG: DO lacked an account management process for one system; TIGTA lacked
                                                documentation for some account management activities. (See Finding # 1)
                                                7.b(3). Account management procedures are not consistently implemented in accordance with government
                                                policies (NIST 800-53: AC-2).

                                                Comments - Treasury OIG: Account management procedures were not consistently implemented for
                                                systems at DO, FMS, OCC, and OTS. (See Finding # 1)
                                        X       Comments - TIGTA: In March 2011, the Government Accountability Office (GAO-11-308) reported that the
                                                IRS had newly identified and unresolved weaknesses related access controls that continue to jeopardize the
                                                confidentiality, integrity, and availability of the financial and sensitive taxpayer information processed by the
                                                IRS’s systems. Our review of the 10 IRS systems selected for the Fiscal Year 2011 FISMA evaluation found
                                                that all systems needed improvement in implementing NIST baseline access controls and identity and
                                                authentication controls.
                                                7.b(4). Agency cannot identify all User and Non-User Accounts (NIST 800-53, AC-2).
                                                7.b(5). Accounts are not properly issued to new users (NIST 800-53, AC-2).
                                        X       Comments - Treasury OIG: OCC did not have documented approval for new accounts for one system. (See
                                                Finding # 1)


                                                                                                                                                           Page 63
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                 Appendix IV

7: Identity and Access Management
                                           7.b(6). Accounts are not properly terminated when users no longer require access (NIST 800-53, AC-2).

                                           Comments - Treasury OIG: FMS did not deactivate inactive accounts for one system. (See Finding #1)
                                  X
                                           Comments - TIGTA: In May 2011, the TIGTA reported (Reference Number 2011-20-046) that user accounts
                                           on the bankruptcy case tracking system were not properly terminated when users no longer required access.
                                           7.b(7). Agency does not use multifactor authentication where required (NIST 800-53, IA-2).
                                           7.b(8). Agency has not adequately planned for implementation of PIV for logical access in accordance with
                                           government policies (Homeland Security Presidential Directive (HSPD) 12, FIPS 201, OMB M-05-24, OMB
                                           M-07-06, OMB M-08-01, OMB M-11-11).
                                           7.b(9). Privileges granted are excessive or result in capability to perform conflicting functions (NIST 800-53,
                                           AC-2, AC-6).

                                           Comments - Treasury OIG: OTS did not review system and administrator accounts for one system. (See
                                  X        Finding # 1)

                                            Comments - TIGTA: In May 2011, the TIGTA reported (Reference Number 2011-20-046) that access
                                            controls had not been implemented or were not operating effectively on an IRS bankruptcy case tracking
                                            system, on which many IRS employees had excessive privileges.
                                            7.b(10). Agency does not use dual accounts for administrators (NIST 800-53, AC-5, AC-6).
                                            7.b(11). Network devices are not properly authenticated (NIST 800-53, IA-3).
                                            7.b(12). The process for requesting or approving membership in shared privileged accounts is not adequate in
                                            accordance to government policies.
                                            7.b(13). Use of shared privileged accounts is not necessary or justified.
                                            7.b(14). When shared accounts are used, the Agency does not renew shared account credentials when a
                                            member leaves the group.
                                            7.b(15). Other
                                            7.b(15ex). Explanation for Other
                                       7.c. The Agency has not established an identity and access management program.




                                                                                                                                                   Page 64
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                   Appendix IV

8: Continuous Monitoring Management
Status of Continuous Monitoring      X   8.a. The Agency has established an enterprise-wide continuous monitoring program that assesses the security state
Program [check one: 8.a, 8.b, 8.c]       of information systems that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines.
                                         Although improvement opportunities may have been identified by the OIG, the program includes the following
                                         attributes:
                                             8.a(1). Documented policies and procedures for continuous monitoring.
                                             8.a(2). Documented strategy and plans for continuous monitoring.
                                             8.a(3). Ongoing assessments of security controls (system-specific, hybrid, and common) that have been
                                             performed based on the approved continuous monitoring plans.
                                              8.a(4). Provides authorizing officials and other key system officials with security status reports covering
                                              updates to security plans and security assessment reports, as well as POA&M additions and updates with the
                                              frequency defined in the strategy and/or plans.
                                         8.b. The Agency has established an enterprise-wide continuous monitoring program that assesses the security state
                                         of information systems. However, the Agency needs to make significant improvements as noted below.
If 8.b. is checked above, check               8.b(1). Continuous monitoring policy is not fully developed (NIST 800-53: CA-7).
areas that need significant                   8.b(2). Continuous monitoring procedures are not fully developed (NIST 800-53: CA-7).
improvement:                                  8.b(3). Continuous monitoring procedures are not consistently implemented (NIST 800-53: CA-7; 800-37 Rev
                                              1, Appendix G).
                                              8.b(4). Strategy or plan has not been fully developed for enterprise-wide continuous monitoring (NIST 800-37
                                              Rev 1, Appendix G).
                                              8.b(5). Ongoing assessments of security controls (system-specific, hybrid, and common) have not been
                                              performed (NIST 800-53, NIST 800-53A).
                                              8.b(6). The following were not provided to the authorizing official or other key system officials: security
                                              status reports covering continuous monitoring results, updates to security plans, security assessment reports,
                                              and POA&Ms (NIST 800-53, NIST 800-53A).
                                              8.b(7). Other
                                              8.b(7ex). Explanation for Other
                                         8.c. The Agency has not established a continuous monitoring program.




                                                                                                                                                     Page 65
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                      Appendix IV

9: Contingency Planning
Status of Contingency Planning              9.a. The Agency established and is maintaining an enterprise-wide business continuity/disaster recovery program
Program                                     that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines. Although improvement
[check one: 9.a, 9.b, 9.c]                  opportunities may have been identified by the OIG, the program includes the following attributes:
                                                 9.a(1). Documented business continuity and disaster recovery policy providing the authority and guidance
                                                 necessary to reduce the impact of a disruptive event or disaster.
                                                 9.a(2). The agency has performed an overall Business Impact Analysis (BIA).
                                                 9.a(3). Development and documentation of division, component, and IT infrastructure recovery strategies,
                                                 plans and procedures.
                                                 9.a(4). Testing of system specific contingency plans.
                                                 9.a(5). The documented business continuity and disaster recovery plans are in place and can be implemented
                                                 when necessary.
                                                 9.a(6). Development of test, training, and exercise (TT&E) programs.
                                                 9.a(7). Performance of regular ongoing testing or exercising of business continuity/disaster recovery plans to
                                                 determine effectiveness and to maintain current plans.
                                            9.b. The Agency has established and is maintaining an enterprise-wide business continuity/disaster recovery
                                        X   program. However, the Agency needs to make significant improvements as noted below.
If 9.b. is checked above, check areas            9.b(1). Contingency planning policy is not fully developed contingency planning policy is not consistently
that need significant improvement:               implemented (NIST 800-53: CP-1).
                                                 9.b(2). Contingency planning procedures are not fully developed (NIST 800-53: CP-1).
                                                 9.b(3). Contingency planning procedures are not consistently implemented (NIST 800-53; 800-34).
                                                 9.b(4). An overall business impact assessment has not been performed (NIST SP 800-34).
                                                 9.b(5). Development of organization, component, or infrastructure recovery strategies and plans has not been
                                                 accomplished (NIST SP 800-34).
                                                 9.b(6). A business continuity/disaster recovery plan has not been developed (FCD1, NIST SP 800-34).
                                                 9.b(7). A business continuity/disaster recovery plan has been developed but not fully implemented (FCD1,
                                                 NIST SP 800-34).
                                                 9.b(8). System contingency plans missing or incomplete (FCD1, NIST SP 800-34, NIST SP 800-53).
                                        X       Comments - Treasury OIG: TIGTA did not have a new operating system integrated into its contingency
                                                plan, though there were plans to add the information to the contingency plan. (See Finding # 8)
                                                9.b(9). System contingency plans are not tested (FCD1, NIST SP 800-34, NIST SP 800-53).

                                                Comments - Treasury OIG: At FMS, a full recovery and reconstitution of the information system was not
                                        X       completed at the alternate recovery site for a Critical Infrastructure Protection (CIP) and FIPS 199 “high-
                                                impact” system in accordance with FMS policy and NIST SP 800-53 Rev. 3 security controls. The new CIP
                                                system only underwent a tabletop disaster recovery test during the Fiscal Years 2011 and 2010. (See Finding #
                                                8)



                                                                                                                                                        Page 66
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                 Appendix IV

9: Contingency Planning
                                           9.b(10). Test, training, and exercise programs have not been developed (FCD1, NIST SP 800-34, NIST 800-
                                           53).
                                           9.b(11). Test, training, and exercise programs have been developed, but are not fully implemented (FCD1,
                                           NIST SP 800-34, NIST SP 800-53).
                                           9.b(12). After-action report did not address issues identified during contingency/disaster recovery exercises
                                           (FCD1, NIST SP 800-34).
                                           9.b(13). Systems do not have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                                           9.b(14). Alternate processing sites are subject to the same risks as primary sites (FCD1, NIST SP 800-34,
                                           NIST SP 800-53).
                                           9.b(15). Backups of information are not performed in a timely manner (FCD1, NIST SP 800-34, NIST SP
                                           800-53).
                                  X
                                           Comments - Treasury OIG: One DO system did not create system backups regularly. Another DO system
                                           did not backup system configuration information. (See Finding # 8)
                                           9.b(16). Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST SP 800-53).
                                  X         Comments - Treasury OIG: One DO system did not appropriately test backups on tape. TTB did not create
                                            and test backup tapes on a regular basis. (See Finding # 8)
                                            9.b(17). Backups are not properly secured and protected (FCD1, NIST SP 800-34, NIST SP 800-53).
                                            9.b(18). Contingency planning does not consider supply chain threats.
                                            9.b(19). Other
                                            9.b(19ex). Explanation for Other
                                       9.c. The Agency has not established a business continuity/disaster recovery program.




                                                                                                                                                   Page 67
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                   Appendix IV

10: Contractor Systems
Status of Agency Program to         X   10.a. The Agency has established and maintains a program to oversee systems operated on its behalf by contractors
Oversee Contractor Systems [check       or other entities, including Agency systems and services residing in the cloud external to the Agency. Although
one: 10.a, 10.b, 10.c]                  improvement opportunities may have been identified by the OIG, the program includes the following attributes:
                                             10.a(1). Documented policies and procedures for information security oversight of systems operated on the
                                             Agency’s behalf by contractors or other entities, including Agency systems and services residing in public
                                             cloud.
                                             10.a(2). The Agency obtains sufficient assurance that security controls of such systems and services are
                                             effectively implemented and comply with Federal and agency guidelines.
                                             10.a(3). A complete inventory of systems operated on the Agency’s behalf by contractors or other entities,
                                             including Agency systems and services residing in public cloud.
                                             10.a(4). The inventory identifies interfaces between these systems and Agency-operated systems.
                                             10.a(5). The agency requires appropriate agreements (e.g., Memoranda of Understanding (MOUs),
                                             Interconnection Security Agreements, contracts, etc.) for interfaces between these systems and those that it
                                             owns and operates.
                                             10.a(6). The inventory of contractor systems is updated at least annually.
                                             10.a(7). Systems that are owned or operated by contractors or entities, including Agency systems and services
                                             residing in public cloud, are compliant with FISMA requirements, OMB policy, and applicable NIST
                                             guidelines.

                                        Comments - Treasury OIG: The CDFI Fund had a contractor-operated system that was not scanned according to
                                        NIST and FISMA requirements. (See Finding # 7)
                                        10.b. The Agency has established and maintains a program to oversee systems operated on its behalf by
                                        contractors or other entities, including Agency systems and services residing in public cloud. However, the Agency
                                        needs to make significant improvements as noted below.
If 10.b. is checked above, check            10.b(1). Policies to oversee systems operated on the Agency’s behalf by contractors or other entities, including
areas that need significant                 Agency systems and services residing in public cloud, are not fully developed.
improvement:                                10.b(2). Procedures to oversee systems operated on the Agency’s behalf by contractors or other entities,
                                            including Agency systems and services residing in public cloud, are not fully developed.
                                            10.b(3). Procedures to oversee systems operated on the Agency’s behalf by contractors or other entities,
                                            including Agency systems and services residing in public cloud are not consistently implemented.
                                            10.b(4). The inventory of systems owned or operated by contractors or other entities, including Agency
                                            systems and services residing in public cloud, is not complete in accordance with government policies (NIST
                                            800-53: PM-5).
                                            10.b(5). The inventory does not identify interfaces between contractor/entity-operated systems to Agency
                                            owned and operated systems.
                                            10.b(6). The inventory of contractor/entity-operated systems, including interfaces, is not updated at least
                                            annually.




                                                                                                                                                    Page 68
The Department of the Treasury’s Consolidated Response to DHS’s FISMA 2011 Questions for Inspectors General                                  Appendix IV

10: Contractor Systems
                                             10.b(7). Systems owned or operated by contractors and entities are not subject to NIST and OMB’s FISMA
                                             requirements (e.g., security requirements).
                                             10.b(8). Systems owned or operated by contractor's and entities do not meet NIST and OMB’s FISMA
                                             requirements (e.g., security requirements).
                                             10.b(9). Interface agreements (e.g., MOUs) are not properly documented, authorized, or maintained.
                                             10.b(10). Other
                                             10.b(10ex). Explanation for Other:
                                        10.c. The Agency does not have a program to oversee systems operated on its behalf by contractors or other
                                        entities, including Agency systems and services residing in public cloud.

11: Security Capital Planning
Status of Agency Program to             11.a. The Agency has established and maintains a security capital planning and investment program for
Oversee Security Capital Planning   X   information security. Although improvement opportunities may have been identified by the OIG, the program
[check one: 11.a, 11.b, 11.c]           includes the following attributes:
                                             11.a(1). Documented policies and procedures to address information security in the capital planning and
                                             investment control process.
                                             11.a(2). Includes information security requirements as part of the capital planning and investment process.
                                             11.a(3). Establishes a discrete line item for information security in organizational programming and
                                             documentation.
                                             11.a(4). Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required.
                                             11.a(5). Ensures that information security resources are available for expenditure as planned.
                                        11.b. The Agency has established and maintains a capital planning and investment program. However, the Agency
                                        needs to make significant improvements as noted below.
If 11.b. is checked above, check             11.b(1). Capital Planning and Investment Control (CPIC) information security policy is not fully developed.
areas that need significant                  11.b(2). CPIC information security procedures are not fully developed.
improvement:                                 11.b(3). CPIC information security procedures are not consistently implemented.
                                             11.b(4). The Agency does not adequately plan for IT security during the CPIC process (SP 800-65).
                                             11.b(5). The Agency does not include a separate line for information security in appropriate documentation
                                             (NIST 800-53: SA-2).
                                             11.b(6). Exhibits 300/53 or business cases do not adequately address or identify information security costs
                                             (NIST 800-53: PM-3).
                                             11.b(7). The Agency does not provide IT security funding to maintain the security levels identified.
                                             11.b(8). Other
                                             11.b(8ex). Explanation for Other
                                        11.c. The Agency does not have a capital planning and investment program.




                                                                                                                                                    Page 69
Approach to Selection of Subset of Systems                                                      Appendix V

APPENDIX V – APPROACH TO SELECTION OF SUBSET OF SYSTEMS

In Fiscal Year (FY) 2011, KPMG employed a risk-based approach to select a representative subset of
United States Department of the Treasury (Treasury) information systems for the Federal Information
Security Management Act (FISMA) audit. KPMG used the system inventory contained within Treasury’s
Trusted Agent FISMA (TAF) to identify the population and stratified the population by bureau and office
to select a representative subset of non-IRS Treasury applications. KPMG performed procedures
throughout the fieldwork phase to determine the completeness and accuracy of the non-IRS Treasury
inventory of information systems.

As agreed with the Treasury OIG, KPMG selected 15 information systems for the FY 2011 FISMA audit.
KPMG selected the representative subset of non-IRS information systems from TAF on May 11, 2011,
prior to the Treasury’s FISMA year-end on June 30, 2011. This advanced selection allowed us time to
complete planning and prepare for the fieldwork phase, which commenced immediately after Treasury’s
FISMA year-end.

In selecting the subset, we stratified the full population of Treasury major applications and general
support systems by bureau and by Federal Information Processing Standards (FIPS) 199 system impact
level. KPMG used a risk-based approach to select systems out of each stratum. KPMG considered the
following factors to select systems:

   x     Total number of systems per bureau;
   x     Systems at smaller bureaus not historically included in FISMA audits or evaluations;
   x     Number of systems at each bureau with a FIPS system impact level of “High”;
   x     Location of the system;
   x     Whether the system is going to be decommissioned prior to December 31, 2011; and
   x     Whether the system was identified in a previous FISMA audits or evaluations within the past two
         years.

Lastly, the total number of financial systems selected in the representative subset did not exceed the
percentage of systems the financial systems represent in the Treasury inventory of information systems.
KPMG defined financial systems as those information systems designated as “Financial” or “Mixed
Financial” systems in the Treasury’s TAF system.

Based on our analysis of the Treasury inventory of information systems as of May 11, 2011, we noted
Treasury’s inventory included 192 major applications and general support systems. The following table
provides our analysis of the composition of the Treasury’s inventory of major applications and general
support systems.

                                    Total         IRS        Non-IRS   Non-IRS Financial Systems
       Major Applications                   132         51         32                          49
       General Support Systems               60         24           4                         32
       Total                                192         75         36                          81

From the analysis above, we determined that IRS systems comprised 39 percent of the total population of
Major Applications and General Support systems, and Non-IRS systems accounted for 61 percent.
Applying the subset size percentage of 13 percent to the total population of 192 yielded a total subset size




                                                                                                     Page 70
Approach to Selection of Subset of Systems                                                                    Appendix V

of 25 systems. When the IRS to Non-IRS weighting was applied to this total, the resulting sizes for the
IRS and Non-IRS subsets were 10 and 15, respectively.

KPMG considered the ratio of Major Applications and General Support Systems as well as the ratio of
financial to nonfinancial information systems to help determine what systems to select for review.
Considering these ratios, we judgmentally selected a representative subset of information systems for
testing during the 2011 FISMA audit. Based on these factors, KPMG determined the following
composition for the representative subset of Non-IRS Major Applications and General Support Systems
for the FY 2011 FISMA audit:

     Total Selected                                                                                         15
     Total Major Applications                                                                               10
     Total General Support Systems                                                                          5
     Total Systems with a FIPS 199 System Impact Level of “High”                                            4
     Total Systems with a FIPS 199 System Impact Level of “Moderate”                                        11
     Total Systems with a FIPS 199 System Impact Level of “Low”                                             0
     Total Systems Designated as Financial                                                                  7

KPMG further stratified the number of information systems by each bureau to determine the total
percentage of information systems at each Non-IRS bureau, based on the total population of all Non-IRS
information systems. KPMG used this information as a baseline to determine the total number of systems
to select at each bureau or office:

        Bureau           Total Systems         Percentage of Total Non-IRS               Total Number of Non-
                                                       Population                          IRS Systems to be
                                                                                                 Selected
     BEP                        6                               5%                                   1
     BPD                        14                             12%                                  1
     CDFI Fund                  3                              3%                             1 (see note 1)
     DO                         22                             19%                                  3
     FinCEN                     6                               5%                                   1
     FMS                        34                             29%                                  3
     Mint                      10                               8%                                   1
     OCC                         8                              7%                                  1
     OIG                        1                              1%                             0 (see note 2)
     OTS                         8                              7%                                  1
     TIGTA                      2                              2%                         1 (see notes 1 and 2)
     TTB                         3                             2%                             1 (see note 1)
     Total                     117                            100%                                  15
      (Note 1: Using the stratification methodology, we initially did not select a system at these agencies. However,
      using our risk-based methodology, we selected at least one system for each of these bureaus.)
      (Note 2: The OIG guided KPMG to inspect only one OIG information system every year. In FY 2011 TIGTA
      was selected because the OIG was selected in FY2010.)




                                                                                                                    Page 71
The Department of the Treasury FISMA Performance Audit - 2010                              Appendix VIVI

APPENDIX VI – SELECTED SECURITY CONTROL CLASSES AND FAMILIES

Federal Information Security Management Act (FISMA) directs the National Institute of Standards and
Technology (NIST) to develop and issue standards, guidelines, and other publications to assist federal
agencies in defining minimum security requirements for non-national security systems used by agencies.
NIST has developed such standards and guidelines as part of its implementation of FISMA. KPMG based
its security evaluation on the security controls defined within NIST Special Publication (SP) 800-53 Rev.
3, Recommended Security Control for the Federal Information Systems and Organizations. NIST
publications define a framework for protecting the confidentiality, integrity, and availability of federal
information and information systems consisting of three general classes of controls (i.e., management,
operational, and technical).

Tables on the following pages delineate the specific security controls we performed in accordance with
NIST SPSP 800-53. KPMG selected specific test procedures that were applicable to the computing
environment; therefore, not all available security controls within each control family were performed.

Management Controls

Management security controls for information systems focus on the management of risk and the
management of information system security.

KPMG assessed the following management control areas:

    x   Security Assessments and Authorizations (CA)
    x   Planning (PL)
    x   Risk Assessment (RA)

Security Assessments and Authorization:

The organization develops, disseminates, and periodically reviews/updates (i) formal, documented,
security assessment and authorization policies that address purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the security assessment and authorization
policies and associated assessment and authorization controls.

                        Security Controls     Title
                        CA-2                  Security Assessments
                        CA-5                  Plan of Action and Milestone
                        CA-6                  Security Authorization
                        CA-7                  Continuous Monitoring

Planning:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
security planning policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the security planning policy and associated security planning controls.




                                                                                                   Page 72
The Department of the Treasury FISMA Performance Audit - 2010                           Appendix VIVI

                        Procedure           Title
                        PL-2                System Security Plan

Risk Assessment:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented risk
assessment policy that addresses the purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the risk assessment policy and associated risk assessment controls.

                        Procedure           Title
                        RA-2                Security Categorization
                        RA-3                Risk Assessment
                        RA-5                Vulnerability Scanning

Operational Controls

The operational controls address security methods that focus primarily on mechanisms that people
implement and execute (as opposed to systems).

KPMG assessed the following Operational control areas:

   x   Configuration Management (CM)
   x   Contingency Planning (CP)
   x   Media Protection (MP)
   x   Physical and Environmental Protection (PE)
   x   Personnel Security (PS)
   x   System and Information Integrity (SI)

Configuration Management:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
configuration management policy that addresses the purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the configuration management policy and associated
configuration management controls.

                        Procedure           Title
                        CM-2                Baseline Configuration
                        CM-6                Configuration Settings

Contingency Planning:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
contingency planning policy that addresses the purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the configuration management policy and associated
configuration management controls.




                                                                                                Page 73
The Department of the Treasury FISMA Performance Audit - 2010                              Appendix VIVI

                        Procedure             Title
                        CP-2                  Contingency Plan
                        CP-4                  Contingency Plan Testing and
                                              Exercises
                        CP-9                  Information System Backup

Media Protection:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
information system media protection policy that addresses purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the information system media protection
policy and associated system media protection controls.

                        Procedure             Title
                        MP-6                  Media Sanitization and Disposal

Physical and Environmental Protection:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
information system physical and environmental protection policy that addresses purpose, scope, roles,
responsibilities, management commitment, coordination among organizational entities, and compliance
and (ii) formal, documented procedures to facilitate the implementation of the information system
physical and environmental protection policy and associated system physical and environmental
protection controls.

                        Procedure             Title
                        PE-7                  Visitor Control

Personnel Security:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
physical security policy that addresses purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the physical security policy and associated personnel security controls.

                        Procedure             Title
                        PS-4                  Personnel Termination

System and Information Integrity:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
system and information integrity policy that addresses purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of system and information integrity policy and associated
system and information integrity controls.

                        Procedure             Title
                        SI-2                  Flaw Remediation



                                                                                                   Page 74
The Department of the Treasury FISMA Performance Audit - 2010                               Appendix VIVI


Technical Controls

Technical security controls for information systems focus on information systems that primarily control
the implementation and execution of the information system through mechanisms contained in the
hardware, software, or firmware of the system.

KPMG assessed the following Technical control areas:

    x   Access Control (AC)
    x   Audit and Accountability (AU)
    x   Identification and Authentication (IA)
    x   System and Communication Protection (SC)

Access Control:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
access control policy that addresses the purpose, scope, roles, responsibilities, management commitment,
coordination among organizational entities, and compliance and (ii) formal, documented procedures to
facilitate the implementation of the access control policy and associated access controls.

                         Procedure            Title
                         AC-2                 Account Management
                         AC-5                 Separation of Duties

Audit and Accountability:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
audit and accountability policy that addresses the purpose, scope, roles, responsibilities, management
commitment, coordination among organizational entities, and compliance and (ii) formal, documented
procedures to facilitate the implementation of the audit and accountability policy and associated audit and
accountability controls.

                         Procedure            Title
                         AU-2                 Auditable Events
                         AU-12                Audit Generation

Identification and Authentication:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
identification and authentication policy that addresses the purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the identification and authentication policy and
associated identification and authentication controls.




                                                                                                    Page 75
The Department of the Treasury FISMA Performance Audit - 2010                           Appendix VIVI

                        Procedure           Title
                        IA-2                User Identification and
                                            Authentication
                        IA-3                Device Identification and
                                            Authentication

System and Communication Protection:

The organization develops, disseminates, and periodically reviews/updates (i) a formal, documented,
system and communications protection policy that addresses the purpose, scope, roles, responsibilities,
management commitment, coordination among organizational entities, and compliance and (ii) formal,
documented procedures to facilitate the implementation of the system and communications protection
policy and associated system and communications protection controls.

                        Procedure            Title
                        SC-13                Use of Cryptography




                                                                                                Page 76
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                          Appendix VII

APPENDIX VII – SUMMARY OF OTHER IT FINDINGS FROM TREASURY FINANCIAL STATEMENT AUDITS
Treasury Management will provide responses to the security weakness noted below in a separate report as part of the financial statement audit.
 NIST 800-53
                                   Condition                                                           Recommendation
Control Family

                   FMS has granted user accounts with             We recommend that FMS Management continue to execute their planned corrective action
                   excessive access to systems that support the   steps to fully address the following recommendations:
                   payment functions of FMS, and thus did not     1.   Complete efforts to update the FMS security software to reflect the FMS
                   adhere to the FMS and Department of                 organizational structure.
                   Treasury principles of least privileges.       2.   As part of the redesign effort, update configuration management documentation
                   Specifically, configuration weaknesses              detailing the design, technical configurations, and basic settings for restricting access
                   permitted updates to payment and system             to payment and system resources.
                   program files. While we observed               3.   Provide training to security management to properly perform recertification
                   improvements and further restrictions of            procedures, including examining access to mainframe security profiles and access to
Access Control                                                         data files.
                   access from 2010 to 2011, further work is
                                                                  4.   Develop tools and automated reports to further assist security management to evaluate
                   necessary to properly secure payment files,         access to their application and application files.
                   control batch job submissions, and improve     5.   Simplify the FMS security software’s access control settings such that security
                   the user account recertification process.           management can readily determine who has excessive access to files either directly or
                                                                       indirectly.
                                                                  6.   Implement recently revised Recertification Procedures for users, system accounts, and
                                                                       system programs. Confirm that the revised recertification procedures include steps to
                                                                       identify appropriate files and the responsible party for reviewing access.
                                                                  7.   Review and restrict excessive access to system files to only those user accounts with a
                                                                       justifiable business need.


                   FMS has not consistently documented their      We recommend that FMS Management:
                   baseline configurations for FMS                1. Adhere to FMS baseline configuration standards by documenting all software that is
                   applications that support payment                 approved by FMS for use on the FMS systems supporting payment functions.
                   management functions. Specifically, FMS        2. Implement an automated mechanism to enter and track baseline configurations of FMS
 Configuration
                   has not implemented monitoring procedures         mainframe that support payment applications and notify FMS Management when
 Management
                   and automated controls over software              changes to the baseline configurations occur.
                   changes to FMS’s mainframe to confirm
                   that all changes made to system software
                   are appropriate and approved.



                                                                                                                                                           Page 77
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                        Appendix VII

 NIST 800-53
                                   Condition                                                          Recommendation
Control Family

                  FMS has not consistently enforced the            We recommend FMS Management:
                  principles of least privilege to protect
                                                                   1. Establish and implement criteria for performing bi-annual revies of access to the Data
                  critical resources in an FMS data center and        Center and the IT Command Center. The criteria should be based on documented
                  system command center in accordance with            business needs, frequency of use, and the principle of least privilege.
                  FMS’s least privilege policy. Specifically,      2. Establish and implement a process that records the business need for granting
  Physical and    eight of 71 individuals with full-time access       permanent or temporary access to the Data Center or IT Command Center. Records
 Environmental    to the data center and command center did           should show the manager who approved the requested access, the Physical Security
   Protection     not have appropriate business needs based           Specialist (or designee) providing the access, and the cardholder that was granted
                  on the roles and responsibilities required for      access. The Physical Security Specialist and direct supervisor should revier these
                                                                      records regularly to confirm that the documented business needs remain valid based on
                  their job descriptions. Physical security
                                                                      the individual’s frequency of use and assigned roles and responsibilities.
                  management identified that these job
                  descriptions did not require access to the
                  data center on a daily basis.
                                                                   We recommend that FMS management:
                  FMS granted UserIDs of FMS systems that          1. Build a Separation of Duties (SoD) matrix that reflects FMS / Fiscal IT “principles” for
                  support payment functions indirect access to        computer operations. This SoD matrix will also drive the development and
                  sensitive files. This is due to an overly           rearchitecture of mainframe security profiles, which will reflect the SoD matrix.
                  complicated configuration that allows many       2. Document and implement an additional check in the system account recertification
                  UserIDs to perform jobs underneath another          process to include a review of system account permissions to ensure system accounts
                  UserID without knowing the other UserIDs            are obtaining rights in accordance with least privileges.
                                                                   3. Train security management to perform a thorough analysis in the recertification
                  password..
                                                                      process to include reviewing authorizations that allow system accounts to obtain rights
                                                                      in accordance with least privileges.
 Access Control                                                    4. Review all programs that possess bypassing attributes. Where bypassing attributes
                                                                      exists, apply explicit restrictions to specific data files.
                                                                   5. Restrict system account’s ability to update production code and source code libraries
                                                                      where feasible.
                                                                   6. Restrict system programmer’s excessive access to production source code libraries and
                                                                      data files.
                                                                   7. Reviewing system accounts and confirming they perform either one of two functions –
                                                                      a) they are application related and only update application files or b) they are system
                                                                      related and perform system functions.
                                                                   8. Restrict access to production to the change management utility or Change Management


                                                                                                                                                        Page 78
Summary of Other IT Findings from Treasury Financial Statement Audits                                                                    Appendix VII

 NIST 800-53
                                  Condition                                                        Recommendation
Control Family
                                                                      staff.

                  FMS has not consistently enforced the           We recommend FMS Management:
                  principles of segregation of duties and least   1. Document and implement a recertification process to review each account group and
                  privilege to protect critical resources used       confirm that user accounts within each group do not have excessive access to source
                  by FMS applications that support payment           code in both development and production environments without a justified business
                  functions in accordance with FMS                   need.
                  separation of duties standards. Specifically,   2. Remove inappropriate user access to development and production environments for
                  74 users had write access to source code in        users without a justified business need.
 Configuration                                                    3. Provide training to security management to properly perform system recertification
                  both Production and Development
 Management                                                          procedures including examining access to account groups and evaluating whether user
                  environments, which is in violation of FMS
                                                                     accounts have access to both development and production files.
                  separation of duties principle. FMS
                  management indicated that during their
                  recertification process, they do not check
                  whether user accounts had write access to
                  both development and production
                  environments.




                                                                                                                                                   Page 79
List of Acronyms                                                      Appendix VIII

APPENDIX VIII – LIST OF ACRONYMS

       Acronym                                        Definition
AC                 Access Control
ACIOCS             Associate CIO for Cyber Security
AU                 Audit and Accountability
BEP                Bureau of Engraving and Printing
BLSR               Baseline Security Requirements
BPD                Bureau of the Public Debt
CA                 Security Assessment and Authorization
CDFI Fund          Community Development Financial Institution Fund
CIO                Chief Information Officer
CIP                Critical Infrastructure Protection
CISO               Chief Information Security Officer
CM                 Configuration Management
CP                 Contingency Planning
CPIC               Capital Planning and Investment Control
CSS                Cyber Security Sub-Council
DHS                Department of Homeland Security
DNSSEC             Domain Name Service Security Extensions
DO                 Departmental Offices
FDCC               Federal Desktop Core Configuration
FinCEN             Financial Crimes Enforcement Network
FIPS               Federal Information Processing Standards
FISMA              Federal Information Security Management Act
FMS                Financial Management Service
FY                 Fiscal Year
GAGAS              Generally Accepted Government Auditing Standards
GAO                Government Accountability Office
IA                 Identification and Authentication
IG                 Inspector General
IR                 Incident Response
IRS                Internal Revenue Service
ISSO               Information System Security Officer
IT                 Information Technology
KPMG               KPMG LLP
LAN                Local Area Network
Mint               United States Mint
MOU                Memorandum of Understanding
MP                 Media Protection
NIST               National Institute of Standards and Technology



                                                                            Page 80
List of Acronyms                                                                 Appendix VIII

      Acronym                                       Definition
OCC                Office of the Comptroller of the Currency
OCIO               Office of the Chief Information Officer
OIG                Office of Inspector General
OMB                Office of Management and Budget
OTS                Office of Thrift Supervision
PE                 Physical and Environmental Protection
PL                 Planning
POA&M              Plan of Action and Milestones
PS                 Personnel Security
RA                 Risk Assessment
SC                 System and Communication Protection
SI                 System and Information Integrity
SIGTARP            Special Inspector General for Troubled Asset Relief Program
SP                 Special Publication
SSP                System Security Plan
TAF                Trusted Agent FISMA
TARP               Troubled Asset Relief Program
TCSIRC             Treasury Computer Security Incident Response Capability
TD                 Treasury Directive
TD P               Treasury Directive Publication
TIGTA              Treasury Inspector General for Tax Administration
TTB                Alcohol and Tobacco Tax and Trade Bureau
US                 United States
US-CERT            United States Computer Emergency Readiness Team




                                                                                       Page 81
    THIS PAGE INTENTIONALLY LEFT BLANK

            ATTACHMENT 2

    Treasury Inspector General for Tax
 Administration–Federal Information Security
Management Act Report for Fiscal Year 2011,
           (Audit # 2011-20-116),
             September 20, 2011
    THIS PAGE INTENTIONALLY LEFT BLANK

TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2011



                                        September 20, 2011

                              Reference Number: 2011-20-116




  This report remains the property of the Treasury Inspector General for Tax Administration (TIGTA) and
   may not be disseminated beyond the Internal Revenue Service without the permission of the TIGTA.
       This report may contain confidential return information protected from disclosure pursuant to
   I.R.C. § 6103(a). Such information may be disclosed only to Department of the Treasury employees
     who have a need to know this information in connection with their official tax administration duties.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                                         DEPARTMENT OF THE TREASURY

                                                                              WASHINGTON, D.C. 20220




        TREASURY INSPECTOR GENERAL
          FOR TAX ADMINISTRATION




                                                                       September 20, 2011


            MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR AUDIT
                           OFFICE OF THE INSPECTOR GENERAL
                           DEPARTMENT OF THE TREASURY

            FROM:                               Michael R. Phillips
                                                Deputy Inspector General for Audit

            SUBJECT:                            Treasury Inspector General for Tax Administration – Federal
                                                Information Security Management Act Report for Fiscal Year 2011
                                                (Audit # 201120006)

            We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
            Information Security Management Act (FISMA)1 report for the Fiscal Year 2011 evaluation
            period.2 The FISMA requires the Offices of Inspector General to perform an annual independent
            evaluation of each Federal agency’s information security program and practices. This report
            reflects our independent evaluation of the Internal Revenue Service’s (IRS) information security
            program for the period under review.
            We based our evaluation of the IRS on the Department of Homeland Security’s (DHS) Fiscal
            Year 2011 Inspector General FISMA Reporting guidelines, issued June 1, 2011. During the
            Fiscal Year 2011 FISMA evaluation period, we conducted 14 audits, as shown in Appendix I, to
            evaluate the adequacy of information security in the IRS. We considered the results of these
            audits in our evaluation. In addition, we evaluated a representative sample of 10 major IRS
            information systems for our FISMA work. For each system in the sample, we assessed the
            quality of the security assessment and authorization process, the annual testing of controls for
            continuous monitoring, the testing of information technology contingency plans, and the quality
            of the plan of action and milestones process. We also conducted tests to evaluate processes over
            configuration management, incident response and reporting, security training, remote access


            1
             44 U.S.C. Sections 3541–3549.
            2
             The FISMA evaluation period for the Department of the Treasury is July 1, 2010, through June 30, 2011. All
            subsequent references to 2011 refer to the FISMA evaluation period.
                    Initiator        Proofreader            Reviewer       Reviewer    Reviewer   Reviewer   Reviewer             Reviewer

Office Symbols
                 IG:A:SITS          IG:A:SITS          IG:A:SITS          IG:A:SITS     IG:A
   Surname
                  Kitazono           Duncan             Sagara              Seeba     Stephens
     Date
                   9/9/11            9/12/11            9/9/2011           9/12/11    9/20/11
Form 1937-A (TIGTA) Correspondence Approval and Clearance                                                               Department of the Treasury
                                 Treasury Inspector General for Tax
                             Administration – Federal Information Security
                             Management Act Report for Fiscal Year 2011


management, identity and access management, contractor systems, and security architecture and
capital planning. Major contributors to this report are listed in Appendix II.
Based on our Fiscal Year 2011 FISMA evaluation, we determined that the IRS’s information
security program is in place and generally compliant with the FISMA legislation, but
improvements are needed. We determined that the following program areas met the level of
performance specified by the DHS’s 2011 FISMA checklist.
   x   Risk management.
   x   Incident response and reporting.
   x   Remote access management.
   x   Continuous monitoring management.
   x   Contingency planning.
   x   Contractor systems.
   x   Security capital planning.
We determined the following program areas were not fully effective as a result of the conditions
identified that need improvement.
   x   Configuration management.
   x   Security training.
   x   Plans of action and milestones.
   x   Identity and access management.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Alan R. Duncan, Assistant
Inspector General for Audit (Security and Information Technology Services), at (202) 622-5894.




                                                                                                2
                                         Treasury Inspector General for Tax
                                     Administration – Federal Information Security
                                     Management Act Report for Fiscal Year 2011




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2

Appendices
          Appendix I – Treasury Inspector General for Tax Administration
          Information Technology Security Reports Issued During the
          Fiscal Year 2011 Evaluation Period ............................................................. Page 20
          Appendix II – Major Contributors to This Report ........................................ Page 22
          Appendix III – Report Distribution List ....................................................... Page 23
              Treasury Inspector General for Tax
          Administration – Federal Information Security
          Management Act Report for Fiscal Year 2011




                 Abbreviations

DHS        Department of Homeland Security
FCD1       Federal Continuity Directive 1
FDCC       Federal Desktop Core Configuration
FISMA      Federal Information System Management Act
GAO        Government Accountability Office
IRS        Internal Revenue Service
NIST       National Institute of Standards and Technology
OIG        Office of the Inspector General
OMB        Office of Management and Budget
POA&M      Plan of Action and Milestones
TIGTA      Treasury Inspector General for Tax Administration
US-CERT    United States Computer Emergency Response Team
USGCB      United States Government Configuration Baseline
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




                                        Background

The Internal Revenue Service (IRS) collects and maintains a significant amount of personal and
financial information on each taxpayer. The IRS also relies extensively on computerized
systems to support its responsibilities in collecting taxes, processing tax returns, and enforcing
the Federal tax laws. As custodians of taxpayer information, the IRS has an obligation to protect
the confidentiality of this sensitive information against unauthorized access or loss. Otherwise,
taxpayers could be exposed to invasion of privacy and financial loss or damage from identity
theft or other financial crimes.
The Federal Information Security Management Act (FISMA)1 was enacted to strengthen the
security of information and systems within Federal agencies. Under the FISMA, agency heads
are responsible for providing information security protections commensurate with the risk and
magnitude of harm resulting from the unauthorized access, use, disclosure, disruption,
modification, or destruction of information and information systems. Agency heads are also
responsible for complying with the requirements of the FISMA, related Office of Management
and Budget (OMB) policies, and National Institute of Standards and Technology (NIST)
procedures, standards, and guidelines.
As part of this legislation, each Federal Government agency is required to report annually to the
OMB on the adequacy and effectiveness of its information security program and practices and
compliance with the FISMA. In addition, the FISMA requires the agencies to have an annual
independent evaluation of their information security programs and practices performed by the
agency Inspector General or an independent external auditor as determined by the Inspector
General. The OMB uses the information from the agencies and independent evaluations in its
FISMA oversight capacity to assess agency-specific and Federal Government-wide security
performance, develop its annual security report to Congress, and assist in improving and
maintaining adequate agency security performance. For the Fiscal Year 2011 FISMA
evaluation, the Department of Homeland Security (DHS) issued the information security
performance measures by which each agency was evaluated.
In compliance with the FISMA requirements, the Treasury Inspector General for Tax
Administration (TIGTA) performs the annual independent evaluation of the information security
program and practices of the IRS. Attached is the TIGTA’s Fiscal Year 2011 FISMA report.
The report was forwarded to the Treasury Inspector General for consolidation into a report issued
to the Department of the Treasury Chief Information Officer.



1
    44 U.S.C. Sections 3541–3549.
                                                                                           Page 1
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011




                                       Results of Review

The DHS issued a checklist2 for use by Offices of Inspectors General to assess the level of
performance achieved by agencies in the specified program areas during the Fiscal Year 2011
FISMA evaluation period.3 This report presents our completed DHS checklist for the IRS.
We determined the level of performance (a, b, or c) that the IRS had achieved for each of the
program areas listed. As defined by the DHS, agencies achieve an “a” status for the program
area if they have met all the attributes specified by DHS in the “a” section. Agencies achieve a
“b” status if they have established the program area, but significant improvements were needed
in regards to certain conditions specified by the DHS. The DHS listed the conditions in the “b”
section that, if in need of significant improvement, would prevent agencies from achieving an
“a” status. Agencies achieve a “c” status if they have not yet established the program area.
We checked IRS program areas as an “a” status where we determined that the IRS met all the
program attributes specified by the DHS. We checked IRS program areas as a “b” status where
we determined that one or more conditions listed by the DHS needed significant improvement at
the IRS. Due to time and resource constraints, we were unable to test all conditions listed by the
DHS in the “b” sections. Therefore, it is possible that more of these conditions exist at the IRS
than those we have checked. We did not check any program areas as a “c” status because the
IRS has established all program areas listed by the DHS.
For our FISMA work, we evaluated a representative sample of 10 major IRS information
systems, which included 9 IRS systems and 1 contractor-managed system. Of these 10 systems,
1 system had a Federal Information Processing Standards 199 impact level of high, and
9 systems were of a moderate impact level. All 10 systems had a current security assessment and
authorization, had security controls tested within the past year, and had contingency plans tested
in accordance with policy. Of the 10 IRS systems the TIGTA selected for the Fiscal Year 2011
FISMA evaluation, 4 systems completed the security assessment and authorization process, and
6 systems completed annual testing of selected controls during the Fiscal Year 2011 FISMA
evaluation period.




2
  Due to the nature of the list that follows, many abbreviations are used exactly as presented in the original document
reproduced and are not defined therein. However, please see the Abbreviations page after the Table of Contents of
this report for a list of abbreviations that we have defined.
3
  The FISMA evaluation period for the Department of the Treasury is July 1, 2010, through June 30, 2011. All
subsequent references to 2011 refer to the FISMA evaluation period.
                                                                                                              Page 2
                              Treasury Inspector General for Tax
                          Administration – Federal Information Security
                          Management Act Report for Fiscal Year 2011



                          RESPONSES TO FISCAL YEAR 2011
                     DHS QUESTIONS FOR INSPECTOR GENERALS
1: Risk Management
Status of Risk         9 1.a. The Agency has established and is maintaining a risk management program
Management Program         that is consistent with FISMA requirements, OMB policy, and applicable NIST
[check one]                guidelines. Although improvement opportunities may have been identified by the
                           Office of the Inspector General (OIG), the program includes the following
                           attributes:
                               1.a(1). Documented and centrally accessible policies and procedures for risk
                               management, including descriptions of the roles and responsibilities of
                               participants in this process.
                               1.a(2). Addresses risk from an organization perspective with the development
                               of a comprehensive governance structure and organization-wide risk
                               management strategy as described in NIST 800-37, Rev. 1.
                               1.a(3). Addresses risk from a mission and business process perspective and is
                               guided by the risk decisions at the organizational perspective, as described in
                               NIST 800-37, Rev. 1.
                               1.a(4). Addresses risk from an information system perspective and is guided
                               by the risk decisions at the organizational perspective and the mission and
                               business perspective, as described in NIST 800-37, Rev. 1.
                               1.a(5). Categorizes information systems in accordance with government
                               policies.
                               1.a(6). Selects an appropriately tailored set of baseline security controls.
                               1.a(7). Implements the tailored set of baseline security controls and describes
                               how the controls are employed within the information system and its
                               environment of operation.
                               1.a(8). Assesses the security controls using appropriate assessment procedures
                               to determine the extent to which the controls are implemented correctly,
                               operating as intended, and producing the desired outcome with respect to
                               meeting the security requirements for the system.
                               1.a(9). Authorizes information system operation based on a determination of
                               the risk to organizational operations and assets, individuals, other
                               organizations, and the Nation resulting from the operation of the information
                               system and the decision that this risk is acceptable.
                               1.a(10). Ensures information security controls are monitored on an ongoing
                               basis including assessing control effectiveness.
                               1.a(11). Information system specific risks (tactical), mission/business specific
                               risks, and organizational level (strategic) risks are communicated to
                               appropriate levels of the organization.
                               1.a(12). Senior officials are briefed on threat activity on a regular basis by


                                                                                                         Page 3
                                Treasury Inspector General for Tax
                            Administration – Federal Information Security
                            Management Act Report for Fiscal Year 2011


                                appropriate personnel. (e.g., Chief Information Security Officer (CISO)).
                                1.a(13). Prescribes the active involvement of information system owners and
                                common control providers, chief information officers, senior information
                                security officers, authorizing officials, and other roles as applicable in the
                                ongoing management of information system-related security risks.
                                 1.a(14). Security authorization package contains system security plan, security
                                 assessment report, and Plans of Action and Milestones (POA&M) in
                                 accordance with government policies.
                            1.b. The Agency has established and is maintaining a risk management program.
                            However, the Agency needs to make significant improvements as noted below.
If 1.b. is checked above,       1.b(1). Risk management policy is not fully developed.
check areas that need
significant improvement:        1.b(2). Risk management procedures are not fully developed, sufficiently
                                detailed (SP 800-37, SP 800-39, SP 800-53).
                                1.b(3). Risk management procedures are not consistently implemented in
                                accordance with government policies (SP 800-37, SP 800-39, SP 800-53).
                                1.b(4). A comprehensive governance structure and Agency-wide risk
                                management strategy has not been fully developed in accordance with
                                government policies (SP 800-37, SP 800-39, SP 800-53).
                                1.b(5). Risks from a mission and business process perspective are not
                                addressed (SP 800-37, SP 800-39, SP 800-53).
                                1.b(6). Information systems are not properly categorized (FIPS 199/
                                SP 800-60).
                                1.b(7). Appropriately tailored baseline security controls are not applied to
                                information systems in accordance with government policies (FIPS 200/
                                SP 800-53).
                                1.b(8). Risk assessments are not conducted in accordance with government
                                policies (SP 800-30).
                                1.b(9). Security control baselines are not appropriately tailored to individual
                                information systems in accordance with government policies (SP 800-53).
                                1.b(10). The communication of information system specific risks,
                                mission/business specific risks, and organizational level (strategic) risks to
                                appropriate levels of the organization is not in accordance with government
                                policies.
                                1.b(11). The process to assess security control effectiveness is not in
                                accordance with government policies (SP800-53A).
                                1.b(12). The process to determine risk to agency operations, agency assets, or
                                individuals, or to authorize information systems to operate is not in
                                accordance with government policies (SP 800-37).
                                1.b(13). The process to continuously monitor changes to information systems
                                that may necessitate reassessment of control effectiveness is not in accordance
                                with government policies (SP 800-37).
                                1.b(14). Security plan is not in accordance with government policies
                                (SP 800-18, SP 800-37).
                                1.b(15). Security assessment report is not in accordance with government
                                policies (SP 800-53A, SP 800-37).
                                1.b(16). Accreditation boundaries for agency information systems are not
                                defined in accordance with government policies.

                                                                                                       Page 4
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011



                                    1.b(17). Other
                                    1.b(17ex). Explanation for Other
                                1.c. The Agency has not established a risk management program.
Comments:

2: Configuration Management
Status of Configuration         2.a. The Agency has established and is maintaining a security configuration
Management Program              management program that is consistent with FISMA requirements, OMB policy,
[check one]                     and applicable NIST guidelines. Although improvement opportunities may have
                                been identified by the OIG, the program includes the following attributes:
                                    2.a(1). Documented policies and procedures for configuration management.
                                    2.a(2). Standard baseline configurations defined.
                                    2.a(3). Assessing for compliance with baseline configurations.
                                    2.a(4). Process for timely, as specified in agency policy or standards,
                                    remediation of scan result deviations.
                                    2.a(5). For Windows-based components, Federal Desktop Core Configuration
                                    (FDCC)/United States Government Configuration Baseline (USGCB) secure
                                    configuration settings fully implemented and any deviations from
                                    FDCC/USGCB baseline settings fully documented.
                                    2.a(6). Documented proposed or actual changes to hardware and software
                                    configurations.
                                     2.a(7). Process for timely and secure installation of software patches.
                                2.b. The Agency has established and is maintaining a security configuration
                            9   management program. However, the Agency needs to make significant
                                improvements as noted below.
If 2.b. is checked above,            2.b(1). Configuration management policy is not fully developed
check areas that need                (NIST 800-53: CM-1)
significant improvement:             2.b(2). Configuration management procedures are not fully developed
                                     (NIST 800-53: CM-1).
                            9        2.b(3). Configuration management procedures are not consistently
                                     implemented (NIST 800-53: CM-1).
                                     2.b(4). Standard baseline configurations are not identified for software
                                     components (NIST 800-53: CM-2).
                                     2.b(5). Standard baseline configurations are not identified for all hardware
                                     components (NIST 800-53: CM-2).
                            9        2.b(6). Standard baseline configurations are not fully implemented
                                     (NIST 800-53: CM-2).
                                     2.b(7). FDCC/USGCB is not fully implemented (OMB) and/or all deviations
                                     are not fully documented (NIST 800-53: CM-6).
                            9        2.b(8). Software assessing (scanning) capabilities are not fully implemented
                                     (NIST 800-53: RA-5, SI-2).


                                                                                                              Page 5
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011


                                      2.b(9). Configuration-related vulnerabilities, including scan findings, have not
                            9         been remediated in a timely manner, as specified in agency policy or
                                      standards (NIST 800-53: CM-4, CM-6, RA-5, SI-2).
                            9         2.b(10). Patch management process is not fully developed, as specified in
                                      agency policy or standards (NIST 800-53: CM-3, SI-2).
                                      2.b(11). Other

                                      2.b(11ex). Explanation for Other
                                   2.c. The Agency has not established a security configuration management
                                   program.
Comments: In March 2011, the Government Accountability Office (GAO) reported4 that the IRS had newly
identified and unresolved weaknesses related to access controls, configuration management, and segregation of
duties that continue to jeopardize the confidentiality, integrity, and availability of the financial and sensitive
taxpayer information processed by the IRS’s systems. Considered collectively, these weaknesses were the basis for
GAO’s determination that the IRS had a material weakness in internal control over its financial reporting related to
information security in Fiscal Year 2010. In May 2011, the TIGTA reported5 that nonmainframe databases
containing taxpayer data were not always configured in a secure manner and were running out-of-date software that
no longer received security patches and other vendor support. In addition, the TIGTA reported that the IRS had not
fully implemented its plans to complete vulnerability scans of databases within its enterprise. Further, the IRS has
been unable to establish an enterprise-wide process for timely remediation of weaknesses reported by vulnerabilities
scans because of the limited information it gets from the scan results. To correct configuration management
deficiencies, the IRS is in the process of implementing an Enterprise Configuration Management System, with
planning dates through Fiscal Year 2014, that will provide oversight and enforcement of configuration and change
management processes.

3: Incident Response and Reporting
Status of Incident          9 3.a. The Agency has established and is maintaining an incident response and
Response & Reporting             reporting program that is consistent with FISMA requirements, OMB policy, and
Program [check one]              applicable NIST guidelines. Although improvement opportunities may have been
                                 identified by the OIG, the program includes the following attributes:
                                      3.a(1). Documented policies and procedures for detecting, responding to, and
                                      reporting incidents.
                                      3.a(2). Comprehensive analysis, validation, and documentation of incidents.
                                      3.a(3). When applicable, reports to United States Computer Emergency
                                      Response Team (US-CERT) within established timeframes.
                                      3.a(4). When applicable, reports to law enforcement within established
                                      timeframes.
                                      3.a(5). Responds to and resolves incidents in a timely manner, as specified in



4
  INFORMATION SECURITY: IRS Needs to Enhance Internal Control over Financial Reporting and Taxpayer
Data (GAO-11-308, dated March 2011).
5
  Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are Protected (Reference
Number 2011-20-044, dated May 4, 2011).
                                                                                                              Page 6
                                Treasury Inspector General for Tax
                            Administration – Federal Information Security
                            Management Act Report for Fiscal Year 2011


                                agency policy or standards, to minimize further damage.
                                3.a(6). Is capable of tracking and managing risks in a virtual/cloud
                                environment, if applicable.
                                3.a(7). Is capable of correlating incidents.

                            3.b. The Agency has established and is maintaining an incident response and
                            reporting program. However, the Agency needs to make significant improvements
                            as noted below.
If 3.b. is checked above,        3.b(1). Incident response and reporting policy is not fully developed
check areas that need            (NIST 800-53: IR-1).
significant improvement:         3.b(2). Incident response and reporting procedures are not fully developed or
                                 sufficiently detailed (NIST 800-53: IR-1).
                                 3.b(3). Incident response and reporting procedures are not consistently
                                 implemented in accordance with government policies (NIST 800-61, Rev 1).
                                 3.b(4). Incidents were not identified in a timely manner, as specified in
                                 agency policy or standards (NIST 800-53, 800-61 and
                                 OMB M-07-16, M-06-19).
                                 3.b(5). Incidents were not reported to the US-CERT as required
                                 (NIST 800-53, 800-61 and OMB M-07-16, M-06-19).
                                 3.b(6). Incidents were not reported to law enforcement as required
                                 (SP 800-86).
                                 3.b(7). Incidents were not resolved in a timely manner (NIST 800-53, 800-61
                                 and OMB M-07-16, M-06-19).
                                 3.b(8). Incidents were not resolved to minimize further damage
                                 (NIST 800-53, 800-61 and OMB M-07-16, M-06-19).
                                 3.b(9). There is insufficient incident monitoring and detection coverage in
                                 accordance with government policies (NIST 800-53, 800-61 and
                                 OMB M-07-16, M-06-19).
                                 3.b(10). The agency cannot or is not prepared to track and manage incidents
                                 in a virtual/cloud environment.
                                 3.b(11). The agency does not have the technical capability to correlate
                                 incident events.
                                3.b(12). Other

                                3.b(12ex). Explanation for Other

                            3.c. The Agency has not established an incident response and reporting program.
Comments:




                                                                                                       Page 7
                                   Treasury Inspector General for Tax
                               Administration – Federal Information Security
                               Management Act Report for Fiscal Year 2011




4: Security Training
Status of Security            4.a. The Agency has established and is maintaining a security training program that
Training Program              is consistent with FISMA requirements, OMB policy, and applicable NIST
[check one]                   guidelines. Although improvement opportunities may have been identified by the
                              OIG, the program includes the following attributes:
                                  4.a(1). Documented policies and procedures for security awareness training.
                                  4.a(2). Documented policies and procedures for specialized training for users
                                  with significant information security responsibilities.
                                  4.a(3). Security training content based on the organization and roles, as
                                  specified in agency policy or standards.
                                  4.a(4). Identification and tracking of the status of security awareness training for
                                  all personnel (including employees, contractors, and other agency users) with
                                  access privileges that require security awareness training.
                                   4.a(5). Identification and tracking of the status of specialized training for all
                                   personnel (including employees, contractors, and other agency users) with
                                   significant information security responsibilities that require specialized training.
                          9   4.b. The Agency has established and is maintaining a security training program.
                              However, the Agency needs to make significant improvements as noted below.
If 4.b. is checked                 4.b(1). Security awareness training policy is not fully developed (NIST 800-53:
above, check areas that            AT-1).
need significant                   4.b(2). Security awareness training procedures are not fully developed and
improvement:                       sufficiently detailed (NIST 800-53: AT-1).
                                   4.b(3). Security awareness training procedures are not consistently implemented
                                   in accordance with government policies (NIST 800-53: AT-2).
                                   4.b(4). Specialized security training policy is not fully developed (NIST 800-53:
                                   AT-3).
                                   4.b(5). Specialized security training procedures are not fully developed or
                                   sufficiently detailed in accordance with government policies (SP 800-50,
                                   SP 800-53).
                                   4.b(6). Training material for security awareness training does not contain
                                   appropriate content for the Agency (SP 800-50, SP 800-53).
                                   4.b(7). Identification and tracking of the status of security awareness training for
                                   personnel (including employees, contractors, and other agency users) with
                                   access privileges that require security awareness training is not adequate in
                                   accordance with government policies (SP 800-50, SP 800-53).
                                   4.b(8). Identification and tracking of the status of specialized training for
                          9        personnel (including employees, contractors, and other agency users) with
                                   significant information security responsibilities is not adequate in accordance
                                   with government policies (SP 800-50, SP 800-53).
                                   4.b(9). Training content for individuals with significant information security
                                   responsibilities is not adequate in accordance with government policies
                                   (SP 800-53, SP 800-16).
                                   4.b(10). Less than 90% of personnel (including employees, contractors, and
                                   other agency users) with access privileges completed security awareness

                                                                                                              Page 8
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011


                                    training in the past year.
                                    4.b(11). Less than 90% of employees, contractors, and other users with
                                    significant security responsibilities completed specialized security awareness
                                    training in the past year.
                                    4.b(12). Other

                                    4.b(12ex). Explanation for Other
                                4.c. The Agency has not established a security training program.

Comments: In June 2011, the TIGTA reported6 that the IRS was unable to track whether employees with disaster
recovery roles attend required annual disaster recovery training. The IRS plans to develop a process for identifying
and tracking the completion of training for employees with disaster recovery roles by December 31, 2011. In
addition, the IRS did not identify or track contractors that require specialized training for the Fiscal Year 2011
FISMA year, but plans to begin collecting and tracking information on contractor completion of specialized training
for the Fiscal Year 2012 FISMA year. Contractors will self identify and report the completion of specialized
training where required and provide these data to the IRS.

5: POA&M
Status of Plan of Action          5.a. The Agency has established and is maintaining a POA&M program that is
& Milestones (POA&M)              consistent with FISMA requirements, OMB policy, and applicable NIST
Program [check one]               guidelines, and tracks and monitors known information security weaknesses.
                                  Although improvement opportunities may have been identified by the OIG, the
                                  program includes the following attributes:
                                      5.a(1). Documented policies and procedures for managing information
                                      technology security weaknesses discovered during security control
                                      assessments and requiring remediation.
                                      5.a(2). Tracks, prioritizes, and remediates weaknesses.
                                      5.a(3). Ensures remediation plans are effective for correcting weaknesses.
                                      5.a(4). Establishes and adheres to milestone remediation dates.
                                      5.a(5). Ensures resources are provided for correcting weaknesses.
                                       5.a(6). Program officials and contractors report progress on remediation to the
                                       Chief Information Officer on a regular basis, at least quarterly, and the Chief
                                       Information Officer centrally tracks, maintains, and independently
                                       reviews/validates the POA&M activities at least quarterly.
                                  5.b. The Agency has established and is maintaining a POA&M program that tracks
                            9     and remediates known information security weaknesses. However, the Agency
                                  needs to make significant improvements as noted below.
If 5.b. is checked above,             5.b(1). POA&M Policy is not fully developed.
check areas that need
significant improvement:              5.b(2). POA&M procedures are not fully developed and sufficiently detailed.


6
 Corrective Actions to Address the Disaster Recovery Material Weakness Are Being Completed (Reference
Number 2011-20-060, dated June 27, 2011).
                                                                                                             Page 9
                                   Treasury Inspector General for Tax
                               Administration – Federal Information Security
                               Management Act Report for Fiscal Year 2011


                                    5.b(3). POA&M procedures are not consistently implemented in accordance
                                    with government policies.
                                    5.b(4). POA&Ms do not include security weaknesses discovered during
                                    assessments of security controls and requiring remediation (OMB M-04-25).
                                    5.b(5). Remediation actions do not sufficiently address weaknesses in
                                    accordance with government policies (NIST SP 800-53, Rev. 3, Sect. 3.4
                                    Monitoring Security Controls).
                                    5.b(6). Source of security weaknesses are not tracked (OMB M-04-25).

                                    5.b(7). Security weaknesses are not appropriately prioritized (OMB M-04-25).

                                    5.b(8). Milestone dates are not adhered to (OMB M-04-25).
                                    5.b(9). Initial target remediation dates are frequently missed (OMB M-04-25).

                                    5.b(10). POA&Ms are not updated in a timely manner (NIST SP 800-53,
                                    Rev. 3, Control CA-5, and OMB M-04-25).
                           9        5.b(11). Costs associated with remediating weaknesses are not identified
                                    (NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25).
                                    5.b(12). Agency Chief Information Officer does not track and review
                                    POA&Ms (NIST SP 800-53, Rev. 3, Control CA-5, and OMB M-04-25).
                                    5.b(13). Other

                                    5.b(13ex). Explanation for Other
                                5.c. The Agency has not established a POA&M program.

Comments: Our review of the 10 IRS systems selected for the Fiscal Year 2011 FISMA evaluation found that
improvements were needed to ensure costs associated with remediating weaknesses are identified.
    x   Thirteen (39 percent) of 33 closed weaknesses and 24 (31 percent) of 77 open weaknesses, maintained in
        the 10 IRS systems’ Fiscal Year 2011 POA&Ms, did not have costs associated with remediating the
        weaknesses in accordance with IRS policy.

6: Remote Access Management
Status of Remote Access    9 6.a. The Agency has established and is maintaining a remote access program that
Management Program              is consistent with FISMA requirements, OMB policy, and applicable NIST
[check one]                     guidelines. Although improvement opportunities may have been identified by the
                                OIG, the program includes the following attributes:
                                    6.a(1). Documented policies and procedures for authorizing, monitoring, and
                                    controlling all methods of remote access.
                                    6.a(2). Protects against unauthorized connections or subversion of authorized
                                    connections.
                                    6.a(3). Users are uniquely identified and authenticated for all access.
                                    6.a(4). If applicable, multi-factor authentication is required for remote access.
                                    6.a(5). Authentication mechanisms meet NIST Special Publication 800-63


                                                                                                              Page 10
                                Treasury Inspector General for Tax
                            Administration – Federal Information Security
                            Management Act Report for Fiscal Year 2011


                                guidance on remote electronic authentication, including strength mechanisms.
                                6.a(6). Defines and implements encryption requirements for information
                                transmitted across public networks.
                                6.a(7). Remote access sessions, in accordance to OMB M-07-16, are
                                timed-out after 30 minutes of inactivity after which re-authentication is
                                required.

                            6.b. The Agency has established and is maintaining a remote access program.
                            However, the Agency needs to make significant improvements as noted below.
If 6.b. is checked above,        6.b(1). Remote access policy is not fully developed (NIST 800-53: AC-1,
check areas that need            AC-17).
significant improvement:         6.b(2). Remote access procedures are not fully developed and sufficiently
                                 detailed (NIST 800-53: AC-1, AC-17).
                                 6.b(3). Remote access procedures are not consistently implemented in
                                 accordance with government policies (NIST 800-53: AC-1, AC-17).
                                 6.b(4). Telecommuting policy is not fully developed (NIST 800-46,
                                 Section 5.1).
                                 6.b(5). Telecommuting procedures are not fully developed or sufficiently
                                 detailed in accordance with government policies (NIST 800-46, Section 5.4).
                                 6.b(6). Agency cannot identify all users who require remote access
                                 (NIST 800-46, Section 4.2, Section 5.1).
                                 6.b(7). Multi-factor authentication is not properly deployed (NIST 800-46,
                                 Section 2.2, Section 3.3).
                                 6.b(8). Agency has not identified all remote devices (NIST 800-46,
                                 Section 2.1).
                                 6.b(9). Agency has not determined all remote devices and/or end user
                                 computers have been properly secured (NIST 800-46, Section 3.1 and 4.2).
                                 6.b(10). Agency does not adequately monitor remote devices when connected
                                 to the agency’s networks remotely in accordance with government policies
                                 (NIST 800-46, Section 3.2).
                                 6.b(11). Lost or stolen devices are not disabled and appropriately reported
                                 (NIST 800-46, Section 4.3, US-CERT Incident Reporting Guidelines).
                                 6.b(12). Remote access rules of behavior are not adequate in accordance with
                                 government policies (NIST 800-53, PL-4).
                                 6.b(13). Remote access user agreements are not adequate in accordance with
                                 government policies (NIST 800-46, Section 5.1, NIST 800-53, PS-6).
                                6.b(14). Other

                                6.b(14ex). Explanation for Other

                            6.c. The Agency has not established a program for providing secure remote access.
Comments:




                                                                                                       Page 11
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




7: Identity and Access Management
Status of Account and           7.a. The Agency has established and is maintaining an identity and access
Identity Management             management program that is consistent with FISMA requirements, OMB policy,
Program [check one]             and applicable NIST guidelines, and identifies users and network devices.
                                Although improvement opportunities may have been identified by the OIG, the
                                program includes the following attributes:
                                    7.a(1). Documented policies and procedures for account and identity
                                    management.
                                    7.a(2). Identifies all users, including Federal employees, contractors, and
                                    others who access Agency systems.
                                    7.a(3). Identifies when special access requirements (e.g., multi-factor
                                    authentication) are necessary.
                                    7.a(4). If multi-factor authentication is in use, it is linked to the Agency’s
                                    personal identity verification program where appropriate.
                                    7.a(5). Ensures that the users are granted access based on needs and separation
                                    of duties principles.
                                    7.a(6). Identifies devices that are attached to the network and distinguishes
                                    these devices from users.
                                    7.a(7). Ensures that accounts are terminated or deactivated once access is no
                                    longer required.
                                     7.a(8). Identifies and controls use of shared accounts.
                                7.b. The Agency has established and is maintaining an identity and access
                            9   management program that identifies users and network devices. However, the
                                Agency needs to make significant improvements as noted below.
If 7.b. is checked above,            7.b(1). Account management policy is not fully developed (NIST 800-53:
check areas that need                AC-1).
significant improvement:             7.b(2). Account management procedures are not fully developed and
                                     sufficiently detailed (NIST 800-53: AC-1).
                            9        7.b(3). Account management procedures are not consistently implemented in
                                     accordance with government policies (NIST 800-53: AC-2).
                                     7.b(4). Agency cannot identify all User and Non-User Accounts
                                     (NIST 800-53, AC-2).
                                     7.b(5). Accounts are not properly issued to new users (NIST 800-53, AC-2).

                            9       7.b(6). Accounts are not properly terminated when users no longer require
                                    access (NIST 800-53, AC-2).
                                    7.b(7). Agency does not use multi-factor authentication where required
                                    (NIST 800-53, IA-2).
                                    7.b(8). Agency has not adequately planned for implementation of personal
                                    identity verification for logical access in accordance with government policies
                                    (Homeland Security Presidential Directive 12, FIPS 201, OMB M-05-24,
                                    OMB M-07-06, OMB M-08-01, OMB M-11-11).


                                                                                                             Page 12
                                     Treasury Inspector General for Tax
                                 Administration – Federal Information Security
                                 Management Act Report for Fiscal Year 2011



                             9         7.b(9). Privileges granted are excessive or result in capability to perform
                                       conflicting functions (NIST 800-53, AC-2, AC-6).
                                       7.b(10). Agency does not use dual accounts for administrators (NIST 800-53,
                                       AC-5, AC-6).
                                       7.b(11). Network devices are not properly authenticated (NIST 800-53, IA-3).
                                       7.b(12). The process for requesting or approving membership in shared
                                       privileged accounts is not adequate in accordance to government policies.
                                       7.b(13). Use of shared privileged accounts is not necessary or justified.
                                       7.b(14). When shared accounts are used, the Agency does not renew shared
                                       account credentials when a member leaves the group.
                                       7.b(15). Other

                                       7.b(15ex). Explanation for Other

                                  7.c. The Agency has not established an identity and access management program.
Comments: In March 2011, the GAO reported 7 that the IRS had newly identified and unresolved weaknesses
related to access controls, configuration management, and segregation of duties that continue to jeopardize the
confidentiality, integrity, and availability of the financial and sensitive taxpayer information processed by IRS’s
systems. Considered collectively, these weaknesses were the basis for GAO’s determination that the IRS had a
material weakness in internal control over its financial reporting related to information security in Fiscal Year 2010.
In May 2011, the TIGTA reported8 access controls had not been implemented or were not operating effectively on
an IRS bankruptcy case tracking system, on which many IRS employees had excessive privileges. In addition, the
TIGTA reported that user accounts on the bankruptcy case tracking system were not properly terminated when users
no longer required access. Our review of the 10 IRS systems selected for the Fiscal Year 2011 FISMA evaluation
found that all systems needed improvement in implementing NIST baseline access controls and identity and
authentication controls.




7
  INFORMATION SECURITY: IRS Needs to Enhance Internal Control over Financial Reporting and Taxpayer
Data (GAO-11-308, dated March 2011).
8
  Access Controls for the Automated Insolvency System Need Improvement (Reference Number 2011-20-046,
dated May 16, 2011).
                                                                                                              Page 13
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




8: Continuous Monitoring Management
Status of Continuous        9   8.a. The Agency has established an enterprise-wide continuous monitoring
Monitoring Program              program that assesses the security state of information systems that is consistent
[check one]                     with FISMA requirements, OMB policy, and applicable NIST guidelines.
                                Although improvement opportunities may have been identified by the OIG, the
                                program includes the following attributes:
                                    8.a(1). Documented policies and procedures for continuous monitoring.
                                    8.a(2). Documented strategy and plans for continuous monitoring.
                                    8.a(3). Ongoing assessments of security controls (system-specific, hybrid, and
                                    common) that have been performed based on the approved continuous
                                    monitoring plans.
                                     8.a(4). Provides authorizing officials and other key system officials with
                                     security status reports covering updates to security plans and security
                                     assessment reports, as well as POA&M additions and updates with the
                                     frequency defined in the strategy and/or plans.
                                8.b. The Agency has established an enterprise-wide continuous monitoring
                                program that assesses the security state of information systems. However, the
                                Agency needs to make significant improvements as noted below.
If 8.b. is checked above,            8.b(1). Continuous monitoring policy is not fully developed (NIST 800-53:
check areas that need                CA-7).
significant                          8.b(2). Continuous monitoring procedures are not fully developed
improvement:                         (NIST 800-53: CA-7).
                                     8.b(3). Continuous monitoring procedures are not consistently implemented
                                     (NIST 800-53: CA-7; 800-37 Rev 1, Appendix G).
                                     8.b(4). Strategy or plan has not been fully developed for enterprise-wide
                                     continuous monitoring (NIST 800-37 Rev 1, Appendix G).
                                     8.b(5). Ongoing assessments of security controls (system-specific, hybrid, and
                                     common) have not been performed (NIST 800-53, NIST 800-53A).
                                     8.b(6). The following were not provided to the authorizing official or other
                                     key system officials: security status reports covering continuous monitoring
                                     results, updates to security plans, security assessment reports, and POA&Ms
                                     (NIST 800-53, NIST 800-53A).
                                    8.b(7). Other
                                    8.b(7ex). Explanation for Other
                                8.c. The Agency has not established a continuous monitoring program.
Comments:




                                                                                                           Page 14
                                   Treasury Inspector General for Tax
                               Administration – Federal Information Security
                               Management Act Report for Fiscal Year 2011




9: Contingency Planning
Status of Contingency
                            9 9.a. The Agency established and is maintaining an enterprise-wide business
Planning Program                continuity/disaster recovery program that is consistent with FISMA requirements,
[check one]                     OMB policy, and applicable NIST guidelines. Although improvement
                                opportunities may have been identified by the OIG, the program includes the
                                following attributes:
                                    9.a(1). Documented business continuity and disaster recovery policy
                                    providing the authority and guidance necessary to reduce the impact of a
                                    disruptive event or disaster.
                                    9.a(2). The agency has performed an overall business impact analysis.
                                    9.a(3). Development and documentation of division, component, and
                                    information technology infrastructure recovery strategies, plans and
                                    procedures.
                                    9.a(4). Testing of system specific contingency plans.
                                    9.a(5). The documented business continuity and disaster recovery plans are in
                                    place and can be implemented when necessary.
                                    9.a(6). Development of test, training, and exercise programs.
                                     9.a(7). Performance of regular ongoing testing or exercising of business
                                     continuity/disaster recovery plans to determine effectiveness and to maintain
                                     current plans.
                                9.b. The Agency has established and is maintaining an enterprise-wide business
                                continuity/disaster recovery program. However, the Agency needs to make
                                significant improvements as noted below.
If 9.b. is checked above,            9.b(1). Contingency planning policy is not fully developed contingency
check areas that need                planning policy is not consistently implemented (NIST 800-53: CP-1).
significant improvement:             9.b(2). Contingency planning procedures are not fully developed
                                     (NIST 800-53: CP-1).
                                     9.b(3). Contingency planning procedures are not consistently implemented
                                     (NIST 800-53; 800-34).
                                     9.b(4). An overall business impact assessment has not been performed
                                     (NIST SP 800-34).
                                     9.b(5). Development of organization, component, or infrastructure recovery
                                     strategies and plans has not been accomplished (NIST SP 800-34).
                                     9.b(6). A business continuity/disaster recovery plan has not been developed
                                     (Federal Continuity Directive 1 (FCD1), NIST SP 800-34).
                                     9.b(7). A business continuity/disaster recovery plan has been developed but
                                     not fully implemented (FCD1, NIST SP 800-34).
                                     9.b(8). System contingency plans missing or incomplete (FCD1, NIST
                                     SP 800-34, NIST SP 800-53).
                                     9.b(9). System contingency plans are not tested (FCD1, NIST SP 800-34,
                                     NIST SP 800-53).
                                     9.b(10). Test, training, and exercise programs have not been developed
                                     (FCD1, NIST SP 800-34, NIST 800-53).

                                                                                                           Page 15
                Treasury Inspector General for Tax
            Administration – Federal Information Security
            Management Act Report for Fiscal Year 2011


                9.b(11). Test, training, and exercise programs have been developed, but are
                not fully implemented (FCD1, NIST SP 800-34, NIST SP 800-53).
                9.b(12). After-action report did not address issues identified during
                contingency/disaster recovery exercises (FCD1, NIST SP 800-34).
                9.b(13). Systems do not have alternate processing sites (FCD1, NIST
                SP 800-34, NIST SP 800-53).
                9.b(14). Alternate processing sites are subject to the same risks as primary
                sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                9.b(15). Backups of information are not performed in a timely manner (FCD1,
                NIST SP 800-34, NIST SP 800-53).
                9.b(16). Backups are not appropriately tested (FCD1, NIST SP 800-34, NIST
                SP 800-53).
                9.b(17). Backups are not properly secured and protected (FCD1, NIST
                SP 800-34, NIST SP 800-53).
                9.b(18). Contingency planning does not consider supply chain threats.

                9.b(19). Other

                9.b(19ex). Explanation for Other
            9.c. The Agency has not established a business continuity/disaster recovery
            program.
Comments:




                                                                                     Page 16
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011




10: Contractor Systems
Status of Agency             9 10.a. The Agency has established and maintains a program to oversee systems
Program to Oversee               operated on its behalf by contractors or other entities, including Agency systems
Contractor Systems               and services residing in the cloud external to the Agency. Although improvement
[check one]                      opportunities may have been identified by the OIG, the program includes the
                                 following attributes:
                                     10.a(1). Documented policies and procedures for information security
                                     oversight of systems operated on the Agency’s behalf by contractors or other
                                     entities, including Agency systems and services residing in public cloud.
                                     10.a(2). The Agency obtains sufficient assurance that security controls of such
                                     systems and services are effectively implemented and comply with Federal
                                     and agency guidelines.
                                     10.a(3). A complete inventory of systems operated on the Agency’s behalf by
                                     contractors or other entities, including Agency systems and services residing
                                     in public cloud.
                                     10.a(4). The inventory identifies interfaces between these systems and
                                     Agency-operated systems.
                                     10.a(5). The agency requires appropriate agreements (e.g., Memorandums of
                                     Understanding, Interconnection Security Agreements, contracts, etc.) for
                                     interfaces between these systems and those that it owns and operates.
                                     10.a(6). The inventory of contractor systems is updated at least annually.
                                     10.a(7). Systems that are owned or operated by contractors or entities,
                                     including Agency systems and services residing in public cloud, are compliant
                                     with FISMA requirements, OMB policy, and applicable NIST guidelines.
                                 10.b. The Agency has established and maintains a program to oversee systems
                                 operated on its behalf by contractors or other entities, including Agency systems
                                 and services residing in public cloud. However, the Agency needs to make
                                 significant improvements as noted below.
If 10.b. is checked above,           10.b(1). Policies to oversee systems operated on the Agency’s behalf by
check areas that need                contractors or other entities, including Agency systems and services residing
significant improvement:             in public cloud, are not fully developed.
                                     10.b(2). Procedures to oversee systems operated on the Agency’s behalf by
                                     contractors or other entities, including Agency systems and services residing
                                     in public cloud, are not fully developed.
                                     10.b(3). Procedures to oversee systems operated on the Agency’s behalf by
                                     contractors or other entities, including Agency systems and services residing
                                     in public cloud are not consistently implemented.
                                     10.b(4). The inventory of systems owned or operated by contractors or other
                                     entities, including Agency systems and services residing in public cloud, is
                                     not complete in accordance with government policies (NIST 800-53: PM-5).
                                     10.b(5). The inventory does not identify interfaces between
                                     contractor/entity-operated systems to Agency owned and operated systems.


                                                                                                           Page 17
                                    Treasury Inspector General for Tax
                                Administration – Federal Information Security
                                Management Act Report for Fiscal Year 2011


                                      10.b(6). The inventory of contractor/entity-operated systems, including
                                      interfaces, is not updated at least annually.
                                      10.b(7). Systems owned or operated by contractors and entities are not subject
                                      to NIST and OMB’s FISMA requirements (e.g., security requirements).
                                      10.b(8). Systems owned or operated by contractors and entities do not meet
                                      NIST and OMB’s FISMA requirements (e.g., security requirements).
                                      10.b(9). Interface agreements (e.g., Memorandums of Understanding) are not
                                      properly documented, authorized, or maintained.
                                      10.b(10). Other

                                      10.b(10ex). Explanation for Other:
                                 10.c. The Agency does not have a program to oversee systems operated on its
                                 behalf by contractors or other entities, including Agency systems and services
                                 residing in public cloud.
Comments:


11: Security Capital Planning
Status of Agency
                             9 11.a. The Agency has established and maintains a security capital planning and
Program to Oversee             investment program for information security. Although improvement
Security Capital Planning        opportunities may have been identified by the OIG, the program includes the
[check one]                      following attributes:
                                      11.a(1). Documented policies and procedures to address information security
                                      in the capital planning and investment control process.
                                      11.a(2). Includes information security requirements as part of the capital
                                      planning and investment process.
                                      11.a(3). Establishes a discrete line item for information security in
                                      organizational programming and documentation.
                                      11.a(4). Employs a business case/Exhibit 300/Exhibit 53 to record the
                                      information security resources required.
                                     11.a(5). Ensures that information security resources are available for
                                     expenditure as planned.
                                 11.b. The Agency has established and maintains a capital planning and investment
                                 program. However, the Agency needs to make significant improvements as noted
                                 below.
If 11.b. is checked above,           11.b(1). Capital planning and investment control information security policy
check areas that need                is not fully developed.
significant improvement:             11.b(2). Capital planning and investment control information security
                                     procedures are not fully developed.
                                     11.b(3). Capital planning and investment control information security
                                     procedures are not consistently implemented.
                                     11.b(4). The Agency does not adequately plan for information technology
                                     security during the capital planning and investment control process
                                     (SP 800-65).


                                                                                                              Page 18
                Treasury Inspector General for Tax
            Administration – Federal Information Security
            Management Act Report for Fiscal Year 2011


                11.b(5). The Agency does not include a separate line for information security
                in appropriate documentation (NIST 800-53: SA-2).
                11.b(6). Exhibits 300/53 or business cases do not adequately address or
                identify information security costs (NIST 800-53: PM-3).
                11.b(7). The Agency does not provide information technology security
                funding to maintain the security levels identified.
                11.b(8). Other

                11.b(8ex). Explanation for Other
            11.c. The Agency does not have a capital planning and investment program.
Comments:




                                                                                    Page 19
                          Treasury Inspector General for Tax
                      Administration – Federal Information Security
                      Management Act Report for Fiscal Year 2011



                                                                            Appendix I

Treasury Inspector General for Tax Administration
 Information Technology Security Reports Issued
   During the Fiscal Year 2011 Evaluation Period

1. The Internal Revenue Service Is Improving Management Controls for Information
   Technology Strategic Planning and Capital Investments (Reference
   Number 2010-20-064, dated July 9, 2010).
2. Additional Actions and Resources Are Needed to Resolve the Audit Trail Portion of the
   Computer Security Material Weakness (Reference Number 2010-20-082, dated
   July 28, 2010).
3. More Actions Are Needed to Correct the Security Roles and Responsibilities Portion of
   the Computer Security Material Weakness (Reference Number 2010-20-084, dated
   August 26, 2010).
4. The Federal Student Aid Datashare Application Was Successfully Deployed, but
   Improvements in Systems Development Disciplines Are Needed (Reference
   Number 2010-20-099, dated September 3, 2010).
5. Treasury Inspector General for Tax Administration Federal Information Security
   Management Act (Non-Intelligence National Security Systems) Report for Fiscal Year
   2010 (Reference Number 2010-20-101, dated September 9, 2010).
6. Annual Assessment of the Business Systems Modernization Program (Reference
   Number 2010-20-094, dated September 23, 2010).
7. Treasury Inspector General for Tax Administration – Federal Information Security
   Management Act Report for Fiscal Year 2010 (Reference Number 2011-20-003, dated
   November 10, 2010).
8. Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer Account
   Administration (Reference Number 2011-20-001, dated November 24, 2010).
9. The Sustaining Infrastructure Program Is Significantly Improved and a Comprehensive
   Information Technology Infrastructure Strategy Has Been Developed (Reference
   Number 2011-20-006, dated December 30, 2010).
10. Additional Security Is Needed for the Taxpayer Secure Email Program (Reference
    Number 2011-20-012, dated February 4, 2011).

                                                                                   Page 20
                          Treasury Inspector General for Tax
                      Administration – Federal Information Security
                      Management Act Report for Fiscal Year 2011


11. The Applications Development Function’s Quality Assurance Program Office Can Make
    Its Processes More Effective (Reference Number 2011-20-007, dated February 17, 2011).
12. Security Over Databases Could Be Enhanced to Ensure Taxpayer Data Are Protected
    (Reference Number 2011-20-044, dated May 4, 2011).
13. Access Controls for the Automated Insolvency System Need Improvement (Reference
    Number 2011-20-046, dated May 16, 2011).
14. Corrective Actions to Address the Disaster Recovery Material Weakness Are Being
    Completed (Reference Number 2011-20-060, dated June 27, 2011).




                                                                                 Page 21
                              Treasury Inspector General for Tax
                          Administration – Federal Information Security
                          Management Act Report for Fiscal Year 2011



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Jody Kitazono, Audit Manager
Louis Lee, Lead Auditor
Charles Ekunwe, Senior Auditor
Bret Hunter, Senior Auditor
Esther Wilson, Senior Auditor
Victor Taylor, Auditor




                                                                                     Page 22
                           Treasury Inspector General for Tax
                       Administration – Federal Information Security
                       Management Act Report for Fiscal Year 2011



                                                                 Appendix III

                       Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Technology Officer OS:CTO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                       Page 23
